<html>
<title> - DISCONNECTED AND DISADVANTAGED YOUTH</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                  DISCONNECTED AND DISADVANTAGED YOUTH 

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                   INCOME SECURITY AND FAMILY SUPPORT

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 19, 2007

                               __________

                           Serial No. 110-48

                               __________

         Printed for the use of the Committee on Ways and Means

                               ----------
                        U.S. GOVERNMENT PRINTING OFFICE 

43-759 PDF                     WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 





















































                      COMMITTEE ON WAYS AND MEANS

                 CHARLES B. RANGEL, New York, Chairman

FORTNEY PETE STARK, California       JIM McCRERY, Louisiana
SANDER M. LEVIN, Michigan            WALLY HERGER, California
JIM McDERMOTT, Washington            DAVE CAMP, Michigan
JOHN LEWIS, Georgia                  JIM RAMSTAD, Minnesota
RICHARD E. NEAL, Massachusetts       SAM JOHNSON, Texas
MICHAEL R. McNULTY, New York         PHIL ENGLISH, Pennsylvania
JOHN S. TANNER, Tennessee            JERRY WELLER, Illinois
XAVIER BECERRA, California           KENNY C. HULSHOF, Missouri
LLOYD DOGGETT, Texas                 RON LEWIS, Kentucky
EARL POMEROY, North Dakota           KEVIN BRADY, Texas
STEPHANIE TUBBS JONES, Ohio          THOMAS M. REYNOLDS, New York
MIKE THOMPSON, California            PAUL RYAN, Wisconsin
JOHN B. LARSON, Connecticut          ERIC CANTOR, Virginia
RAHM EMANUEL, Illinois               JOHN LINDER, Georgia
EARL BLUMENAUER, Oregon              DEVIN NUNES, California
RON KIND, Wisconsin                  PAT TIBERI, Ohio
BILL PASCRELL, Jr., New Jersey       JON PORTER, Nevada
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
CHRIS VAN HOLLEN, Maryland
KENDRICK MEEK, Florida
ALLYSON Y. SCHWARTZ, Pennsylvania
ARTUR DAVIS, Alabama

             Janice Mays, Chief Counsel and Staff Director

                  Brett Loper, Minority Staff Director

                                 ______

           Subcommittee on Income Security and Family Support

                  JIM McDERMOTT, Washington, Chairman

FORTNEY PETE STARK, California       JERRY WELLER, Illinois
ARTUR DAVIS, Alabama                 WALLY HERGER, California
JOHN LEWIS, Georgia                  DAVE CAMP, Michigan
MICHAEL R. McNULTY, New York         JON PORTER, Nevada
SHELLEY BERKLEY, Nevada              PHIL ENGLISH, Pennsylvania
CHRIS VAN HOLLEN, Maryland
KENDRICK MEEK, Florida

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


































                            C O N T E N T S

                               __________

                                                                   Page

Advisory of June 12, 2007, announcing the hearing................     2

                               WITNESSES

The Honorable John Yarmuth, a Representative in Congress from the 
  State of Kentucky..............................................     6
The Honorable Michele Bachmann, a Representative in Congress from 
  the State of Minnesota.........................................     9

                                 ______

Jewel, Recording Artist..........................................    14
Deborah Shore, Executive Director, Sasha Bruce Youthwork.........    20
DeCario Whitfield................................................    28
Ronald B. Mincy, Ph.D., Maurice V. Russell Professor of Social 
  Policy and Social Work Practice, Columbia University School of 
  Social Work....................................................    31
Martha R. Burt, Ph.D., Research Associate, Center on Labor, Human 
  Services and Population, The Urban Institute...................    36
Dan Lips, Education Analyst, The Heritage Foundation.............    46

                       SUBMISSIONS FOR THE RECORD

Center for Law and Social Policy, statement......................    75
Greater Miami Service Corps, statement...........................    82
Honorable Ruben Hinojosa, a Representative in Congress from the 
  State of Texas, statement......................................    85
National Council For Adoption, statement.........................    87
National Human Services Assembly, statement......................    89
National Network for Youth, statement............................    92
National YouthBuild Coalition, statement.........................    96


                  DISCONNECTED AND DISADVANTAGED YOUTH

                              ----------                              


                         TUESDAY, JUNE 19, 2007

             U.S. House of Representatives,
                       Committee on Ways and Means,
        Subcommittee on Income Security and Family Support,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 10:03 a.m., in 
room B-318, Rayburn House Office Building, Hon. Jim McDermott 
(Chairman of the Subcommittee), presiding.
    [The advisory announcing the hearing follows:]

ADVISORY

FROM THE 
COMMITTEE
 ON WAYS 
AND 
MEANS

                            SUBCOMMITTEE ON

                   INCOME SECURITY AND FAMILY SUPPORT

                                                CONTACT: (202) 225-1025
FOR IMMEDIATE RELEASE
June 19, 2007
ISFS-8

                     McDermott Announces Hearing on

                  Disconnected and Disadvantaged Youth

    Congressman Jim McDermott (D-WA), Chairman of the Subcommittee on 
Income Security and Family Support of the Committee on Ways and Means, 
today announced that the Subcommittee will hold a hearing on 
disconnected and disadvantaged youth. The hearing will take place on 
Tuesday, June 19, 2007, at 1:00 p.m. in room B-318, Rayburn House 
Office Building.
      
    In view of the limited time available to hear witnesses, oral 
testimony at this hearing will be from invited witnesses only. However, 
any individual or organization not scheduled for an oral appearance may 
submit a written statement for consideration by the Committee and for 
inclusion in the printed record of the hearing.
      

BACKGROUND:

      
    Approximately 2.3 million noninstitutionalized youth between the 
ages of 16 and 24 have neither attended school, nor worked at anytime 
over the last year according to the most recent data compiled by the 
Congressional Research Service. Additionally, past studies suggest that 
at least 1 million children between the ages of 12 to 17 experience 
some period of homelessness every year.
      
    A myriad of issues may lead to youth becoming detached from school 
and work and/or becoming homeless, including poverty, inferior schools, 
the lack of economic opportunity, racial discrimination, substance 
abuse, teenage parenthood, interaction with the criminal justice 
system, family instability and violence, and a difficult transition 
from foster care. There are a number of programs that either 
specifically or indirectly focus on disadvantaged and vulnerable youth, 
but some experts have suggested the overall response is fragmented and 
serves only a fraction of those in need.
      
    While the issue of disconnected youth is not new, the problem has 
increased in recent years for certain groups. For example, the 
percentage of African American men between the age of 20 and 24 who are 
both out of work and out of school rose from 9.5 percent in 1998 to 
14.1 percent in 2005. This rate would climb significantly if it 
included young men who were incarcerated.
      
    In announcing the hearing, Chairman McDermott stated, ``We cannot 
afford to lose the productive talents of millions of our youngest 
citizens who cannot find a place in the world of school and work. Nor 
can we stand by as some of them go without the bare essentials of life, 
starting with a place to call home. We need to search for a better way 
to reconnect these youth to what so many of us take for granted.''
      

FOCUS OF THE HEARING:

      
    The hearing will focus on disconnected, disadvantaged and homeless 
youth.

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
for the hearing record must follow the appropriate link on the hearing 
page of the Committee website and complete the informational forms. 
From the Committee homepage, http://waysandmeans.house.gov, select 
``110th Congress'' from the menu entitled, ``Hearing Archives'' (http:/
/waysandmeans.house.gov/Hearings.asp?congress=18). Select the hearing 
for which you would like to submit, and click on the link entitled, 
``Click here to provide a submission for the record.'' Once you have 
followed the online instructions, completing all informational forms 
and clicking ``submit'' on the final page, an email will be sent to the 
address which you supply confirming your interest in providing a 
submission for the record. You MUST REPLY to the email and ATTACH your 
submission as a Word or WordPerfect document, in compliance with the 
formatting requirements listed below, by close of business July 3, 
2007. Finally, please note that due to the change in House mail policy, 
the U.S. Capitol Police will refuse sealed-package deliveries to all 
House Office Buildings. For questions, or if you encounter technical 
problems, please call (202) 225-1721.
      

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any supplementary materials submitted for the 
printed record, and any written comments in response to a request for 
written comments must conform to the guidelines listed below. Any 
submission or supplementary item not in compliance with these 
guidelines will not be printed, but will be maintained in the Committee 
files for review and use by the Committee.
      
    1. All submissions and supplementary materials must be provided in 
Word or WordPerfect format and MUST NOT exceed a total of 10 pages, 
including attachments. Witnesses and submitters are advised that the 
Committee relies on electronic submissions for printing the official 
hearing record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. All submissions must include a list of all clients, persons, 
and/or organizations on whose behalf the witness appears. A 
supplemental sheet must accompany each submission listing the name, 
company, address, telephone and fax numbers of each witness.
      
    Note: All Committee advisories and news releases are available on 
the World Wide Web at http://waysandmeans.house.gov.
      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.

                                 <F-dash>

    Chairman MCDERMOTT. The Committee will come to order.
    Today we're going to talk about homelessness. There are too 
many Americans out of school and out of work and out of their 
homes and really out of luck, and it's time for America to pay 
more attention, because we can make a difference and I believe 
we really must make a difference.
    In 2005 there were 2.3 million youths between the ages of 
16 and 24 who did not work or attend school at any time. That's 
a lot of kids. Estimates for the number of homeless youth are 
more dated and more varied, but there are likely more than 1 
million in any given year.
    The purpose of today's hearing is to discuss the pathways 
that lead to young people becoming detached from school, work 
and housing. We also hope to learn about both existing and 
potential programs designed to help prevent and respond to 
homelessness and separation from school and work.
    Both our hearts and our heads should propel us toward 
improving our outreach to these young Americans. The thought of 
a teenage person confronting homelessness or pondering life 
without hope should stir the emotions in all of us.
    The reality that reconnecting youth will improve so many 
other concerns confronting our nation illustrates the wisdom of 
moving forward. Issues like long-term economic development, 
crime, and poverty are all intertwined with the lives of these 
young people.
    None of this is meant to suggest that there's a simple 
answer that will respond to all the needs of disadvantaged 
kids. There are a variety of circumstances that might lead to a 
young person becoming homeless or dropped out of the worlds of 
school or work. Poverty plays a lead role but family 
instability, teenage parenthood and many other factors also 
contribute to the problem.
    While the issue of disconnected youth is certainly not new, 
data suggest the problem may be growing for certain groups, 
especially young black men. Additionally the long-term costs of 
dropping out of school may be higher than ever given the 
premium the global economy places on education and skills.
    There are some very helpful programs that reach out to 
disadvantaged youth, one of which we'll hear about today. 
However questions still linger about whether there are enough 
of these programs, whether they address the myriad of new 
challenges kids face today from higher housing costs to 
declining manufacturing jobs and whether there is a way to tie 
them together in a more systematic way.
    Furthermore, there are certain broader policies related to 
education and housing and making work pay that would likely 
provide significant dividends for disadvantaged youth. Finally, 
this Subcommittee takes special notice of the fact that youth 
coming out of the foster care system, they've been in the 
foster care system up to age 18, are suddenly dropped on the 
street cold, and they are at a particular risk of being both 
homeless and jobless. Our burden to help these kids is 
especially high since the government has acted as their legal 
parent. Your parents don't ordinarily shove you out of the 
house at 18 with nothing, but that's basically what we do to 
young people in the foster care system.
    The Subcommittee will hold future hearings to look 
specifically at that particular part of the issue. I would like 
to now yield to the Subcommittee's ranking member, Mr. Weller. 
Jerry.
    Mr. WELLER. Thank you, Mr. Chairman, and thank you for 
conducting this important hearing today. Today's hearing is on 
disconnected youth. As we will hear, disconnected youth include 
those who drop out of school, do not work and often end up in 
the streets.
    The very title ``disconnected youth'' begs the question how 
are kids connected. The answer is two ways, through their 
family and through their school. Kids are connected through 
their family starting with the love and support of their 
parents, and that goes beyond financial support to the deep 
sense of belonging associated with being a son or daughter who 
is loved, protected, and encouraged on the road of life.
    As one of our witnesses puts it, we should all remain 
mindful that strengthening families is the best way to prevent 
the suffering and social disconnection among our young people. 
I totally agree.
    The second way kids are connected, especially as they get 
older, is through their school. That really means through the 
circle of friends, teachers, coaches and other mentors they 
rely on as they become more independent and develop the habits 
and skills needed for life on their own.
    Think about kids who don't have both or even one of those 
connections. Kids in foster care have been removed from their 
own parents due to abuse and neglect. That's traumatic enough, 
but now add in the fact that many foster children are bounced 
not only from home to home but also from school to school.
    A 2004 study of young adults in the Midwest found that over 
a third of those who aged out of foster care reported having 
had five or more school changes. Five or more school changes 
for a group already separated from their parents, that's the 
definition of disconnection.
    Studies show high school students who change schools even 
once are less than half as likely to graduate as those who 
don't change schools. No wonder there is a 20 percentage point 
difference between the high school graduation rates of foster 
youth and their peers according to the group Kids Count, all of 
which contributes to the often grim prospects for children of 
foster care, especially those who spend the most time in care 
and bounce from school to school and thus are the most likely 
to drop out.
    According to the Nonpartisan American Youth Policy Forum, 
high school dropouts are substantially more likely to be 
unemployed and on welfare. Youth who drop out are three-and-a-
half times more likely to be incarcerated during their 
lifetimes. Those who work earn 50 percent less than those with 
high school diplomas. Even the death rate for youth who drop 
out of school is higher.
    So, it seems to me we should be doing everything we can to 
increase high school completion rates in general. For kids in 
foster care who are already disconnected from their parents it 
is especially important for them to stay connected to their 
school including the friends, teachers and mentors they trust 
and who know them.
    I welcome the broader testimony we will hear today about 
homelessness and the various funding sources beyond the scope 
of this Subcommittee addressing that. I am very eager, 
especially eager, to focus on what we can do within the foster 
care system to increase the chances these already vulnerable 
children at the very least get their high school diplomas.
    Fortunately, as we will hear, there are good options some 
states are already putting into effect. We should spread the 
word and consider enacting Federal legislation that provides 
more foster youth the opportunity to stay better connected to 
their schools, to graduate and to create the foundation for 
productive and happy lives.
    I look forward to hearing all of today's testimony. Thank 
you, Mr. Chairman.
    Chairman MCDERMOTT. Thank you. Other members are welcome to 
make entries into the record, and without objection we will 
accept them.
    We're going to begin today by having a couple of Members of 
Congress. It's very seldom that Members of Congress come and 
ask to testify at something, so I want you to realize that this 
is a unique event. Today John Yarmuth from the third 
congressional district in Kentucky will begin, and he'll be 
followed by Michele Bachmann from the sixth district of 
Minnesota.
    John.

 STATEMENT OF HON. JOHN YARMUTH, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF KENTUCKY

    Mr. YARMUTH. Thank you, Mr. Chairman.
    Chairman McDermott, Ranking Member Weller and colleagues, I 
appreciate the opportunity to testify today at this hearing on 
disconnected and disadvantaged youth.
    As a member of the Education and Labor Committee, I, like 
you, have a high level of interest in youth who are detached 
from family, school, work and any sort of permanency. Our 
missions are similar, and I look forward to finding common 
ground where our Committees can work together to address the 
life challenges of our nation's disconnected youth.
    Before coming to Washington I volunteered a considerable 
amount of time at organizations that work with disconnected 
youth. We are fortunate in my hometown of Louisville to house 
some of the finest services for disconnected youth in the 
nation with the headquarters of the National Safe Place and 
Boys' Haven.
    There I saw firsthand the hardships and devastation 
resulting from homelessness. My experiences with these agencies 
and Kentucky's disconnected youth have served as a reminder 
that homelessness is more than a collection of sociological and 
economic data, as it sometimes ends up being viewed here in the 
halls of Congress, but a myriad of human stories.
    I am thankful that Jewel and DeCario Whitfield are here 
today to share some of those stories with us, to help us 
understand that of the 3 million children who run away or 
experience homelessness each year, each one has a story of 
abuse, physical, psychological or emotional, and each child is 
in need of structure, stability and permanency.
    Unfortunately, despite the superb work of organizations 
across the country we are failing these children at every turn. 
The funds and personnel to accommodate the bare necessities of 
so many Americans in need have simply not been made available. 
We must explore and implement measures to incentivize careers 
that provide these badly needed services to our communities.
    Last week in the Education and Labor Committee we adopted 
an amendment to the College Cost Reduction Act that will 
incentivize such work with $1,000 in loan forgiveness each year 
for five years. I believe this measure is a good start, but 
there is far more to do to build an infrastructure capable of 
responding to the pandemic problem of disconnected youth.
    As I have found working with Congresswoman McCarthy on the 
reauthorization of the Runaway Homeless Youth Act, the story 
gets much worse once one realizes that the failings are not 
limited to just funding and personnel. The necessary 
infrastructure is simply not in place.
    The upside is that we are in a position to change that if 
we focus our energy in the right areas. Luckily for us, the 
deficiencies are glaring and practically begging us to step in. 
For example, we have little to no ability to monitor success of 
programs serving disconnected youth.
    Homeless youth enter these systems temporarily and then 
leave. There is currently no comprehensive system linking 
juvenile courts, foster care, homeless shelters, schools, 
hospitals and social service providers. So, we don't know where 
they go and we don't offer services once they have gone. They 
are simply out of the system, disconnected once more.
    We must do more than just contain these little children 
while we have them. They have come into the system lost, 
reaching out, and we must set them on a path to adulthood 
prepared for the workplace and ready for the world without 
dragging the dead weight of a history of neglect.
    They also face a hurdle that won't surprise anyone here 
because it is consistent with one out of six Americans: no 
access to health care. With our nation's disconnected youth, we 
are talking about children often living in unsanitary 
conditions, many the victims of abuse and all of whom are in 
need of care.
    At a minimum, we have an obligation to tend to the health 
of these children through Medicaid or other means. Providing 
health care to these 3 million American children cannot be 
treated as an option any longer.
    In my three-minute assessment of the failings in the area 
of disconnected youth, the hurdles may seem insurmountable, but 
we cannot let ourselves get so caught up in the distance we 
have to go that we become too intimidated to take the next step 
forward.
    Ultimately, we need to consolidate our resources and 
services for the disconnected so that they no longer get lost 
in the system while seeking services. A homeless shelter can be 
more than a place to stay and eat a meal. It can be a place to 
access comprehensive services like health care, education, 
economic assistance and job training. When these scattered 
services can be found under one roof, we will truly be offering 
a path to housing, employment and independence.
    In our reauthorization of the Runaway Homeless Youth Act 
we've taken steps to help children prepare for adulthood with 
the transitional living program that teaches homeless 15 to 18 
year olds life's basics: cooking, laundry, financial literacy 
and the basics of finding a job.
    The legislation also tackles the absolute basics with a 
national switchboard to provide help by phone or e-mail to 
those who need it, the Basic Center Program, that gives young 
people a place to stay while they reintegrate with their 
families and the Street Outreach Program that will very simply 
make connections with kids on the streets.
    It is my hope that our Committees can work together to make 
a much stronger and broader impact by exploring the 
possibilities of expanding temporary assistance for needy 
families to include disconnected youth who have children, fully 
utilizing the Social Service Block Grants to fund organizations 
that help foster children and runaways and ensuring that 
children are tapping into Federal welfare services that will 
help these young Americans prepare to face the world.
    As we move forward together on issues facing disconnected 
youth, I hope we all feel not only the urgency to act but that 
we also share a sense of optimism for what we can accomplish 
together on behalf of youth in every corner of America. I look 
forward to the reauthorization of the Runaway Homeless Youth 
Act, the findings of this hearing and future progress we make 
in this institution. Thank you.
    [The prepared statement of Mr. Yarmuth follows:]
           Prepared Statement of The Honorable John Yarmuth,
        a Representative in Congress from the State of Kentucky
    Thank you for the opportunity to testify today at this hearing on 
Disconnected and Disadvantaged Youth. As a member of the Education and 
Labor Committee, I, like you, have a high level of interest in youth 
who are detached from family, school, work, and any sort of permanency. 
Our missions are similar, and I look forward to finding common ground 
where our committees can work together to address the life challenges 
of our nation's disconnected youth.
    Before coming to Washington, I volunteered a considerable amount of 
time at organizations that work with disconnected youth. We are 
fortunate in my hometown of Louisville to house some of the finest 
services for disconnected youth in the nation with the headquarters for 
National Safe Place and Boys' Haven. There, I saw first hand the 
hardships and devastation that comes as a result of homelessness.
    My experiences with these agencies and Kentucky's disconnected 
youth have served as a reminder that homelessness is more than a 
collection of sociological and economic data--as it can sometimes seem 
here in the halls of Congress--but a myriad of human stories. I am 
thankful that Jewel and DeCario Whitfield are here today to share some 
of those stories with us, to help us understand that of the three 
million children who runaway or experience homelessness each year, each 
one has a story of story of abuse: physical, psychological, or 
emotional. And each child is in need of structure, stability, and 
permanency in their lives.
    Unfortunately, despite the superb work of the organizations I named 
and others such as the National Network for Youth and Alliance to End 
Homelessness--the system is failing these children at every turn. The 
funds and personnel to accommodate the bare necessities of so many 
Americans in need are simply not available. We must explore and 
implement measures that incentivize careers that provide these badly 
needed services to our communities. Last week, I introduced an 
amendment to the College Cost Reduction Act that will incentivize work 
in such areas with $1,000 in loan forgiveness each year for five years. 
I believe that this measure is a good start, but there is far more to 
do to build an infrastructure capable of dealing with a problem of this 
magnitude.
    As I found in my work with Congresswoman McCarthy and our work on 
the reauthorization for the Runaway Homeless Youth Act, the story gets 
much worse once one realizes that the failings are not limited to just 
funding and personnel; the necessary services are simply not in place. 
The upside is that we are in a position to change that if we focus our 
energy in the right areas. Luckily for us, the deficiencies are glaring 
and practically begging us to step in.
    For example: We have little to no ability to monitor success. 
Homeless youth enter these systems temporarily and then leave. We don't 
know where they go, we don't offer services once they have gone, they 
are simply out of the system--disconnected once more. We cannot be 
content to simply contain these children while we have them. They have 
come into the system lost, reaching out, and we must set them on a path 
to adulthood prepared for the workplace and ready for the world, 
without dragging the dead weight of a history of neglect.
    They also face a hurdle that won't surprise anyone here because it 
is consistent with one out of six Americans: No access to healthcare. 
With our nation's disconnected youth we are talking about children 
living in unsanitary conditions without guidance, many the victims of 
abuse, and all of whom are in need of care. We have an obligation to, 
at a bare minimum; tend to the health of these children, whether 
through Medicaid or other means. Providing healthcare to these three 
million American children cannot be treated as an option any longer.
    In my three minute assessment of the failings in the area of 
disconnected youth, the hurdles seem insurmountable . . . even to me. 
But we cannot let ourselves get so caught up in the distance we have to 
go that we become too intimidated to take the next step forward.
    In our reauthorization, we've taken steps to help children prepare 
for adulthood with a Transitional Living Program that teaches homeless 
15 to 18 year-old to do the basics: cooking, laundry, learn financial 
literacy and the basics of finding a job. It tackles the absolute 
basics, with the National Switchboard to provide help by phone or email 
to those who need it, the Basic Center Program that gives young people 
a place to stay while they reintegrate with their families, and the 
Street Outreach Program that will very simply make connections with 
kids on the streets.
    Likewise, our committees can work together on the next relatively 
small but crucial steps: expanding Temporary Assistance for Needy 
Families to include disconnected youth who have children, utilizing the 
Social Service Block Grants to fund organizations that help foster 
children and runaways, and ensuring that children are tapping into 
federal welfare services that can ensure that when young Americans move 
on from these services, they are truly ready to face the world.
    As we move forward together on issues facing disconnected youth, I 
hope that you are--like me--feeling the urgency to act, but also 
optimistic for what we can accomplish together on behalf of youth in 
every corner of America. I look forward to the reauthorization of the 
Runaway Homeless Youth Act, the findings of this hearing, and future 
progress we take in this institution. Thank you.

                                 <F-dash>

    Chairman MCDERMOTT. Thank you.
    Ms. Bachmann.

  STATEMENT OF MICHELE BACHMANN, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF MINNESOTA

    Ms. BACHMANN. Thank you, Chairman McDermott, Congressman 
Weller and members of the Subcommittee. I want to thank you for 
inviting me to discuss the educational challenges that are 
faced by disconnected and disadvantaged youth, specifically 
foster children.
    My name is Michele Bachmann. I'm a first term Member of 
Congress, serving Minnesota's sixth district, and I have a very 
special interest in the quality of education received by foster 
children because, over the course of six years, my husband, who 
is present here today, Marcus Bachmann, and my family cared for 
23 treatment-level foster children in our home.
    We are the lucky parents of five biological children, but 
we feel that we were even more blessed by having 23 foster 
children come into our home. When the children came to us, they 
were not babies, Mr. Chairman, they were teenagers. They had 
come through a number of horrendous experiences. Many of them 
had been abused in many different ways.
    They weren't your typical foster children. They were in 
need of greater depth of services. Many of them had lived in 
numerous homes throughout their lives and again had experienced 
various levels of abuse. We were honored to be able to bring 
these children into our home, Mr. Chair. What we saw is that 
what these children needed more than anything was love, 
acceptance and stability. While we were by no means a perfect 
family one thing that we could offer to these children was just 
a little bit of a picture of what the word normal looks like.
    Here's a mom and a dad who love each other. Here is a 
fairly regular schedule. Here's a mom who cooks a meal, a dad 
who goes to work. This is what normal, a snapshot of normal 
might look like for the life of a child.
    We immediately enrolled our children in our local public 
school system. We live in a nice suburban area of Minneapolis-
St. Paul, and we were glad to be able to have our children in 
our local public schools system. Our biological children were 
enrolled in a local private school with fairly low class sizes 
and fairly low overall population in that school system.
    Over the course of the years, our foster children often 
would ask me if I would be willing to home school them. 
Occasionally they asked if they could attend our children's 
private school and we had to tell them, no, we were unable to 
do that, that they needed to attend our local public school.
    Again, our local public schools were good, but it was a new 
experience and they often had 700 children in the graduating 
class. Oftentimes, without exception our foster children all 
had an IEP, an individualized education plan. Without 
exception, they had a social worker assigned to them, a 
counselor assigned to them. They did have support systems but 
oftentimes they were in a situation where they were seen as 
transient and temporary.
    One thing that we wanted to give our foster children, Mr. 
Chair and Members of the Committee was a sense of permanence 
and a sense of stability so they could feel that, as they went 
through their life there's something that they could count on, 
that they could always come back to. We wanted to make sure 
that they had that. Part of that--we know at the Federal level 
there's the Chafee Program for foster students that goes to the 
college level where students can attend a school of their 
choice in this transitional period.
    One thing that we would like to ask the Committee to look 
at is the idea that there could also be a program available 
specifically for foster children of all ages that would allow 
for this possibility of choice for them as well so that they 
could have this idea of stability. If their parents, their 
biological parents would agree, if the social workers would 
agree, if there might be an option, whether it's a public 
school, a charter school, of which--my husband and I began a 
charter school in our city; it's the oldest charter school in 
the United States for K-12 at risk youth--or if they would 
choose a private school so that they could--if they changed 
homes they could still stay in the same school, so that they 
could have that sense of stability.
    We still stay in communication with our foster children. We 
are grateful to say that all of our foster children, all 23 are 
doing well. They've graduated from high school. One of our 
foster daughters today is in college and plans to get her PhD.
    This is the same foster child who said to me when she was 
enrolled in our public school, ``you know, Mom, I was put into 
stupid people math.'' One thing that she felt is that, because 
she was seen as a temporary student she was put in lower level 
classes that weren't up to her ability. This is a student today 
who's planning to go for her PhD.
    We believed in her. My husband and I loved her, as I'm sure 
many foster parents have done for their foster children, but 
what we want to do is to make sure that the potential in every 
child is fully realized, and I know that the Committee shares 
that same goal. We want to be able to do that, bringing and 
creating a life of stability and choice for every foster child 
just as our five biological children had that same opportunity. 
We want to make sure that's available for our foster children 
as well.
    I want to thank you, Mr. Chair. It's obvious that you have 
a heart of gold and that the members of this Committee do as 
well--that we can work together and try to do something really 
good for America's foster children. I thank you. I thank the 
members of this Committee.
    [The prepared statement of Ms. Bachmann follows:]
         Prepared Statement of The Honorable Michele Bachmann,
        a Representative in Congress from the State of Minnesota
    Mr. Chairman, Congressman Weller, and members of the Subcommittee, 
thank you for inviting me to discuss the educational challenges faced 
by disconnected and disadvantaged youth; specifically foster children.
    I am Michele Bachmann, a first-term Member of Congress serving 
Minnesota's Sixth District. I have a special interest in the quality of 
education received by foster children because over the course of six 
years, my family cared for twenty-three high-need teenagers through the 
Lutheran Social Services' Treatment Foster Care program.
    I believe every child deserves the chance to gain a high-quality 
education. Growing up, I attended public schools where I was taught 
using a rigorous curriculum despite the fact that my community was not 
particularly affluent. While I was in school, my parents divorced and 
almost overnight my stable, middle-class family was changed forever. 
Although times were extremely tough, whenever my three brothers and I 
would become frustrated my mother would tell us to concentrate on our 
schoolwork, because no matter what happened, no one could ever take our 
education away from us. She was right--I left my public high school 
with a quality education and went on to graduate from college, then law 
school, and finally to earn an L.L.M. in tax law.
    Years later, when my family began to take in foster children, I 
felt that although our circumstances were very different, I could 
identify with their pain and frustration. All of them had challenges 
considered serious enough that they were unable to be placed through 
the traditional county foster care systems, and our family's role was 
to provide them with a safe home and see them through to their high 
school graduations.
    We quickly learned that our foster children had very different 
needs than most children. Almost all of them had been given 
Individualized Education Plans--individual plans designed for students 
with special educational needs. Many of the kids had been under the 
care of counselors, many suffered from eating disorders, and others had 
difficult behavioral or learning issues. All of them had switched 
schools at least once, and as a result of their tumultuous home lives, 
none of them had very strong educational backgrounds.
    While through the years some of our foster children performed 
better in school than others, my husband and I noticed some common 
problems. Many times, we got the impression that the kids were seen by 
both their peers and their teachers as if they were only going to be 
there short term. Although their teachers were welcoming, little 
special attention was provided to ensure that they caught up to their 
classmates, and their other needs were often not considered because 
there were so many other students to attend to. They became small fish 
swimming in a very large pond.
    We also began to notice that not all of our foster children were 
presented with the quality of coursework we had thought they would 
receive. Many of them were placed in lower-level classes, as if they 
were not expected to succeed. One of the kids remarked to me once that 
she was in ``stupid people math.'' Another brought home an 11th grade 
math assignment that involved coloring a poster. Yet another told me 
she had spent an entire week of classes watching movies, and others 
were being selected for the ``School to Work'' program, in which high 
school students attended classes for half of the day and were then sent 
to work minimum-wage jobs at local businesses. Although it had been 
evident to us from the beginning that because of their backgrounds, our 
foster children were going to struggle in school, it was frustrating to 
see that rather than being given the leg up they needed, so many of 
them felt that they were being left behind. Unfortunately, national 
studies indicate that this is an extremely common experience for foster 
children.
    What made this experience so heartbreaking is we could clearly see 
that despite our wishes, our foster children did not get the same 
opportunities or attention that our biological children received in 
their school. Our biological children's classes were smaller and more 
rigorous, the teachers knew all of the students, the students knew each 
other, and parents were able to be much more involved in their 
children's educations--all goals which are not always attainable in a 
large school, but which could have done wonders for our foster 
children.
    As a result of these experiences, I believe it is imperative that 
Congress examine creating a federal school choice program for foster 
children, through which foster parents are given the option to place 
children in their care in either a public or private school long-term, 
depending on their specific needs. Such a plan would allow foster 
children requiring more individual attention to attend a school better 
equipped to help them. Just as important, for the first time in their 
lives, these children who have become so used to being uprooted would 
have the chance to be placed in an environment where they could have 
their special educational needs met and feel as if they belong, where 
they could remain enrolled even if their homes changed.
    Currently, the federal government operates a program for older 
foster children--the Chafee Foster Care Independence Program--which 
assists them in transitioning from foster care to life on their own. 
Among other things, the Chafee Program provides vouchers of up to 
$5,000 to foster children ages 16 through 18 for education and 
training. Congress should consider extending this voucher program to 
foster children of all ages, so foster parents are able to best meet 
the educational needs of the children in their care by either allowing 
them to choose a private school or providing them with the funds 
necessary to transport their children to their original school even if 
it is outside of their immediate area.
    Additionally, Congress should consider extending the extremely 
successful D.C. school choice program aimed at low-income students, 
which has drawn more than three times the number of applications as 
there are available spots. Creating a similar program to serve D.C. 
foster children as well as those who come from low-income families 
would be an important step in the direction of giving the option of 
school choice to all foster children.
    In closing, even if placed in the best families, foster children 
often face the possibility that they will have to change homes, and as 
a result they must find a safe place of their own where they can become 
accepted and gain a sense of stability. Although for many foster 
children school can be such a place, the cases of many others show that 
under the current system, this is not always possible. I hope my 
family's experiences highlight the special challenges facing foster 
children as well as the need for an examination of whether limiting 
their educational options is truly in their best interests. I thank the 
Subcommittee for holding this hearing, and I thank you, Mr. Chairman, 
Congressman Weller, and Subcommittee Members for the opportunity to 
share our story today.

                                 <F-dash>

    Chairman MCDERMOTT. Thank you. Mr. Weller will inquire.
    Mr. WELLER. Thank you, Mr. Chairman.
    Ms. Bachmann, you elaborated in your testimony regarding 
some of your observations regarding education for children. 
First, let me just say, God bless you; that's a houseful over a 
lifetime, and we really, really want to thank you for the 
leadership you have shown on issues affecting foster children 
and also that you've demonstrated so much love and so much 
compassion, offering children an opportunity for a better life. 
I commend you for that.
    I had mentioned in my opening statement that there was a 
study in the Midwest--and you represent Minnesota, I represent 
Illinois, we're Midwestern states--that over a third of those 
who aged out of foster care reported having five or more school 
changes. What has been your experience with children that 
you've provided a home for and the number of schools that they 
may have attended before they became part of your family and 
some of the transitions and challenges they had, leaving 
friends, leaving their peers and starting over again?
    Ms. BACHMANN. Mr. Chairman, Congressman Weller, you're 
exactly right, those are tremendous challenges. Since we were a 
treatment foster care home, which means we took in children who 
were considered more difficult than foster children out of a 
regular county system, we had children placed in our home from 
all across the State of Minnesota. In fact, I think we may have 
had one or two come to us from the State of Wisconsin, if I 
remember, that were placed in our home. They had been through 
numerous homes.
    We had some identifying features. Almost none of our 
children had a father in their life. That was one thing that we 
could offer, but they had many, many school experiences. So, 
not to berate the public schools in any way, many foster 
children's experience is that they do tend to be at the lower 
achieving end because they've transitioned from school to 
school to school, and what one school may be studying at one 
time of the year may have nothing to do with what another 
school may be studying that a child has transferred into. So, 
there's not this level of continuity.
    We also saw, from a number of the biological mothers whose 
foster children we were privileged to care for, they were also 
concerned about different aspects of the child's background, 
that they be able to have their values honored or upheld. So, 
we did have different foster mothers ask us if their children 
could attend our children's private school for instance, and we 
were unable to do that. We were prohibited from doing that. 
Even if we felt that we could afford the cost ourselves 
financially, that was not an option to allow foster children to 
be placed into the private schools.
    Mr. WELLER. So, the program prevented you from----
    Ms. BACHMANN. The program prevented us from placing the 
children either in a home school situation or in a private 
school situation.
    We had children who graduated from high school and who 
remained with us because they just simply were not ready. I 
know the Chairman had made some remarks about some children, 
and yourself I believe made remarks that at age 18 they aren't 
necessarily ready and able to stand on their feet.
    So, we did have--not all of the children but we had several 
children that we kept in our home and worked with over a period 
of time to help them gain the skills necessary so they could 
truly be independent. We've continued to this day to maintain 
contact with some of our foster children so that we can 
continue to offer that level of support.
    Mr. WELLER. As a follow up, many of these children, do they 
participate in special education programs? Are they in other 
programs in the school?
    Ms. BACHMANN. Yes, Mr. Chairman, Congressman Weller, our 
foster children were in special education programs. They were 
also in regular classrooms as well, but again, one of our 
foster daughters who had made the comment to me, ``Mom, I've 
been put in stupid people math,'' also came home and told me 
that in her math class, for instance, in eleventh grade, she 
was coloring posters, she wasn't learning math.
    In some classes she was watching feature length films all 
week. She wasn't doing academics. I was very concerned. 
Personally I had come out of a middle class home, and my 
parents were divorced when I was in junior high. Over night, 
financially we were below the poverty level, and I think that's 
why my heart was pricked to take in foster children. I knew 
what it had been like to be middle class. I knew what it had 
been like to be in a poverty situation, and I was very 
concerned that my foster children would have great academic 
opportunities in order to make something out of themselves.
    Coming from a below poverty background, because we had a 
decent public school system I was able to work my way through 
college, work my way through law school, work my way through a 
post-doctorate in tax law and be able to support myself. If 
anyone needs a leg up in life, it is foster children. I can 
tell you that from personal experience.
    That's why I want to make sure that we offer every 
parameter of opportunity to these great kids. They are really 
great kids. They just want to know someone loves them, someone 
cares for them, someone will be there to hold their back. Any 
amount of stability that we can offer these kids will go miles 
down the road for their future lives.
    Mr. WELLER. We've run out of time here but I also add, it's 
clear that these children also suffer from the disadvantage of 
low expectations.
    Ms. BACHMANN. Yes.
    Mr. WELLER. When they're placed in schools because of their 
circumstances people expect them to be able to perform less 
well as other kids, that's a disadvantage they also have to 
overcome. So, again, thank you for your commitment and taking 
care of so many kids and helping give other children 
opportunities.
    Ms. BACHMANN. Thank you. Thank you, Mr. Chairman.
    Chairman MCDERMOTT. Thank you both for coming. We will see 
you again.
    Our next panel will come up to the table. A group of people 
here, some who are working in homes for the homeless and some 
are people who have experienced the whole nine yards. We will 
begin with a young woman who has had the experience personally 
and we'll let her tell her own story. Jewel.
    You want to push the button and put yourself in live.

          STATEMENT OF JEWEL KILCHER, RECORDING ARTIST

    Ms. KILCHER. How's that? You'd think I could work a 
microphone.
    Chairman McDermott, Ranking Member Weller and members of 
the Subcommittee, thank you for allowing me to appear before 
you today on behalf of those who otherwise have no voice, 
America's homeless, disconnected and disadvantaged youth.
    The issue of homeless youth is complicated by 
misperceptions about why kids become homeless. Many of us here 
today have probably seen youth homelessness but really didn't 
realize that it was staring us in the face. Maybe you walked by 
a kid who was sitting on a bench and rather than thinking he 
was homeless or someone who was forced into prostitution in 
order to make enough money to eat every day, you thought he 
looked like maybe just a punk kid who ditched school and was 
waiting for his friends.
    You really have to consider what being homeless is like for 
a few confused, long and lonely days. The experience doesn't 
just last for a few days for most people. Consider spending 
years on the streets after being kicked out of your house by an 
abusive alcoholic mother. Consider being in foster care where 
your new foster parents don't seem to care whether you're there 
or not and never asked you what you need.
    What if the home you've been placed in is abusive and 
dysfunctional? You may either run away because no one seems to 
care or you are told at age 18 you have to leave because you 
are too old for foster care. There are no resources available 
to you and you are now homeless.
    Think about your children or grandchildren. Think for a 
second about a 12-year-old girl. What if her first sexual 
experience didn't come at a time of her choosing but after an 
uncle touched her and made her keep it a secret? Then the 
secret is exposed, the truth spirals out of control, forcing a 
needlessly ashamed and frightened girl onto the streets.
    These girls and boys do not choose to live on the streets 
or be homeless. It is the sad truth that they feel safer there.
    What is equally troubling is that many Americans look at 
someone's being homeless as the result of a choice he or she 
made, that they are lazy or that it is just a correctable 
condition because the United States is the land of so much 
opportunity.
    These are just a few of the reasons why I do not believe 
America's homeless youth population is made up of kids who 
leave home because they want to. Most homeless kids are on the 
streets because they have been forced by circumstances to think 
that they are safer there than in any home they once knew. 
Others may have reached the end of their economic resources or 
those of their family and are left trying to get out of poverty 
from the disadvantageous position of America's streets.
    I experienced homelessness firsthand. I moved out when I 
was 15 years old. I worked several jobs. I wasn't a lazy kid. 
It was just I thought I could do a better job than my parents.
    I was able to get a scholarship to a performance arts high 
school and was able, while being homeless, to still go to a 
good school. Spring breaks were hard vacations. I would end up 
just hitchhiking around the country and street-singing for 
money because they wouldn't let you stay on campus during the 
breaks.
    After many twists and turns I ended up in San Diego when I 
was 18, and I had a series of dead-end jobs and finally one 
boss fired me because I wouldn't have sex with him and he 
wouldn't give me my paycheck that day. My rent was due and my 
landlord kicked me out.
    I thought, I'll just stay--I had a little $200 car that a 
friend let me use--and I just slept in my car for the day, and 
it ended up lasting about a year. I was really sick at the 
time. I had sick kidneys and was turned away from every 
emergency room that there was to the point where you'd get 
blood poisoning because your kidneys weren't working, and I'd 
be throwing up in my car and nobody would help.
    This lasted for about a year and I was able to finally get 
out. I'll never forget. Record labels started coming to see me. 
I was singing in a coffee shop. I wrote music just to help 
myself feel better, and it seemed to make other people feel 
better, and they started coming to my shows.
    Atlantic Records was going to come see me, and I was so 
excited. I went to Denny's where I always washed my hair in a 
little shallow sink. I had to fit my head in sideways and use 
the hand soap to wash my hair and I was using paper towels to 
dry it off. I was humming to myself because I was so excited 
that a record label was coming to see me.
    I looked up in the mirror and there were two women backed 
up against the wall and they were horrified. They looked at me 
just like I was a leper. I suddenly got really embarrassed 
because I realized what I was and what I looked like to them. 
As they walked out, the one woman said to the other, ``well, 
she looked pretty enough; I wonder how she ended up like 
that.''
    I wanted to tell them so bad, ``you're wrong about me. I'm 
an okay kid and a label is coming to see me.'' It ended up 
working out for me.
    Some research estimates that about 1 million to 1.6 million 
youth experience homelessness each year. I personally would 
guess the number is higher. The number of kids turned away from 
shelters every day as well as the number of phone calls made to 
the National Runaway Hotline indicates some that it may be even 
higher.
    Unfortunately, homeless kids are running from something, 
and that makes them difficult to find or to count as part of 
any single community. What is clear is that life in a shelter 
or on the streets puts homeless kids and youth at a higher risk 
for physical and sexual assault, abuse, and physical illness, 
including HIV/AIDS.
    As I heard in testimony earlier, with education--I was 
never taught grammar, which is odd because I'm a writer and I 
now make my living as a writer. Every time they were teaching 
grammar at a school I just either showed up just after they 
finished the classes or just before they were starting and then 
I was gone again. I went to probably ten different schools 
between the ages of eight and sixteen, so it really is true.
    Estimates suggest that 5,000 unaccompanied youths die each 
year as a result of assault, illness or suicide. That is an 
average of 13 kids dying every day on America's streets.
    I was talking with--earlier who has an amazing story and 
amazing accomplishment. People prey on you. They know. I've 
never been solicited more and approached more than when I was 
homeless. I grew up bar singing, so you'd think it would be 
hard to top, but when I was homeless you're constantly being 
solicited, and I knew a lot of girls who were stripping and 
prostituting because it was really the best solution they had 
for making money.
    Anxiety disorders, as you can imagine, depression, Post-
Traumatic Stress Disorder and suicide are all more common among 
homeless children. Previous studies of the homeless youth 
population have shown high rates of parental alcohol and drug 
abuse. Substance abuse however is not characteristic; it 
doesn't define most youth who experience homelessness.
    Despite all of the setbacks faced by homeless kids there is 
room to be optimistic. Most homeless children tend to try and 
make it to school. Most do make it to school at least for a 
period of time. If safe shelters, counseling and adequate 
support were available for these kids and if our schools and 
our job training programs were stronger, these children would 
be given opportunities to graduate high school and build the 
skills they need to go on to live healthy and productive lives.
    It's funny, my boyfriend of nine years laughed when he met 
me because he always said I could end up in Wisconsin if I 
needed to on a shoestring with a stick of gum, but I didn't 
know how to do laundry when he met me. You know, I didn't know 
how to do really simple functional things.
    You need to be taught that. You just aren't taught those 
things. You don't realize that that's what your parents are 
supposed to be teaching you.
    As I prepared to be here today I learned Congress is taking 
steps in the right direction this year by increasing the level 
of Federal support for homeless youth-related programs. I 
understand the House of Representatives is poised to pass a $10 
million increase for Runaway and Homeless Youth Act programs, 
and a $5 million increase for education of homeless children 
and youth programs.
    This anticipated funding increase is crucial. I cannot tell 
you enough, support for shelters and transitional living and 
housing programs is necessary if we are going to change the 
landscape for homeless boys and girls in America.
    Regrettably, I do also understand funding for street 
outreach programs may not receive an increase in funding this 
year. What I know about street outreach is that it is essential 
to dealing with the issue of youth homelessness.
    We need people who work hard to find these kids and point 
them toward help because we know that they will not be looking 
for adults; adults most likely contributed to their situation 
in the first place. When they do seek help from adults, the 
system, police, they're just opening themselves up to be harmed 
and exploited or arrested again.
    I am passionate about the work in this area by Virgin 
Mobile USA and its RE*Generation movement in supporting the 
homeless youth street outreach programs of StandUp For Kids and 
awareness building efforts by Youth Noise. The RE*Generation is 
also supported by Virgin Unite, the Virgin Group's charitable 
arm, created by Sir Richard Branson.
    The fact is that businesses and organizations working 
together are crucial to the success of Federal programs, and 
broader support in this area is desperately needed.
    I would like to thank Congress for its help in raising 
awareness of issues surrounding homeless youth by introducing 
resolutions that designate November as National Homeless Youth 
Awareness Month. I look forward to their passage so we can all 
make November a success by demonstrating to these forgotten 
youth that Congress is listening, people do want to help and 
that people care about their futures.
    Today is an opportunity to discuss important problems 
facing families and children across the country. As you begin 
examining ways to prevent youth homelessness, improve 
community-based intervention programs that support families and 
older adolescents and assist youth aging out of foster care, it 
is my hope that your job becomes easier once the problem is 
absorbed into the consciousness of the American people.
    This country has to stop looking in the other direction on 
these most heart-wrenching and complex issues facing America's 
youth. Through greater awareness people will view this as a 
problem with solutions. We must all work together to end youth 
homelessness in America.
    I am pleased to be here today, and I will do my best to 
answer any questions you may have.
    [The prepared statement of Ms. Kilcher follows:]
             Prepared Statement of Jewel, Recording Artist
    Chairman McDermott, Ranking Member Weller, and members of this 
Subcommittee, thank you for allowing me to appear before you today on 
behalf of those who otherwise have no voice--America's homeless, 
disconnected and disadvantaged youth.
    The issue of homeless youth is complicated by misperceptions about 
why kids become homeless. Many of us here today have probably seen 
youth homelessness but didn't realize it was staring us in the face.
    Maybe you walked by a kid who was sitting on a bench, and rather 
than thinking he was homeless, or someone who was forced into 
prostitution in order to make enough money to eat everyday, you thought 
he looked like a punk kid who ditched school and was waiting for his 
friends.
    Consider being homeless for a few confused, long and lonely days. 
Consider spending years on the streets after being kicked out of home 
by an abusive, alcoholic mother. Consider being in foster care where 
your new foster parents don't seem to care whether you're there or not 
and never ask you what you need. What if the home you have been placed 
in is abusive and dysfunctional? You may either run away because no one 
seems to care, or you are told at age 18 you have to leave because you 
are too old for foster care. There are no resources available to you 
and you are now homeless.
    Think about your children or grandchildren. Think for a second 
about a 12-year-old girl. What if her first sexual experience didn't 
come at a time of her choosing, but after an uncle touched her and made 
her keep it a secret. Then, the secret is exposed and the truth spirals 
out of control, forcing a needlessly ashamed and frightened girl onto 
the streets.
    These girls and boys don't choose to live on the streets or to be 
homeless. It is the sad truth that they feel safer there. What is 
equally troubling is that many Americans look at someone's being 
homeless as the result of a choice he or she made, or that it is a 
correctable condition because the United States is the land of so much 
opportunity.
    There are numerous causes and effects of youth homelessness. Thirty 
percent of shelter youth and 70% of street youth are victims of 
commercial sexual exploitation at a time in their lives when these boys 
and girls should be going to elementary school.
    These are just a few of the reasons why I do not believe America's 
homeless youth population is made up of kids who leave home because 
they want to. Most homeless kids are on the streets because they have 
been forced by circumstances to think that they are safer there than in 
the home they once knew. Others may have reached the end of their 
economic resources, or those of their family's, and are left trying to 
get out of poverty from the disadvantageous position of America's 
streets.
    I experienced homelessness first-hand. When I was 15 years old, I 
received a vocal scholarship to attend Interlochen in Michigan. I 
always enjoyed performing solo, and one Spring Break I took a train and 
hitchhiked in Mexico, earning money singing on street corners. Many 
twists and turns later, I moved to San Diego and because of a series of 
unfortunate events, I ended up living in a car. My car was then stolen 
so I had to borrow $1,000 from a friend to buy a van which ended up 
becoming my home. Living in a van was not romantic. I washed my hair in 
public bathroom sinks. People would often gawk and make comments about 
me. They would say how sad it was that I was homeless, but many more 
tried to pretend that I wasn't there. I was mortified and embarrassed 
of my condition, and the stigma that was being attached to me. I can 
assure you that kids do not want to be on the streets or without people 
who care about them.
    Some researchers estimate that about 1 to 1.6 million youth 
experience homelessness each year. The number of kids turned away from 
shelters every day as well as the number of phone calls made to the 
National Runaway Hotline indicate some estimates that may be even 
higher. Unfortunately, homeless kids are running from something and 
that makes them difficult to find or to count as part of any single 
community.
    What is clear is that life in a shelter or on the streets puts 
homeless youth at a higher risk for physical and sexual assault, abuse, 
and physical illness, including HIV/AIDS. Estimates suggest that 5,000 
unaccompanied youths die each year as a result of assault, illness, or 
suicide; that's an average of 13 kids dying every day on America's 
streets.
    Anxiety disorders, depression, Post Traumatic Stress Disorder, and 
suicide are all more common among homeless children. Previous studies 
of the homeless youth population have shown high rates of parental 
alcohol or drug abuse. Substance abuse, however, is not a 
characteristic that defines most youth who experience homelessness.
    Despite all of the setbacks faced by homeless kids, there is room 
to be optimistic. Most homeless children tend to make it to school, at 
least for a period of time. If safe shelters, counseling, and adequate 
support were available for these kids, and if our schools and our job 
training programs were stronger, these children would be given 
opportunities to graduate high school and build the skills they need to 
go on to live healthy and productive lives.
    As I prepared to be here with you today, I learned Congress is 
taking steps in the right direction this year by increasing the level 
of federal support for homeless youth-related programs. I understand 
the House of Representatives is poised to pass a $10 million increase 
for Runaway and Homeless Youth Act programs and a $5 million increase 
for Education of Homeless Children and Youth programs. This anticipated 
funding increase is crucial. Support for shelters and transitional 
living and housing programs is necessary if we are going to change the 
landscape for homeless boys and girls in America.
    Regrettably, I also understand funding for street outreach programs 
may not receive an increase in funding this year. What I know about 
street outreach is that it is essential to dealing with the issue of 
youth homelessness. We need people who work hard to find these kids and 
point them toward help, because we know they won't be looking for 
adults. Adults most likely contributed to their situation in the first 
place. When they do seek help from adults, the system, or a police 
officer, they are opening themselves up to being harmed, exploited, or 
arrested--again.
    I am passionate about the work in this area by Virgin Mobile USA 
and its RE*Generation movement in supporting the homeless youth street 
outreach programs of StandUp For Kids and awareness building efforts by 
YouthNoise. The RE*Generation is also supported by Virgin Unite, the 
Virgin Group's charitable arm created by Sir Richard Branson. The fact 
is that businesses and organizations working together are crucial to 
the success of federal programs, and broader support in this area is 
desperately needed.
    I would like to thank Congress for its help in raising awareness of 
issues surrounding homeless youth by introducing resolutions that 
designate November as ``National Homeless Youth Awareness Month''. I 
look forward to their passage so we can all make November a success by 
demonstrating to these forgotten youth that Congress is listening, 
people do want to help, and that people care about their futures.
    Today is an opportunity to discuss important problems facing 
families and children across the country. As you begin examining ways 
to prevent youth homelessness, improve community-based intervention 
programs that support families and older adolescents, and assist youth 
aging out of foster care, it is my hope that your job becomes easier 
once the problem is absorbed into the consciousness of the American 
people. This country has to stop looking in the other direction on 
these most heart-wrenching and complex issues facing America's youth. 
Through greater awareness, people will view this as a problem with 
solutions. We all must work together to end youth homelessness in 
America.
    I am pleased to be here today and I will do my best to answer any 
questions you may have. Thank you.

                                 <F-dash>

    Chairman MCDERMOTT. Thank you very much.
    Ms. Shore is the executive director of Sasha Bruce 
Youthwork here in Washington, D.C. I did not say earlier, the 
full text of your remarks will be put in the record. We would 
like you to try and keep it to 5 minutes so we have some time 
to ask questions.

  STATEMENT OF DEBORAH SHORE, EXECUTIVE DIRECTOR, SASHA BRUCE 
                        YOUTHWORK, INC.

    Ms. SHORE. I have tried to do that, thank you. Thank you, 
Chairman McDermott and all members of the Subcommittee. This is 
a wonderful opportunity today. My name is Deborah Shore and I 
am the founder and executive director of Sasha Bruce here in 
Washington, D.C. I am honored to offer the perspective of our 
agency's dedicated counselors who work incredibly hard on 
behalf of our city's disconnected youth population. I have 
submitted written testimony which will provide greater detail 
to my brief remarks today.
    Please allow me to start by describing the work of our 
agency. The mission of Sasha Bruce is to improve the lives of 
runaway, homeless, neglected and at-risk youth and their 
families in the Washington, D.C. metropolitan area. This year, 
more than 1,500 of Washington, D.C.'s most troubled children, 
teenagers and young adults will receive our assistance.
    We began as a street outreach program in 1975, specifically 
for homeless and runaway youth, but we have grown considerably 
since then in response to service gaps not just for homeless 
teenagers but to address the wide range of issues facing 
disconnected young people, including those who have dropped out 
or have been removed from school and older youth without 
employment or secure housing. Today, our 14 programs are 
financed through a mix of Federal and D.C. government dollars, 
as well as considerable private sector support. We operate the 
only youth-specific shelter in Washington, D.C., The Sasha 
Bruce House. I am very honored to be accompanied today by Mr. 
DeCario Whitfield, a current member and client of our Youth 
Build Program.
    I want to underscore how pleased I am that the leadership 
of this Committee made the decision to call a hearing on the 
issues and needs of the broad category of disconnected young 
people. I believe you have correctly recognized that this is a 
group of young people who defy our current structures, and for 
whom solutions lay in creative, coordinated, new and targeted 
initiatives. It is plain to us, working on the ground, that 
coordinated efforts between social services, schools, health 
care, employment and training, juvenile justice and child 
welfare services are needed if we are to re-attach these youth 
to school, training, the job market, families and community.
    Our organization has been working with this broad category 
of youth for a long time, and therefore we believe that we 
bring a perspective useful to this Committee and to the 
Subcommittee.
    A variety of circumstances typically contribute to young 
people becoming disconnected: difficulty with school, family 
stresses and disruptions and the lack of intermediate 
institutions, such as churches or nonprofit, community-based 
agencies in young people's lives. Our experience is that the 
number of disconnected youth is increasing. We are seeing it 
everyday. Disconnected youth are those currently being served 
as part of the important Runaway and Homeless Youth Act funded 
programs but also are those youths who are entering the 
juvenile justice system, coming back out of the juvenile 
justice system, aging out of foster care, and quietly dropping 
out of school with no connection to training or a means to 
enter the workforce.
    The current system of service funded through the Runaway 
and Homeless Youth Act is the most responsive to this broad 
population as it has both outreach, emergency shelter and 
assistance with independent and community group living 
programs. Some of these services, however, are limited to under 
18 years so more responsive front-end services must be 
available to youth who are both under and over 18 and who are 
still struggling to be connected to a positive path toward 
independence. Family services, individual strength-based 
counseling and capacity to link youth to services is an 
important first entry point and should be further strengthened. 
These systems need to be strengthened and expanded to include 
additional youth and to create greater capacity.
    Also, the disconnection for many from school is a point 
where intervention is paramount. Certainly, we know that for 
many youth school and family issues are the two most common 
reasons why they become homeless, get involved with the courts, 
become pregnant, do drugs, which leads to much of the 
negativity which is so much harder to sort out later. There is 
a need for there to be greater connection between the social 
service system and youth who are dropping out or at risk of 
dropping out. The school systems must be urged to put a greater 
priority on holding on to these youth in alternative school 
settings and/or establishing vocational schools and providing 
supplementary school services, including after school services.
    Entering the workforce in this day and time, even with a 
high school diploma, is daunting for many of our young people 
and a great deal more needs to be done to construct workforce 
development programs, which provide help to youth, including 
those needing remedial assistance. It was clear that as part of 
the recent report done by The Brookings Institution that 
disconnected youth need to have targeted services available to 
both proceed with their basic education and get job skills, 
training and employment if they are to move into the middle 
class and not simply into poverty. Youth Build in this report 
was held up as a solid model of a program which should be 
expanded as it has all the features of what is needed and has 
proven to work.
    As many people have mentioned already, youth who age out of 
foster care and who re-enter the community from the juvenile 
justice system are at high risk of becoming homeless and 
disconnected. Some estimates are as high as 50 percent of all 
former foster care youth become homeless at some point. These 
populations in my view should be specially targeted as they are 
at such high risk for continuing to be part of our 
institutional service system.
    In my written testimony, I gave the Committee benefit of 
the alarming statistics about young people in D.C. and the grim 
outcomes for them, which argue loudly for more leadership to be 
taken toward reconnecting them to positive support systems. 
D.C. has dramatic statistics but is by no means alone in having 
so many disconnected youth in our country.
    For this testimony, I would like to mention a few 
additional risk factors, which need to be considered----
    Chairman MCDERMOTT. May I ask you to sum up?
    Ms. SHORE [continuing]. When constructing a program 
response.
    Chairman MCDERMOTT. Okay?
    Ms. SHORE. Health care issues, sexually transmitted 
disease, teen pregnancy, health care in general, drug 
involvement, I absolutely agree with Jewel that we are not 
looking at young people who typically are involved in drugs 
themselves but who are at risk of it and many of their parents 
are drug involved. Violence is a major issue for the young 
people that we see. The effort to combat gang violence is a 
very important initiative that I think needs to be tied 
together. Then, of course, the issue of housing and the issue 
of being able to provide support to the entire family is of 
critical importance.
    I would just say that I agree that the increase in the 
investment in the Runaway and Homeless Youth Act is critical. I 
also would urge there to be a look that these programs can go 
up to age 24 because under-18 year olds, there is no magic 
number to the 18 age anymore. I would urge the increase in 
resources to the Education of Homeless Youth, Children In Youth 
Act, the Chafee Independence Living Program Act, and we 
wholeheartedly support the National Network's Place to Call 
Home Campaign, which is taking off shortly.
    Thank you for this opportunity. I really appreciate and 
hope to see some real change and development as a result of 
this activity.
    [The prepared statement of Ms. Shore follows:]
        Prepared Statement of Deborah Shore, Executive Director,
                         Sasha Bruce Youthwork
    The mission of Sasha Bruce Youthwork is to improve the lives of 
runaway, homeless, neglected and at-risk youth and their families in 
the Washington metropolitan area. This year more than 1,500 of 
Washington D.C.'s most troubled children, teenagers and young adults 
will receive our assistance. Sasha Bruce Youthwork was one of the 
original grantees of the landmark Runaway and Homeless Youth Act three 
decades ago. Our Sasha Bruce House remains the only emergency shelter 
for young people in the nation's capital.
    We began as a street outreach project in 1974 specifically for 
homeless and runaway youth. But we have grown considerably since then 
in response to service gaps not just for homeless teenagers, but to 
address the wide range of issues facing disconnected young people, 
including those who have dropped-out or been removed from school and 
older youth without employment or secure housing. Today our fourteen 
programs are financed through a mix of federal and DC government 
dollars, as well as considerable private sector support. These include 
emergency shelter for runaway and homeless children; counseling within 
homes and on the street; counseling in pregnancy prevention; AIDS and 
substance abuse education; independent living programs for sixteen to 
twenty one year olds; after-school programming and positive youth 
development activities; an independent living and parenting program for 
young mothers and their babies; two group homes for children in the 
welfare system, one specifically for teen mothers; a service enriched 
residence as an alternative to detention for teenage boys; practical 
support for families leaving shelter or transitional housing; community 
capacity building to prevent diseases among youth exiting the juvenile 
justice system; and our Youthbuild Program, which involves classroom-
based GED preparation and building trade apprenticeships in partnership 
with Habitat for Humanity specifically for high school dropouts.
    SBY is the principal provider of services to runaway and homeless 
youth, as well as this broader category of ``disconnected youth'' in 
DC. Most youth-serving residential CBOs here limit access to those 
young people referred for services by the juvenile justice and child 
welfare systems. Thus, our shelter, transitional living and a host of 
non-residential counseling projects represent primary avenues for the 
non-system-involved, disconnected youth to receive barrier-free access 
to supportive services. It is by virtue of this unique mix of 
residential and non-residential ``safety net'' services for both 
homeless youth, disconnected youth and system-involved youth that I 
believe the perspective of our organization will be useful to Ways and 
Means and to this Subcommittee, specifically.
    I want to underscore how pleased I am that the leadership of this 
Committee made the decision to call a hearing on the issues for and 
needs of this broad category of ``disconnected young people.'' This 
group of young people has needs which touch various existing systems 
and which fall through the gaps in the educational, vocational and 
service system. It is plain to those of us working on the ground that a 
new, coordinated effort needs to be made to help re-attach these youth 
to expanded and targeted systems of support if we are to reverse this 
worrying trend. One of the important points to make here is that where 
many systems which exist for youth have a cut off of age 18, the group 
which we identify as disconnected youth must go up to age 24 as this 
describes the group who are still in need of help entering the adult 
world and who are clearly at risk without such assistance.
    A variety of circumstances typically contribute to young people 
becoming disconnected--whether it be from schools, or family support 
systems, or intermediate institutions such as churches or nonprofit 
community based agencies. All must be addressed if our adolescents are 
to develop fully. However, several primary service areas stand out and 
are most relevant to the work of responding to these young people.
    Family supports and social services help cannot be understated. The 
importance of programs which provide outreach and emergency shelter 
like those funded under the Runaway and Homeless Youth Act and other 
prevention programs which help to identify youth before complete 
disconnection from school, family and community are paramount. These 
services need to be working closely with the school systems and with 
the courts to identify youth before they have dropped out or gotten 
into trouble with the law. According to the Ann E. Casey Foundation, in 
2005 roughly 8% of DC youth between ages 16 to 19 were neither 
attending school nor working. This is about 1000 disconnected 
teenagers. Perhaps more troubling, 16%, or approximately 5,000 young 
people 18 to 24 years old were neither attending school nor working. 
Clearly, employment and educational gaps are large and much more needs 
to be in place to respond to the needs which exist.
    Assistance with schooling is also key, both to stay in school if 
possible or to get an alternative education. Many of the youth who have 
populated both the runaway and homeless youth system and the juvenile 
justice system have as an underlying problem serious educational 
issues. Whether because of the disruptions in their lives due to family 
instability or undetected learning problems, missing out on a basic 
education in this modern world is tantamount to being relegated to deep 
poverty. At least in DC, there are few vocational education 
opportunities and adult education programs needs to be seriously 
expanded.
    A workforce development plan and program targeted to disconnected 
youth is essential if youth are to become reconnected. The Brookings 
Institute did an analysis recently about how to reduce poverty locally 
and recognized ``disconnected youth'' as a category which needs 
targeted training along with social services and housing assistance as 
the recipe for creating ways for people out of poverty. Social 
services, health services, education, workforce development and housing 
are the true building blocks of a solution to the constellation of 
problems which lead to disconnection for youth.
    In developing my thoughts for this testimony, it seemed important 
to point out the primary risk factors which stand out and are most 
relevant to solving the problem at hand. I have included the 
information I have about the District which I think represents 
dramatically some of the most intractable problems in our country and 
so perhaps can lead the way to creative problem solving.
Poverty, Family Instability and Child Neglect:
    In 2004, the District had one of the highest percentages of 
children in the United States under age 18 living below poverty (34% 
compared to 18% of children in the US). Family dissolution in DC is 
most evident among low-income people living in East-side Wards 7 and 8, 
where SBY operates several of its programs. These Wards are almost 
exclusively African-American, have the lowest per-capita income and are 
historically underserved. According to the Kids Count 2006, Wards 7 and 
8 also have the highest crime rates and highest number of deaths among 
children and youth, death to teens and teen murders. And these wards 
have the highest rates for unemployment and for children receiving 
TANF, food stamps and Medicaid. According to the Urban Institute, more 
than 9,000 children receive TANF in Ward 8 alone--four times the rate 
for other sectors of the city, and more than half of DC's poor children 
live east of the Anacostia River.
    These socio-economic indicators are primary risk factors for child 
neglect and family dissolution in DC, and in other major cities in this 
country. Other risk factors include a series of family-related factors 
such as family management problems, poor parental discipline practices, 
family conflict and social isolation. Other negative influences on 
family stability include lack of services, adolescent problem behaviors 
and academic failure. We need the full spectrum of federal government 
agencies to acknowledge and address these inter-connected socio-
economic conditions as they develop public policy initiatives if we are 
to decrease the number of young people who are homeless and 
disconnected in our cities.
Housing:
    Voluminous research evidences the severe lack of affordable housing 
in DC relative to the number of families of modest or low incomes. 
Several credible projections of affordable housing availability 
indicate that DC's east side neighborhoods will continue to gentrify in 
the coming years, regardless of recent stabilization of home prices 
nationally.
    While housing which is affordable for low-income families becomes 
scarcer in DC, the demand for emergency shelter for homeless youth 
continues to outstrip available capacity. It is difficult to determine 
the number of runaway and homeless youth in the District of Columbia, 
but knowledgeable estimates indicate that the problem is substantial. 
The Homeless Services Planning and Coordinating Committee of the 
Metropolitan Washington Council of Governments takes an annual 
``snapshot'' of homeless persons in order to quantify the problem. In 
January 2006, the point-in-time count was 9,369, an increase of 4 
percent from January, 2005. The DC Kids Count Collaborative, 13th 
Annual Fact Book 2006, notes that homelessness in the District has 
increased for the fifth consecutive year. Of the families applying for 
shelter for the first time in 2005, an estimated 6,100 were children. 
While the National Runaway Switchboard handled 1,327 calls from DC 
youth in 2006, SBY's 24-hour emergency hotline during the past three 
months fielded 234 crisis calls from youth, families, schools, service 
agencies and police seeking our shelter services.
Education:
    The administrative problems with DC public and charter schools are 
well established, and correlate to low levels of academic achievement 
compared to similar-sized cities. Poor educational outcomes represent 
profound barriers to employment success, family stability and self-
sufficiency among our agency's current and future clientele.
    While it is essential to improve the DC school system and to 
provide under-performing youth with counseling and support services, 
the realities of DC's education system and workforce are such that 
there is a serious need for supplemental education services. In fact, 
supplemental academic instruction coupled with positive youth 
development activities, vocational training and civic engagement 
opportunities need to be offered during after-school time in our young 
peoples' neighborhoods if we are to have success in improving 
educational outcomes throughout this country.
    Some other important ancillary problems need to be addressed if 
there is to be a full system of service in place.
Sexually Transmitted Diseases and Teen Pregnancy:
    Our counselors estimate that nearly 75% of our youth are sexually 
active and approximately half report having been sexually assaulted. 
Many lack the experience of healthy intimate relationships, 
infrequently attend school and the realities of dysfunctional 
situations in many of their homes often prevent appreciation of healthy 
dating behaviors. The belief that social acceptance can be realized 
through sex (especially between young females and older males) is 
widespread. Runaway, homeless and other street youth may take more 
risks to survive, can be exploited sexually and are more prone to drug 
experimentation because it often forms a significant part of the fabric 
of street life. These risks are exacerbated by difficult political 
circumstances facing homeless youth of color. Many are dealing with 
emotional trauma from years of neglect. Few have the experience to make 
the right choices in difficult circumstances. It is well established 
that DC has the highest rates of HIV of any major US city. Our programs 
focus primarily on DC Wards 6, 7, and 8, the city's poorest, east-side 
neighborhoods, which have a high density of sexually active youth with 
high rates of multiple sexual partners and low condom use. This risky 
sexual activity is the most significant behavior that places our 
clients at risk for HIV infection and other communicable diseases. It 
should not be surprising that young people faced with these significant 
health issues will have trouble prioritizing among life's many 
challenges and will be more likely to fail at school or become 
homeless.
    This risky sexual activity also plays a large role in unwanted 
teenage pregnancies. Despite some well documented improvements in the 
past 2 years to once-astounding teen pregnancy rates, there continues 
to be an urgent need for pregnancy prevention education among young 
people in the District. The negative effects of adolescent childbearing 
are well documented and compelling, for mothers, fathers and their 
children. For example, 59% of women who have children before they reach 
twenty do not have a high school diploma by the age of 30,\1\ and 
almost half will begin receiving welfare within five years of having 
their first child.\2\ Studies show that children of teenage mothers 
have lower birth weights and are more likely to perform poorly in 
school.\3\ Children born to mothers aged 15 or less are twice as likely 
to be abused or neglected in their first five years than children born 
to mothers aged 20-21.\4\ Also, the Annie E. Casey Foundation report, 
When Teens Have Sex: Issues and Trends, found that fathers of children 
born to teen mothers earned on average $3,400 less annually than 
fathers of children born to 20- or 21-year-old women.\5\
---------------------------------------------------------------------------
    \1\ V.J. Hotz et al., ``The Impacts of Teenage Childbearing on the 
Mothers and the Consequences of those Impacts for Government,'' in R. 
Maynard (Ed.), Kids Having Kids (Washington, DC: Urban Institute Press, 
1997), pp. 55-94.
    \2\ J. Jacobson and R. Maynard, Unwed Mothers and Long-Term 
Dependency (Washington, DC: American Enterprise Institute for Public 
Policy Research).
    \3\ Maynard, R.A., (Ed.). (1996). Kids Having Kids: A Robin Hood 
Foundation Special Report on the Costs of Adolescent Childbearing, New 
York: Robin Hood Foundation.
    \4\ R.M. George and B.J. Lee, ``Abuse and Neglect of the 
Children,'' in R. Maynard (Ed.), Kids Having Kids (Washington, DC: 
Urban Institute Press, 1997), pp. 205-230.
    \5\ Annie E. Casey Foundation, Kids Count Special Report: When 
Teens Have Sex: Issues and Trends (Baltimore, MD: Annie E. Casey 
Foundation, 1998).
---------------------------------------------------------------------------
Drug Use:
    It is a common and incorrect stereotype that homeless youth are 
addicted to drugs. Our experience is that many homeless and 
disconnected youth, like other youth, do use drugs, but the majority 
are doing so in an ill-advised effort to survive day-by-day. In fact, 
at Sasha Bruce Youthwork, it is far more typical for our young clients' 
parents to be addicted. This is one reason, among many which I will 
touch on later, that a holistic approach to engaging the entire family 
in services is the most effective way to help children and youth.
    This is not to say that drug prevention education and treatment for 
young people and their families is not needed. In fact, nonjudgmental 
education about psychoactive substances and their effects is the best 
way to prevent their abuse among youth, and this is particularly the 
case among those who have become involved--or are at greatest risk for 
becoming involved--in the juvenile justice and child welfare systems. 
According to DC's Pre-Trial services, in February of 2006, 51% of 
juvenile arrestees tested positive for drugs. And approximately 85% of 
foster care placements in the District are reportedly due to substance 
use, whether by the parent, guardian or child.
Violence:
    According to the Casey Foundation's Kids Count 2006, the rate for 
teen deaths in DC has skyrocketed by 40% in recent years. The majority 
of these deaths may be reasonably attributed to violence perpetrated by 
teens on other teens, almost exclusively African American teens. 
Further, this youth-on-youth violence has been--and likely will 
continue to be--concentrated in DC's poorest, East-side neighborhoods.
    Violence among youth negatively impacts school attendance. In the 
District in 2005, 16% of students were in a physical fight on school 
property one or more times during the past 12 months (compared to 15% 
in 2004). 9% of students did not go to school because they felt unsafe 
at school or on their way to school on one or more of the past 30 days. 
12% of students were threaten or injured with a weapon such as a gun, 
knife, club on school property, one or more times during the past 12 
months.
    There is general acceptance that youth violence in DC can be 
correlated with gang membership. The reasons for joining a gang include 
the need for marginalized youth to feel accepted, the need for money, 
or protection from other youth. Therefore, to address the rising tide 
of violence in our communities, we will need to change these attitudes 
and beliefs concurrent to engaging young people at highest risk for 
violence and gang activity into positive alternative activities.
    In addition to the core set of risk factors and problematic social 
conditions described above, I would like to turn now to emerging issues 
and service gaps here in DC, and which I believe are common elsewhere 
in this country. Relevant to the Ways and Means Committee's purview, 
three trends, or emerging issues, stand out and also should be 
considered as we seek to prevent social disconnection and homelessness 
among youth.
    First of all, here in DC, and across the country, we must put 
greater resources to address the growing problem of young people 
``aging out'' of the child welfare system. According to the District's 
Child and Family Services Agency, as of October 2006, 2,313 children 
were in foster care and 1,681 children were enrolled in ``the system'' 
and living in their natural homes. These figures combined equal 2% of 
all children and youth in DC, which is significantly higher than any 
other jurisdiction. Importantly, youth age 12 and up make up about 61% 
of the total foster care population--a number which many authorities 
believe to be rising and which is extremely high compared to other 
jurisdictions. These figures are causing many public policy officials 
to call for alternatives to foster care placement (such as emergency 
respite and ongoing family counseling prior to entry into the child 
welfare system for young people who experience conflict at home) and 
for a larger number of housing and options for young adults ``aging 
out'' of the system, to name just two.
    Second, the lack of affordable housing in DC and other major US 
cities must be addressed if we are to improve the lives of 
disconnected, urban youth. SBY oversees several transitional living 
contracts with DC and federal government specifically for young people 
who would be homeless otherwise. While it should remain the highest of 
priorities to secure permanent housing for our clients upon exit from 
these temporary residential programs, this is a particularly difficult 
challenge in DC (and several other major cities), especially among 
teenage and young adult populations, due to gentrification of 
neighborhoods and high housing costs. And while DC and federal 
government have been more apt in recent years to embrace new 
initiatives for permanent housing, we must not lose sight of the urgent 
and on-going need for emergency shelter and transitional living 
programs for young people with no where else to turn.
    The promotion of affordable housing must be tied to workforce 
development targeted for DC's poorest communities if we are to have 
real success in promoting educational and employment opportunities for 
this city's disconnected youth. Martha Ross and Brooke DeRenzis of The 
Brooking's Institute's Greater Washington Research Program recently 
released a report Reducing Poverty in Washington DC and Rebuilding the 
Middle Class from Within. It concludes with several recommendations on 
how to help the city's low-income residents move into the middle class. 
Specifically, we need to improve the city's workforce development 
system and expand our education and training capacity, and the authors 
argue convincingly for the expansion of sector-specific programs, 
notably construction training, which would offer a greater number of 
low-income residents access to good-paying employment. This 
recommendation mirrors the objectives of our YouthBuild Program, which 
links GED attainment to building trades apprenticeships. Ross and 
DeRenzis also demonstrate the wisdom of enhanced programs for residents 
with low reading and math skills concurrent to employment preparation, 
as well as supported work for ex-offenders and out-of-school youth.
    Third, I am happy to report that recent years in DC have seen an 
increased commitment to funding community based alternatives to 
incarceration for juvenile offenders. In DC in 2003, juveniles were 
committed and detained at a rate of 625 per 100,000. This rate far 
exceeds any other state in the nation and 90% of these youth were male, 
and 81% were African American. In 2004, the DC Inspector General 
released a report highlighting a number of deficiencies with the Youth 
Service Administration, the agency responsible for juvenile detention 
and rehabilitation, and recommended that the agency become a Mayoral 
cabinet level position. Since that time a new Director, Vincent 
Schiraldi, was appointed to the agency, which was renamed the 
Department of Youth Rehabilitative Services (DYRS). Since Mr. 
Schiraldi's appointment there has been a philosophical shift at DYRS, 
including a commitment to decrease the number of youth incarcerated at 
the District juvenile facility, Oak Hill, and a greater interest in 
placing detained and committed youth in community residential and non 
residential facilities.
    In 2005, 1,228 youth were released from secure detention to 
relatives and non-residential community programs. Given the entrenched 
staffing and change-resistant bureaucracy of the juvenile justice 
system in DC historically, this number of releases represents a 
significant policy and operational shift (there were 1,006 releases in 
2003 and 1,135 in 2004, respectively). The increasing number of young 
people returning post-incarceration to DC communities is consistent 
with DYRS's new direction and commitment to community placement. In 
fact, DYRS has developed several new initiatives including a program 
called REFAM (Return to Families), which is charged with providing 
youth with less serious offenses with community-based individualized 
plans.
    Mr. Schiraldi believes that approximately 70% of youth at Oak Hill 
are confined with nonviolent offences and should be targeted for REFAM. 
DYRS has also recently begun funding community-based programs to 
provide Evening Reporting Center and Intensive Third Party Monitoring 
slots. This nascent movement to fund community alternatives to youth 
incarceration in DC is a positive one for disconnected youth, their 
families and our communities. Other cities would be well served to 
implement similar initiatives for arguably the most disconnected of 
youth--the so-called ``re-entry'' population.
    There are two additional areas which I believe are urgent. 
Specifically, we need to do more to prevent dating violence among youth 
and to urge more positive sexual and social relationships and to 
provide programs in all major cities which give youth who are drawn 
into commercial sex work a way out.
    There are several federal programs which support homeless and 
disconnected youth. Yet these programs are small relative to the 
problems I've described above and they need greater congressional 
attention. I now would like to make several very specific suggestions 
for federal policy.

        <bullet>  Increase investment in the Runaway and Homeless Youth 
        Act to expand housing and supportive services and to intervene 
        and support homeless youth.
        <bullet>  Increase resources to schools through the Education 
        of Homeless Children and Youth Act so that admission, 
        transportation and school supports are provided to homeless 
        youth and children.
        <bullet>  Expand resources for youth aging out of the foster 
        care system through the Chafee Independence Living Act 
        Programs--these programs help find housing resources for foster 
        youth who don't have family ties and often end up homeless 
        after emancipation at 21 from foster care systems.
        <bullet>  Promote cost-saving programs which emphasize 
        alternatives to juvenile incarceration. The Juvenile Justice 
        Delinquency & Prevention Act requires states to have early 
        intervention, prevention programs to divert youth from crime 
        and incarceration, yet there is inadequate funding to establish 
        these programs in many states.
        <bullet>  Pass the Place to Call Home Act, a legislative 
        proposal of the national Network for Youth that is expected to 
        be introduced in Congress in July. The Place to Call Home Act 
        is a comprehensive legislative proposal to prevent, respond to, 
        and end runaway and homeless situations among youth through age 
        24. Enactment of the bill's provisions will have a decisive 
        positive impact for all disconnected youth, not solely youth 
        experiencing homelessness.
        <bullet>  Increase investment in the Promoting Safe and Stable 
        Families Program. This is a vital account that states use to 
        establish prevention and early intervention supports for 
        families at risk of child removal from the home, and support to 
        homeless families.
        <bullet>  Increase funding and supports for the Youthbuild 
        program so that serious expansion can occur for a model which 
        has proven effective and could do so much more.
Conclusion:
    The lives of thousands of Washington children and those across the 
country are impaired by severe poverty, disrupted families, teenage 
pregnancy, inadequate schools, poor health care and violence. For many 
children, the consequences of disintegrating families include parental 
neglect or abuse. Instead of security, they face unsafe conditions in 
their homes, schools and neighborhoods. Some are abandoned or have 
little or no adult supervision. Too few of the young people at highest 
risk for homelessness and family dissolution are offered positive youth 
development activities which challenge them to achieve their highest 
potential and to become engaged positively in their communities.
    I prepared this testimony this past weekend, during Father's Day. 
So it was bittersweet to consider this time of national familial 
celebration while organizing my thoughts on all of the many ways that 
young people become disconnected and disillusioned. Though it is with 
sadness and regret, we all must acknowledge the lack of strong and 
supportive families in our nation's poorest communities as a primary 
symptom of malaise among the vast majority of our very troubled youth. 
Whether the manifestations are dropping out of school or homelessness 
or unemployment, we all should remain mindful that strengthening 
families is the best way to prevent suffering and social disconnection 
among our young people.
    Engaging entire families--rather than individual youth--in all 
services and supports whenever possible has been the operational 
philosophy of Sasha Bruce Youthwork for three decades. This cannot be 
over-stated. Through this testimony, I have endeavored to briefly 
outline the many issues facing troubled youth today, and to offer some 
recommendations, but I must emphasize the importance of approaching 
this multi-faceted and complicated problem with a steady eye to 
engaging entire families in trusting relationships that help them to 
identify and to build on their competencies. Indeed, we see this 
strength-based, family-focused approach as key to our success and it 
should be a fundamental part of any neighborhood-based, local, state-
wide or national strategy to helping young people grow into healthy, 
loving and responsible adults.

                                 <F-dash>

    Chairman MCDERMOTT. Thank you very much.
    Mr. Whitfield?

                 STATEMENT OF DECARIO WHITFIELD

    Mr. WHITFIELD. Good afternoon, ladies and gentlemen. My 
name is DeCario Whitfield. I am 19 years old and I am a student 
enrolled in the Sasha Bruce Youth Build Program. I came to the 
Youth Build Program after coming home from jail. I was locked 
up at the age of 16 for armed robbery. There were a lot of 
circumstances that led to this terrible time.
    I was in high school. I was not getting the attention and 
assistance that I needed from my teachers. I did not understand 
any of the lessons, and I was constantly behind in my 
assignments just because I could not understand. I was scared 
to go to class because I knew I did not know the stuff. The 
classes were out of order, the students were running the halls, 
disrespectful to the teachers and each other. I was roaming the 
halls, smoking weed to escape the misery of feeling stupid and 
left behind. I could not wait for the 3:15 bell to ring.
    Even though I lived with my grandmother, I did not have 
guidance at home. Although I was not starving and had a roof 
over my head, I was not getting attention from my family. My 
father was doing a 10-year sentence in jail, and my mother was 
running the streets too often to pay me attention. Her habit 
kept her busy. I had nowhere to run or turn to for structure. I 
led myself wherever I wanted to go. I was in charge of my life 
even though I was not wise enough to make decisions for myself. 
I lived in the ghetto where I saw people get shot, stabbed, 
using drugs and getting robbed everyday. It was easy to follow 
the crew and do the same thing.
    After I was released, I was ashamed of the fact that I hurt 
others. I was sentenced to three years in jail. I was sentenced 
to a Title XVI sentence, when a 16 year old is being tried as 
an adult. I was in D.C. Jail, Shelby Training Center in 
Memphis, Tennessee, and the U.S. Penitentiary in Pennsylvania. 
I was not going to get an education, a job or any kind of 
direction and development in these places.
    Then one day after serving 2.5 years of my sentence, I came 
home. I was released to my family, the same family that did not 
give the guidance that I needed in the first place. I was still 
on my own again. I knew I needed to make a change. I found out 
about the Sasha Bruce Youth Build Program while I was in jail. 
I wanted to get my GED because I did not graduate from high 
school. I wanted to be able to get a job so that I did not have 
to hustle. I knew I needed some kind of skill and training.
    I came home on a Friday. Ms. Tara from the Free Minds 
Reading Book Club called Ms. Kym from the Sasha Bruce Youth 
Build Program and asked her if I could attend the orientation 
on the following Monday. I was in. She allowed me to come to 
the orientation even though I had not tested or interviewed. 
She took a chance on me, and I am glad.
    Now that I am in the program, I feel that I am back on 
track. Some people feel that they are too old to go back to 
school to get an education. Youth Build made it possible for me 
to get a way to get my GED. I also get a chance to go to school 
and get money at the same time. I do not have to worry about 
getting to work after being in school all day. I get both in 
the same place. The environment stays the same. I am allowed 
the chance to have a regular stable environment.
    In my classes, there are smaller amounts of people. I am 
able to get attention that I never got before. The teachers are 
respectful and they care about me. I have two teachers who 
care, instead of one who's all crazy and stressed out.
    The counselors are there for me. I am able to get guidance 
whenever I need it. I can discuss trouble when it comes. 
Before, I would deal with it in any way I could without any 
outside help from a responsible adult. I am even able to talk 
about man stuff. I am able to hear from an adult and not feel 
like something is wrong with me. This program gave me a way to 
get back to what is supposed to be normal. I never knew normal. 
It feels almost strange.
    When I am all done with this program, I will have training 
in a trade that I can use to get a job. I have other skills but 
they are illegal skills. I can only use them for other types of 
stuff. I was told that the construction piece could be seen as 
a means to an end. I have a career counselor to help me with 
any field I choose to enter. I have not made up my mind yet. I 
got some help with all that too. My counselor told me to 
redirect my other skills in a legal profession. Instead of 
breaking an entering, I could be a locksmith.
    Programs for young people like Youth Build need to be 
everywhere. Not everybody is able to get the right people to 
help them get back straight. Not everybody who falls off the 
track is in a place where they get word of the chance to do 
better, fix the wrong stuff, and make something of themselves.
    Without the program, I would be selling clothes at a stand 
in a mall with no GED or any type of good money. I would be 
stressed out and feeling stupid still. It would take me a long 
time to get my GED on my own. It would be a minute before I 
would be able to figure out that nothing was wrong with me. It 
would also take awhile to figure out the right things to do. 
Right now, I have supervision even though I am not on 
probation. People actually want to know where I am when I do 
not show up for class. I am responsible for learning instead of 
ducking the teachers and smoking weed. I even have some pocket 
change, enough to satisfy immediate needs for a little while. I 
am doing well and nothing is wrong with me. I am not a crazy 
kid running the streets.
    Thank you.
    [The prepared statement of Mr. Whitfield follows:]
                Prepared Statement of DeCario Whitfield
    Good afternoon ladies and gentlemen. My name is DeCario Whitfield. 
I am 19 years old and I am a student enrolled in the Sasha Bruce 
YouthBuild program. I came to the YouthBuild program after coming home 
from jail. I was locked up at the age of 16 for armed robbery. There 
were a lot of circumstances that led to that terrible time.
    I was in high school. I was not getting the attention and 
assistance that I needed from my teachers. I did not understand any of 
the lessons and I was constantly behind in my assignments just because 
I didn't understand. I was scared to go to class because I knew I 
didn't know the stuff. The classes were out of order. The students were 
running the halls, disrespectful to the teachers and each other. I was 
roaming the halls and smoking weed to escape the misery of feeling 
stupid and left behind. I couldn't wait for the 3:15 bell to ring.
    Even though I lived with my grandmother, I did not have guidance at 
home. Although I was not starving and had a roof over my head, I was 
not getting attention from my family. My father was doing a ten-year 
sentence in jail and my mother was running the streets too often to pay 
me some mind. Her habit kept her busy getting her fix. I had nowhere to 
turn for structure. I led myself wherever I wanted to go. I was in 
charge of my life, even though I was not wise enough to make decisions 
for myself. I lived in the ghetto. I saw people getting shot, stabbed; 
using drugs, and getting robbed everyday. It was easy to follow the 
crew and do the same thing.
    After I was arrested, I felt ashamed of the fact that I hurt 
others. I was sentenced to three years in jail. I was sentenced to a 
Title-16 sentence. It's when a 16 year old is charged and sentenced as 
an adult. I went to DC Detention Center, Shelby Training Center in 
Memphis TN, and United States Penitentiary in Pennsylvania. I was not 
going to get an education, a job, or any kind of direction and 
development in those places.
    Then one day after serving 2\1/2\ years of my sentence, I came 
home. I was released to my family; the same family that did not give 
the guidance that I needed in the first place. I was still on my own, 
again. I knew I needed to make a change. I found out about the Sasha 
Bruce YouthBuild while I was in jail. I wanted to get my GED because I 
didn't graduate from high school. I wanted to be able to get a job so I 
didn't ever have to hustle. I knew I needed some kind of skills and 
training.
    I came home on a Friday. Ms. Tara from Free Minds Reading Club 
called Ms. Kym from Sasha Bruce YouthBuild and asked her if I could 
attend the orientation on the following Monday. I was in. She allowed 
me to come to the orientation even though I had not tested or 
interviewed. She took a chance on me. I'm glad.
    Now that I'm in the program, I feel that I'm back on track. Some 
people feel that they are too old to go back to school to get an 
education. YouthBuild made it possible for me to get a way to get my 
GED. I also get a chance to go to school and get some money at the same 
time. I don't have to worry about getting to work after I have been to 
school all day. I get both in the same place. The environment stays the 
same. I am allowed the chance to have a regular stable environment.
    In my classes, there is a smaller amount of people. I am able to 
get the attention that I never got before now. The teachers are 
respectful and they care about me. I have two teachers who care, 
instead of one all crazy and stressed out.
    The counselors are there for me. I am able to get guidance when I 
need it. I can discuss trouble when it comes. Before, I would deal with 
it in any way I could without any outside help from a responsible 
adult. I'm even able to talk about man stuff. I'm able to hear from an 
adult and not feel like something is wrong with me. This program gave 
me a way to get back to what's supposed to be normal. I never knew 
normal. It feels almost strange.
    When I'm all done with this program, I will have training in a 
trade to use to get a job. I have other skills, but they're all illegal 
skills. I can only use them for other type stuff. I was told that the 
construction piece could be seen as a means to an end. I have a career 
counselor to help me with any field I choose to enter. I have not made 
up my mind yet. I got some help with all that too. My counselor told me 
to redirect my other skills to use in legitimate professions. Instead 
of breaking and entering, I could be a locksmith.
    Programs for young people, like YouthBuild, need to be everywhere. 
Not everybody is able to get to the right people to help them get back 
straight. Not everybody that fell off the track is in a place where 
they get word of the chance to do better, fix the wrong stuff, and make 
something of themselves.
    Without the program I would be selling clothes at a stand in the 
mall with no GED or any type of good money. I would be stressed out and 
feeling stupid, still. It would take me a long time to get my GED on my 
own. It would be a minute before I would be able to figure out that 
nothing is wrong with me. It would also take awhile to figure out the 
right things to do. Right now, I have supervision, even though I'm not 
on probation. People actually want to know where I've been when I don't 
show up for class. I am responsible for learning, instead of ducking 
the teachers and smoking weed. I even have some pocket change, enough 
to satisfy immediate needs for a little while. I'm doing good, and 
nothing is wrong with me. I'm not a crazy kid running the streets.

                                 <F-dash>

    Chairman MCDERMOTT. Thank you very much for that testimony.
    Dr. Mincy is a professor of social policy and social work 
at Columbia University's School of Social Work.
    Dr. Mincy?

 STATEMENT OF RONALD B. MINCY, MAURICE V. RUSSELL PROFESSOR OF 
  SOCIAL POLICY AND SOCIAL WORK PRACTICE, COLUMBIA UNIVERSITY

    Dr. MINCY. Good afternoon, Mr. Chairman. Since many young 
people between 16 and 24 years old are out of school and out of 
work, they are not acquiring the knowledge and skills needed to 
replace today's skilled, educated and experienced adult 
workers. These young people are called ``disconnected youth.'' 
To remain competitive in a global economy, it is imperative 
that Congress act in order to reconnect these young people to 
school and work. Doing so would also provide an important 
progress on an important American ideal, namely, inter-
generational social mobility. Finally, reconnecting these young 
people to school and work would save billions of dollars in 
future welfare, child welfare, unemployment and criminal 
justice expenditures. For these reasons, I applaud this 
Committee for holding these hearings, and I am grateful for the 
opportunity to testify.
    I would like to set a big picture here. Between 1980 and 
2000, the United States enjoyed two of the longest periods of 
economic growth this nation has ever seen. That growth was 
fueled by a steady increase in the size, skills, experience and 
education of the prime-age labor force. However, over the next 
10 years, the prime-age labor force is expected to grow at less 
than half the pace it did during these prosperous years. 
Moreover, white workers, who generally have more education and 
occupational status than black, Latino and foreign-born 
workers, represented the majority of new workers during this 
prosperous time, but they will represent just 15 percent of net 
new workers over the next two decades.
    Increases in the fraction of workers with college degrees 
help to fuel the economic growth of the 1980s to 2000s. 
However, we are expected to have very slow growth in the number 
of college-educated workers in the next 10 years.
    For these reasons, maintaining our competitiveness demands 
that we get as much as we can out of every potential worker. 
However, youth between 16 and 24 years old, who are not in 
school and not in work, are not obtaining the skills they need 
to fill the void.
    Disconnected youth represent about 5 to 29 percent of all 
young people between 16 and 24 years old. Estimates vary about 
how large this population is according to the age at which we 
are trying to begin these estimates or whether or not the 
estimates are narrow or broad. Some estimates include younger 
adolescence down to age 14. Some include, in addition to being 
out of school and out of work, women who are not married to 
students or workers or unmarried mothers. Some estimates rely 
not just on being out of school and out of work but whether or 
not someone is a high school dropout in the foster care system 
or in the juvenile justice system or whether or not someone 
suffers from long-term unemployment or incarceration.
    Due to these variations, most studies estimate the 
population as being somewhere between 2 million and 10 million 
youth. Therefore, this population is by no means a drop in the 
bucket and it really represents an important potential labor 
force to replace retiring workers that if we do not act, we 
will lose.
    Our tolerance for social and economic mobility is based on 
the idea that equal opportunity will mean that disadvantaged 
adults will not have disadvantaged children. However, the 
characteristics of most disconnected youth belie that. Blacks 
and Hispanics, particularly those of Puerto Rican descent, are 
over-represented among disadvantaged youth. The children of 
high school dropouts are also over-represented as are the 
children of public assistance recipients.
    Not only are the children of the disadvantaged more likely 
to become disconnected in the first place, but they are also 
likely to experience recurring spells of disconnection and 
longer spells. For example, black men who are in this age 
group, one third of them have disconnection spells of up to two 
years and 12 percent of them have disconnection spells of up to 
three years. Someone who has three years of being out of school 
and out of work is unlikely to be hired by the private sector 
in the United States. This suggests that the idea of inter-
generational mobility is being undermined by this notion of 
disconnected youth and it is for this reason that it is 
important for this Committee to act.
    I want to then honor my time and the time of the other 
presenters by pointing out that we have heard of a number of 
effective programs for disadvantaged youth. Youth Build has 
been touted a number of times. There is also a CUNY Prep 
Program, which I discuss in my written testimony, that moves 
young people from being out of school and out of work to 
actually enrolling in college.
    So, I want to again applaud this Committee for holding 
these hearings and I look forward to working with this 
Committee in the future to see that we can address these to a 
number of different Committees, a number of Federal programs 
and thank you very much.
    [The prepared statement of Dr. Mincy follows:]
   Prepared Statement of Ronald B. Mincy, Ph.D., Maurice V. Russell 
     Professor of Social Policy and Social Work Practice, Columbia 
                    University School of Social Work
    Because many young people between 16 and 24 years old are out-of-
school and out-of work, they are not acquiring the knowledge and skills 
needed to replace today's skilled, educated, and experienced adult 
workers. These young people are called disconnected youth. To remain 
competitive in a global economy, it is imperative that Congress act in 
order to re-connect these young people to school and work. Doing so 
would also promote an important American ideal, namely 
intergenerational social mobility. Finally, reconnecting these young 
people to school and work would save billions of dollars in future 
welfare, unemployment, and criminal justice expenditures. For these 
reasons, I applaud this committee for holding these hearings, and I am 
grateful for the opportunity to testify.
    As compared with the previous two decades, the U.S. labor force is 
expected to grow much more slowly and we can anticipate substantial 
shortages of skilled, educated, and experienced workers. The labor 
force (persons between 25 and 54 years old) grew by almost 50 percent 
between 1980 and 2000, but over the following 20 years, it is projected 
to grow by less than 16 percent. Only 15 percent of net new U.S. 
workers will be native-born whites, who represented over 54 percent of 
net new workers between 1980 and 2000. Black, Hispanic, and foreign-
born workers will replace native born white workers between the ages of 
25 and 54 years old, because the number of these prime age white 
workers will decline by 10 percent 2000 and 2020 (Ellwood, 2001). Since 
minority and foreign-born workers generally have lower levels of 
educational attainment and occupational status than white workers, this 
demographic transition implies declines in the skills and education of 
the American workforce. There is also direct evidence of such a 
decline. The fraction of workers with college degrees will increase by 
about 5 percentage points between 2000 and 2020; during the two decades 
before 2000 it increased by 11 percentage points (Ellwood, 2001).
    Youth who are out of school and out of work are not acquiring the 
knowledge and skills needed to replace the skilled, educated, and 
experienced adult workers who will retiring in the coming decade. In 
the 1990s, observers began efforts to estimate the size and 
characteristics of these disconnected youth (Besharov 1999 and Donahoe 
and Tienda 2000). Though we know much more about them, we still lack a 
coherent national strategy to provide these young people with the 
supports they need to return to school and work, so that we remain 
competitive in a global economy.
    Definitions of disconnected youth vary by age and other criteria. 
The most strict definition is a person between the 16 and 24 years old, 
who is neither working (in the private sector or the military), nor in 
school. When studying disconnection, some studies consider youth as 
young as 14 years old because it is clear that the process of 
disconnection begins before age 16. To take account of gender 
differences in the transition from youth to adulthood, early studies 
added teenaged mothers or women who were not married to a student or 
worker to the definition of disconnected youth (Brown and Emig, 1999). 
More recent studies also use factors that are highly associated with 
disconnection by the most strict definition (out-of-school and out of 
work) as criteria defining disconnection youth. For example, according 
to Wald and Martinez, (2006) any 14 to 17 year old who drops out of 
high school, or is involved with the juvenile justice system, or is an 
unmarried mother, or is in foster care is at risk of disconnection. 
Moreover, any 18-to-24 year old who experiences long-term unemployment 
or incarceration is disconnected. Because of these variations in 
criteria, estimates of the size of the disconnected-youth population 
vary widely. By the strictest definition, disconnected youth represent 
about 5 percent of all youth between 16 and 24 years old. By broader 
definitions, they represent as much as 29 percent of all youth in a 
given age range. Depending upon criteria, disconnected youth were 
reconnected to school and work, they could replace a small or more 
substantial fraction of the skilled, educated, and experienced workers 
who will retire over the next decade.
    Besides replacing skilled, experienced, and educated workers, 
disconnected youth are evidence that a fundamental American ideal is 
failing. That ideal is intergenerational social-economic mobility. Our 
tolerance for social and economic inequality is based on the belief 
that equal opportunity will make it possible for the children of the 
disadvantaged to advance beyond their parents' station in life. 
However, a common finding of studies of disconnection is that blacks 
and native-born Hispanics, especially those of Puerto Rican descent, 
are more likely to become disconnected than other adolescents (Brown 
and Emig 1999, Donahoe and Tienda 2000, and MaCurdy, Keating, et al. 
2006). For example, black males are twice as likely to be disconnected 
as white males, because of their high dropout, unemployment and 
incarceration rates. In addition to high dropout and unemployment 
rates, black females are more likely to be disconnected than white 
females because of their high rates of unmarried births.
    Studies also show that race and ethnicity are not the only 
evidence, related to disconnection, that the American class structure 
is hardening. Instead, the probability of disconnection is inversely 
related to parental education and parental receipt of public 
assistance. So, for example, by age 22 the probability of disconnection 
for the adolescent children of high school dropouts is more than twice 
as high as the corresponding probability for the adolescent children of 
college graduates. What's more the probability of disconnection was 34 
percent for the white adolescent children of high school dropouts, but 
47 percent for the white adolescent children of high school dropouts, 
who also received public benefits (MaCurdy, Keating, et al. 2006).
    Longitudinal studies, which examine outcomes over time, show that 
race and parental education are also strong predictors of recurring and 
longer spells of disconnection. For example, once an initial spell of 
disconnection is interrupted by a return to work or school, 13 percent 
of the adolescent children of high school dropouts experience a second 
spell of disconnection. By contrast, a second spell of disconnection 
occurs for only 7 percent of the adolescent children of high school 
graduates and only 4 the adolescent children of college graduates. Only 
24 percent of white males had a first spell of disconnection lasting at 
least two years; while 33 percent of black males did so. Indeed, 12.3 
percent of black males had first disconnections spells that lasted 
three years; only 8.3 percent of black females, 6.5 percent of white 
males and 4.9 percent of white females had a first disconnection spell 
of such long duration.
    That the incidence, recurrence, and duration of disconnection 
spells is higher for blacks than whites, does not mean that white youth 
are immune to disconnection. The majority (58 percent) of disconnected 
youth are white.
    Longitudinal studies of disconnection also providing information 
that may help policy makers target resources to disconnected youth. As 
stated above, the adolescent children of public assistance recipients 
are more likely to become disconnected as are youth in the foster care 
system and juvenile justice systems. Moreover, the probability of the 
first spell of disconnection rises steadily with age, but peaks at 18 
years old, when most youth should be graduating from high school. 
Finally, the probability of a second spell of disconnection is higher 
for youth who began their first spell of disconnection after dropping 
out of school or being convicted of a crime. These findings suggest 
strategic points during the life cycle when interventions should be 
targeting disconnected youth or youth at risk of becoming disconnected. 
An obvious intervention point is just before youth leave school. 
Another is while youth (or their parents) are receiving public 
benefits. Other points of intervention include the period just before 
youth age out of foster care or after youth have been convicted of a 
crime, perhaps in programs that divert non-violent offenders from 
incarceration. Welfare programs and programs serving teen mothers are 
obvious points of contact for serving disconnected young women. But 
because disconnected young men are rarely served by publicly-funded 
programs, unless they are reached in school, foster care, or in the 
juvenile justice system, it may be difficult to reach them at all.
Reconnecting Disconnected Youth

    Promising or effective interventions for disconnected youth are 
simple to conceptualize, but often difficult to design and implement. 
They tend to connect youth, to school or work, but they must also 
create comprehensive systems of support to address barriers to school 
attendance and employment. The basic model for connecting disconnected 
youth to school is the alternative high school. Studies show that the 
most successful such high schools emphasize easy access. They tend to 
be free of charge and offer schedules that allow young people to handle 
their personal responsibilities and complete their coursework. The most 
promising approaches go beyond GED attainment, because studies show 
that the return to obtaining a GED is substantially lower than the 
returns to a high school diploma (Campbell and College, 2003). 
Moreover, these programs have small class sizes, a family atmosphere, a 
combination informality and structure and individualized strategies are 
all common in successful transitional schools. Student autonomy and 
accountability are also stressed in these programs (Dugger and Dugger 
1998 and Reimer and Cash 2003). Other features of effective alternative 
schools include attention to students' psychological needs and efforts 
to build on student's social as well as their academic skills (Mitchell 
and Waiwaiole 2003).
    CUNY Prep, collaboration between the Department of Youth and 
Community Development (DYCD), New York City Department of Education 
(DOE) and City University of New York (CUNY), is a good example of a 
alternative high school. The purpose of CUNY Prep is to prepare out-of-
school students, between the ages of 16-18 years old, to reenter high 
school or to acquire their GED so they may attend college. With this 
goal in mind, CUNY Prep works to improve the confidence of the youth as 
students in a small school setting, where they are held to high 
expectations. Teachers and administrators work diligently with students 
to overcome current barriers, such as acquiring daycare for young 
mothers and housing or other barriers to reentry for ex-offenders. 
Besides high expectations and supports, CUNY Prep students are also 
held accountable for their actions. Failure to adhere to rules for 
student conduct often results in dismissal, although students are 
allowed to return the following semester with no retributions.
    Connecting older youth or young adults to work is a more formidable 
task for several reasons. Young people between the ages of 18 and 24, 
usually face more obstacles to work than younger cohorts, attempting to 
return to school. Many 18-to-24 year-old disconnected youth are high 
school dropouts. Others graduated from high school despite having 
limited math and reading skills. Finally, few employers are willing to 
hire young people with no work experience. Despite these difficulties, 
there are programs that are successful in introducing or re-introducing 
these young adults to work.
    Many of the characteristic of successful alternative education 
programs hold true for workforce development programs. However, 
diversity within the disconnected-young adult population requires 
multiple pathways to success (National League of Cities, 2000). Such 
designs often result when efforts are undertaken to include 
disconnected young adults in program design and implementation 
decisions.
    YouthBuild USA is a nationally recognized program that works with 
disconnected young people, by creating meaningful employment 
opportunities in the construction industry. The Department of Housing 
and Urban Development has partnered with local nonprofit, faith-based 
and public agencies to replicate Youthbuild in several communities 
around the country. Constructions jobs not only help the young adults, 
but also enable these young adults to contribute to their communities 
by building low-income housing. While learning job skills that will 
lead to sustainable employment, young adults are also encouraged to 
complete their high school diploma or obtain their GED at YouthBuild's 
own alternative school. Consistent with the comprehensive approach 
needed to work with disconnected youth, Youthbuild also provides social 
support and follow up services to participants.
    More recently, Youthbuild has added several new features to its 
programming, which should increase success. Through a partnership with 
AmeriCorps young adults receive monetary compensation while learning 
new skills, which should increases retention. Additionally, AmeriCorps 
offers a stipend or a larger educational reward upon completion of the 
program, which should increase the number of young adults who 
successfully complete the program. Fifty-eight percent of the youth 
that enter the program complete it, of those 33 percent obtain their 
GED or high school diploma and 78 percent go onto to gainful employment 
or further education.
    Financial literacy and leadership development are other new 
components of Youthbuild's programming. Upon graduation from the 
program, YouthBuild introduces its graduates to asset development 
through Individual Development Accounts (IDAs) and YouthBuild Asset 
Trust. After graduation from Youthbuild, participants have the 
opportunity to engage youth leadership activities. There are a variety 
of alumni youth leadership organizations for graduates of YouthBuild.
    A final example of a promising program for disconnected youth is 
especially focused on homeless youth and youth in foster care system. 
The Metropolitan Atlanta Youth Opportunity Initiative (MAYOI) is a is a 
two year transitional program, sponsored by The Annie E. Casey 
Foundation and Casey Family Programs, targeting foster care youth or 
youth who have been previously homeless. MAYOI collaborates with local 
providers ensure these youth receive priority for housing and other 
social services, including education, health care, employment-training. 
The goal for participants is to become economically self-sufficient in 
two years and have their own home within three years.
    These are just a few of the promising initiatives that have been 
developed by governments and non-profit agencies to respond to the 
needs of disconnected youth. A much more concerted effort is needed in 
the coming years to build effective systems to support these youth. One 
of the obstacles to such a system is the multiple jurisdictions 
involved. Disconnected youth (or those at risk) come from families 
receiving welfare, the foster care system, and the criminal justice 
system. We want to ensure that these youth return to school and to 
work. Though support from the federal government is desperately needed, 
no single federal departments and Congressional committees can do the 
job on its own. Nevertheless, I urge Members of Congress to begin with 
these hearings to work through the obstacles. Our position in the world 
economy and our commitment to a fundamental American ideal depend on 
our ability to act decisively, over the 10 years.
References

Besharov, D. (Ed.) (1999). America's Disconnected Youth. Washington, 
D.C.: American Enterprise Institute.

Brown, B.V., & Emig, C. (1999). Prevalence, Patterns, and Outcomes. In 
D. Besharov (Ed.), America's Disconnected Youth. Washington, D.C.: 
American Enterprise Institute.

Campbell, L. and College, N. (2003). As strong as the strongest link: 
Urban high school dropout. The High School Journal, 87, 2, 16-24.

Dugger, J.M. and Dugger, C.W. (1998). An evaluation of a successful 
alternative high school. The High School Journal. 81(4), 218-228.

Donahoe, Debra and Marta Tienda. 2000. ``The Transition from School to 
Work: Is There a Crisis? What Can Be Done?'' In Danziger, Sheldon, and 
Jane Waldfogel (Eds.) Securing the Future: Investing in Children from 
Birth to College. Russell Sage Foundation, New York, NY.

Ellwood, D.T. (2001). The Sputtering Labor Force of the 21st Century: 
Can Social Policy Help?: National Bureau of Economic Research.

MaCurdy, T., Keating, B., and Nagavarapu, S.S. (2006). Profiling the 
plight of disconnected youth in America. William and Flora Hewitt 
Foundation.

Metropolitan Atlanta Youth Opportunities Initiative. (2007). Making My 
Way Home program overview. Retrieved on June 17, 2007 from the World 
Wide Web: http://www.atlcf.org/www/documents/mywayinfo06b.pdf.

Metropolitan Atlanta Youth Opportunities Initiative. Metropolitan 
Atlanta Youth Opportunities Initiative fact sheet. Retrieved on June 
17, 2007 from the World Wide Web: http://www.jimcaseyyouth.org/docs/
mayoifactsheet.pdf.

Mitchell, S. and Waiaiola, G. (2003). Interim Evaluation of In-District 
Alternative Education High School Programs. Portland, OR: Author.

National League of Cities. (2006). Reengaging disconnected youth. 
Washington, DC: Author.

Reimer, M. and Cash, T. (2003). Alternative schools: Best practices for 
development and evaluation. Clemson, South Carolina: National Dropout 
Prevention Center.

The Jim Casey Youth Opportunity Initative. (2006). Cross-Site Report: 
Progress on Performance Measures. Retrieved on June 17, 2007 from the 
World Wide Web: http://www.atlcf.org/www/documents/perfreport06.pdf.

Wald, M. and Martinez, T. (2003). Connected by 25: Improving the life 
chances of the countries most vulnerable 14-24 year olds. William and 
Flora Hewitt Foundation Working Paper.

                                 <F-dash>

    Chairman MCDERMOTT. Thank you very much for your testimony.
    Ms. Burt is a research associate for the Center for Labor, 
Human Services and Population at The Urban Institute.

  STATEMENT OF MARTHA R. BURT, RESEARCH ASSOCIATE, CENTER ON 
   LABOR, HUMAN SERVICES AND POPULATION, THE URBAN INSTITUTE

    Dr. BURT. Thank you, Chairman McDermott, Congressman Weller 
and other Members of the----
    Chairman MCDERMOTT. I guess I should have addressed you as 
``Doctor,'' I am sorry.
    Dr. BURT. Thank you. He is a doctor and I am a doctor. 
Thanks for inviting me to share my views related to homeless 
youth, and especially their involvement in public systems. I 
have been involved in policy-oriented research related to 
homeless populations since 1983 with the First Emergency Food 
and Shelter Act, and I have also, in addition to working on 
homeless issues, worked a lot on high-risk youth from a number 
of different directions, including teenage pregnancy, mental 
illness and community programs to assist multi-problem youth. 
So, I take a multi-system perspective, and I take a fairly 
long--who is getting into the potential place to become 
homeless among many youth who are at high risk and experience a 
lot of difficulties.
    About a quarter of youth could be put in that category of 
those who have an elevated risk of homelessness. They are in 
fact showing up on the streets and the more vulnerabilities 
they have in the direction of many of the issues that people 
have said the higher likelihood that they are--that they will 
experience homelessness.
    I have been asked to talk about how big the problem is, 
that is how many homeless youth are there, who they are and 
what might be promising types of intervention. I am not going 
to talk about who they are because I think you have heard that 
from everybody else. I have provided a number of statistics 
about the proportions that we know from research are in--have 
particular issues, but I will skip that.
    I do want to talk about the issue of understanding how big 
the problem is and why it is so difficult for anybody to tell 
you the answer to that. The Committee is, at this point, 
interested in youth 16 to 24. That means you are interested in 
minors and adults. The same national surveys do not cover both 
minors and adults, and so we are always in a position of trying 
to piece together information from surveys that look at youth, 
like the Youth Risk Behavior Survey, and surveys that look at 
adults. In addition, the same systems do not serve both youth 
and adults. So, for instance, the homeless service system, for 
which we do have some national data and national estimates that 
I have included in my testimony, does not take anybody under 
18. The Runaway and Homeless Youth system has its own data 
system and trying to put those together is rather difficult. 
The foster care system has yet another data system. Trying to 
figure out where the overlaps are makes it very difficult for 
us to give you estimates.
    It also very much depends on what you mean by ``homeless.'' 
When you look at estimates of 1.5 million, 1.6, 1.7 million, in 
the course of a year, is everything from youth who have left 
without parental permission for one night, so the definition in 
these telephone surveys is one night on the street without 
consent and not on vacation, of course, all the way to up kids 
who have basically been kicked out at the age of 12 because 
somebody found out or figured out that they were a sexual 
minority and they have no place to go except on the street from 
thereon. So, if you are looking at the very hardcore group of 
kids who have very long histories of homelessness, that is a 
smaller proportion of kids who have a lot more complex needs 
and a level of intervention that will be necessary to help them 
back is a lot higher.
    Youth who use youth homeless shelters are most often 
homeless for the first time and have not been homeless very 
long. Mostly what we know about them we know because they are 
connected to the programs run by the Family and Youth Services 
Bureau and we have a data system on them. Street use is exactly 
the opposite. They are unattached to shelters, they are on 
their own without adult supervision for periods that can last 
for several years. In the National Survey of Homeless 
Assistance Providers and Clients, which I analyzed and 
published a lot about, we looked at the 18 and 19 year olds 
because this went only to adult shelters so we have analyzed 
the 18 and 19 year olds and the 20 to 24 year olds to look at 
the differences between those age groups and the homeless 
people over 25, and what you find is that up to 61 percent of 
the 18 and 19 year olds who are in adult shelters have been in 
foster care and have aged out of foster care, many have been in 
correctional institutions and that is where you get your really 
serious cases who have very long histories of homelessness, 
they are already chronically homeless.
    In the 20 to 24 year old group, you have a lot of young 
mothers, who were teenage moms, have all the issues related to 
being a mother at a very young age, often not voluntarily, and 
are now turning up as the homeless families, and they are being 
talked about as if they were not teenage moms, they are just a 
normal family that was just one paycheck away from homelessness 
but that is not actually who they are.
    I want to actually emphasize very much that the 
intervention point, there is a general rule of thumb, when you 
are looking at populations sort of as broad brush as homeless 
youth and that is to go for the hardest core you can find. If 
you are going to put significant money into people, people who 
are in trouble, the ones you really want to touch and touch 
deeply, intensively, and across the board, are those who have 
absolutely no chance of getting out of this on their own. Most 
of the children who go to runaway and homeless youth centers 
end up in fact reconnected to their families, thanks to the 
help they get at those places, with not no trouble but not huge 
amounts of trouble and huge investment in them.
    The really hardcore kids, the kids who age out of foster 
care, the kids who run away from foster care, which is at least 
as many, the kids who get exited out of foster care before they 
are 18 because they are now in other institutions, like jails 
and correctional facilities, these populations are at least as 
big those that age out. The 200,000 a year who leave 
correctional institutions between the ages of 16 and 24 also 
are at very, very high risk for long-term less than productive 
lives. The most expensive interventions are also the 
interventions that will rescue the people who are least likely 
to rescue themselves.
    Thank you very much.
    [The prepared statement of Dr. Burt follows:]
    Prepared Statement of Martha R. Burt, Ph.D., Research Associate,
  Center on Labor, Human Services and Population, The Urban Institute
    Chairman McDermott and Members of the Committee:
    Thank you for inviting me to share my views relating to homeless 
youth, and especially to their involvement in public systems under the 
supervision of this committee. I have been involved in policy-oriented 
research on homeless populations and homeless service systems since 
1983, when the first Emergency Food and Shelter Program legislation was 
passed, and have also spent considerable time trying to understand 
strategies that are able to reach multiproblem youth and help them move 
toward a productive and responsible adulthood. So it is a pleasure for 
me to be asked to give testimony on a matter that has not received 
either the research or policy attention it deserves.\1\
---------------------------------------------------------------------------
    \1\ This testimony draws on my own and other researchers' published 
and unpublished work. The views expressed are mine alone and do not 
necessarily reflect the views of any organization with which I am 
affiliated.
---------------------------------------------------------------------------
    I have been asked to address three issues: (1) How big is the 
problem--how many homeless youth are there? (2) Who are homeless 
youth--what are their characteristics, and what factors predispose 
youth to become homeless? and (3) What might be the most promising 
points and types of intervention? \2\
---------------------------------------------------------------------------
    \2\ For a recent comprehensive overview of youth homelessness, see 
Paul Toro, Amy Dworsky, and Patrick Fowler, ``Homeless Youth in the 
United States: Recent Research Findings and Intervention Approaches.'' 
Paper presented at the Second National Homelessness Research Symposium, 
March 1-2, Washington, D.C., sponsored by Department of Health and 
Human Services (DHHS) and the Department of Housing and Urban 
Development (DHUD).

---------------------------------------------------------------------------
How Big Is the Problem?

    There are no reliable statistics on the number of homeless youth, 
in part because this is a notoriously difficult population to find and 
count, and in part because everyone defines the population differently. 
This Subcommittee has stated that its interest is in the population of 
youth and young adults age 16 to 24. This age range includes both 
minors and adults, which usually means that data must be drawn from 
different ongoing national surveys just as different systems of public 
and private support and intervention serve minors and adults. There are 
also issues of what one means by ``homeless''--does one night away from 
home without permission count, or two nights, or do we want to focus on 
the youth who truly have no place to go back to and spend years on the 
streets? Estimates have to be cobbled together from different sources, 
or special surveys have to be conducted, each of which has its 
limitations. I am happy to say more about definitional and 
methodological issues if asked, but assuming the Subcommittee is 
interested in our best guesses, they are the following:

        <bullet>  For youth age 12-17, two estimates from quite 
        different sources fall in the range of 1.6 to 1.7 million a 
        year (between 7 and 8 percent of all youth in those age 
        ranges). This estimate is at the high end because it is very 
        inclusive, counting short unauthorized absences from home or 
        ``throwaway'' experiences of getting kicked out for a period of 
        time as well as long-term separation from family or having 
        nowhere to return (Ringwalt et al. 1998; Hammer, Finkelhor, and 
        Sedlak 2002). A higher proportion of episodes occur among older 
        than among younger youth. Further, most of these episodes are 
        very short, with the result that about 300,000 to 400,000 youth 
        might be expected to be homeless on any given day.
        <bullet>  Youth using homeless youth shelters are usually 
        homeless for the first time and have not been homeless long. 
        Information about youth in these shelters, which are usually 
        funded by the Family and Youth Services Bureau of the 
        Department of Health and Human Services (DHHS), can be obtained 
        through RHYMIS, that system's management information database. 
        Street youth are the opposite--unattached to shelters and on 
        their own without adult supervision for periods that can exceed 
        several years. Information about this part of the homeless 
        youth population is only available through special studies.
        <bullet>  Homelessness among young adults, age 18 to 24, may be 
        studied within the homeless assistance system that serves 
        adults. Still the best source of that information, although now 
        dated, is the National Survey of Homeless Assistance Providers 
        and Clients (NSHAPC), which was conducted in 1996. Urban 
        Institute researchers developed estimates of the homeless 
        population from NSHAPC, from which we can estimate the numbers 
        of 18- to 19-year-olds and 20- to 24-year-olds among the adult 
        homeless population (Burt, Aron, and Lee 2001).
          <all>  18- to 19-year-olds are 5 percent, or 22,000 to 
        44,000, of the homeless population on a single day, or about 
        80,000 to 170,000 over the course of a year.
          <all>  20- to 24-year-olds are 7 percent, or 31,000 to 
        59,000, of the homeless population on a single day, or about 
        124,000 to 236,000 over the course of a year.

Who Are Homeless Youth?

        <bullet>  Gender--In shelter samples, whether in youth or adult 
        shelters, the proportions of males and females tend to be about 
        equal. The older and the more ``street'' the sample, the more 
        males.
        <bullet>  Race/ethnicity--As with samples of homeless adults, 
        race/ethnicity distributions depend heavily on the race/
        ethnicity distribution of the entire community.
        <bullet>  Sexual minorities--Research findings on the 
        proportion of homeless youth who are gay, lesbian, or bisexual 
        vary, from a low of about 6 percent from youth-services-center 
        samples to as high as 11 to 35 percent in street samples. 
        Sexual minority status is a powerful risk factor for youth 
        homelessness, as disclosure to a parent or a parent's discovery 
        of that status may lead to being thrown out or running away.
        <bullet>  Pregnancy--Homeless youth are three times as likely 
        as national samples of youth to be pregnant, to have 
        impregnated someone, or to already be a parent. Pregnancy may 
        be the result of having no way to obtain money other than 
        through prostitution (survival sex) when already homeless or 
        ejection from home because of the pregnancy. This trend 
        continues for homeless young adults age 18 to 24 (see appendix, 
        table 1).
        <bullet>  Length of time homeless--As noted, youth using 
        runaway and homeless youth shelters tend to have been homeless 
        only once and for a short period of time. NSHAPC data on young 
        adults shows that more than half had been homeless for 2 to 9 
        years. Two-thirds of those age 18 to 19 had first become 
        homeless before they were 18; the same was true for a third of 
        those age 20 to 24 (see appendix, table 1).

Risk Factors for Homelessness Among Youth

    In addition to pregnancy and sexual minority status, a number of 
factors may contribute to a youth becoming homeless and to the separate 
issue of a youth remaining homeless.

    <bullet>  School difficulties--About half of homeless youth have 
not finished high school, with the proportion going up the younger the 
youth. Between one-fourth and two-fifths of homeless youth have had to 
repeat at least one grade in school. Among young adult homeless people, 
the majority have been suspended and/or expelled from school (see 
appendix, table 2).
    <bullet>  Substance abuse--Thirty to 40 percent of homeless youth 
report alcohol problems in their lifetime, and 40 to 50 percent report 
drug problems. These percentages are smaller than for older homeless 
people, but homeless youth tend to have started younger, often before 
age 15. This early use and abuse is predictive of serious adult 
addiction problems and long-term homelessness (of 18- to 19-year-olds 
in NSHAPC, 23 percent began drinking to get drunk before age 15, and 20 
percent began using drugs regularly at that early age) (see appendix, 
table 2).
    <bullet>  Mental health problems--Forty-five percent of homeless 
youth reported mental health problems in the past year, 50 to 56 
percent did so over their lifetime. These rates are not different than 
for older homeless adults, but they are predictive of becoming homeless 
and remaining homeless (see appendix, table 2).
    <bullet>  Family conflict and child maltreatment--Very high 
proportions of homeless youth report family conflict as a reason for 
being homeless. Almost twice as many young adult homeless people report 
abuse and neglect experiences as do older homeless people (see 
appendix, table 3).
    <bullet>  Out-of-home placement and foster care--Abuse and neglect 
experiences increase the likelihood of child welfare involvement and 
out-of-home placement, and life on the street increases the likelihood 
of criminal involvement.

          <bullet>  61 percent of 18- to 19-year-old NSHAPC young 
        adults had been in out-of-home placements--a rate more than two 
        and a half times that reported by homeless adults 25 and older. 
        The 20- to 24-year-old NSHAPC population was in the middle. 
        Further, the younger group was more likely to have been removed 
        from their home before age 13 and to have spent more time in 
        out-of-home placement. Half had been forced to leave home when 
        they were a minor (see appendix, table 3). About a quarter of 
        NSHAPC young adults had been in juvenile detention, compared 
        with 15 percent of older homeless people.
          <bullet>  The association between child welfare involvement 
        and shelter use as an adult works both ways. Studies in New 
        York City indicate that 29 percent of emergency shelter users 
        had been involved with child welfare services, of whom three-
        quarters had been placed outside the home (Park, Metraux, and 
        Culhane 2005). Thus, out-of-home placement is a decided risk 
        for homelessness (in the general population, only about 3 
        percent of adults have been so placed). Looked at from the 
        child welfare perspective, 19 percent of former child welfare 
        service users entered public shelters within 10 years of 
        leaving child welfare. Those placed outside the home were twice 
        as likely as those that just received preventive services to 
        enter a shelter (22 versus 11 percent), while absconders from 
        foster care had the highest rate of subsequent homelessness 
        (Park et al. 2004a).
          <bullet>  Finally, having been homeless as a child, with 
        one's parent(s), is associated with subsequent child welfare 
        involvement. Eighteen percent of such children became involved 
        with child welfare within 5 years of their first shelter 
        admission, with recurrent use of shelters (i.e., repeated 
        homeless episodes) being a strong predictor of child welfare 
        involvement (Park et al. 2004b).

    <bullet>  Juvenile justice involvement--Every year about 200,000 
youth age 10 to 24 leave detention and correctional facilities. Most do 
not have a high school diploma, nor have they ever held a job. They 
frequently have physical health, mental health, and/or substance abuse 
problems. And they most commonly go back to neighborhoods that will 
expose them to the same risk factors for getting into trouble that put 
them into the justice system in the first place. Several studies, 
summarized by Toro et al. (2007), indicate that these youth have high 
probabilities of ending up homeless.

    All the statistics we can assemble suggest that many kinds of 
trouble may lead to youth homelessness. The very large majority of 
youth who experience a runaway, throwaway, or homeless episode manage 
to leave homelessness and not return. But the longer a youth has been 
homeless, the more likely he or she is to be in many kinds of trouble 
and to have been for a long time (Toro, Dworsky, and Fowler 2007). 
Further, the longer the period of youth homelessness is and the more 
barriers a youth faces, the higher the risk that the youth will end up 
as a chronically homeless adult. Indeed, many homeless street youth 
today would meet HUD criteria for chronic homelessness if they were 
adults.

Intervention Options

    A general rule of thumb for selecting among intervention points and 
intervention types is ``go for the hardest-core you can find.'' Thus, 
with homeless youth, the largest waste of human potential, along with 
the biggest costs to society, lies with multiproblem youth, who are 
quite often involved with two or more public systems and who have the 
highest risk of becoming and remaining homeless. This may seem 
counterintuitive, and it is often not politically popular. But a good 
deal of research indicates that while interventions with the ``hardest-
core'' parts of a population are the most expensive, they also yield 
the most impact for the investment. This is because these are the 
people who are pretty much guaranteed not to solve their own problems 
if left to their own devices.
    The runaway and homeless youth shelter network, supported and 
overseen by the Family and Youth Services Bureau of the DHHS, already 
focuses on the large component of the runaway youth population that 
potentially has a home to go back to. Follow-up studies indicate that 
the very large majority of these youth (up to 90+ percent) reunite with 
their parents, progress to living on their own, or live with friends, 
but do not continue in or return to homelessness. While expanding the 
numbers and locations of these programs would always be desirable, such 
an expansion would not make much difference for the street youth 
population because very few of the latter population use these 
programs.
    The intervention points that are likely to yield maximum payoff are 
the periods surrounding institutional release--the 24,000+ youth who 
turn 18 while in foster care and the 200,000+ youth who leave juvenile 
or corrections facilities every year are those among the general youth 
population who have the highest risk of becoming homeless and of 
staying homeless or reentering institutions if nothing is done to 
intervene. \3\ The period surrounding the end of substance abuse 
treatment or psychiatric hospitalization is another potentially 
fruitful intervention point.
---------------------------------------------------------------------------
    \3\ A slightly higher proportion of youth who were in foster care 
at age 16 ``exit'' foster care by running away (21 percent) as leave 
care because they reach age 18 (18 percent). Another group comprising 
18 percent of those in care at age 16 leave under ``other'' 
circumstances, including transfer to juvenile corrections and other 
institutions (Orlebeke, 2007). These approximately 50,000 additional 
youth once in the custody of foster care systems are at very high risk 
of homelessness; they probably also overlap to an unknown degree with 
the 200,000 leaving correctional facilities each year.
---------------------------------------------------------------------------
    Some research on the Chafee Foster Care Independence Program (FCIA) 
indicates that this strategy has promise. The FCIA doubled allocations 
to states to ease transition from foster care and allows states to use 
30 percent of funds to pay for housing for youth older than 18 but not 
yet 21. Research summarized by Toro et al. (2007, 14-17) indicates that 
the youth who receive this type of support are less likely to become 
homeless during the transition period, and are also more likely to be 
in college, have access to health care, and not be involved in the 
criminal justice system. Further follow-up interview waves will shed 
light on whether these differences persist once youth reach age 21.
    In Denver, Urban Peak runs two housing programs that address, 
respectively, the needs of youth aging out of foster care and long-term 
street youth. The first is a partnership between Urban Peak and the 
state child welfare department to provide permanent supportive housing 
for children in or about to leave state custody who are or have been 
homeless. The second uses HUD funding and local service dollars to 
create permanent supportive housing for street youth with disabilities, 
to allow them to stabilize and get their lives together (Burt, Pearson, 
and Montgomery 2005).
    Throughout the country, adult corrections departments are realizing 
that it is in their interest to partner with homeless assistance 
networks as well as employment, mental health and substance abuse 
agencies to ease the transition from incarceration to community. This 
movement is driven by the bottom line for corrections departments--two-
thirds of releasees will be back within three years if they do not 
receive transitional assistance. The return of such a large proportion 
of releasees is extremely expensive for corrections departments, and 
they are finally realizing that it is in their interest to do something 
about it. The same could be happening with juvenile justice 
institutions and the young adult facilities run by adult corrections 
departments.

Conclusions

    A surprisingly large proportion of youth age 16 to 24 will 
experience at least one night of homelessness. A much smaller 
proportion will spend a lot of time homeless, as youth and later as 
adults. The factors that propel youth toward homelessness are often the 
same ones that keep them there or that create the conditions for repeat 
episodes. We do not have much research evidence capable of guiding us 
toward the most effective interventions to prevent or end youth 
homelessness. What we do have suggests that we should pick points of 
maximum leverage, such as when youth are leaving institutional care, 
and provide ``whatever it takes'' to ensure that they can avoid 
homelessness and ultimately transition to lives of self-sufficiency.

References

Burt, Martha R., Laudan Aron, and Edgar Lee. 2001. Helping America's 
Homeless: Emergency Shelter or Affordable Housing? Washington, DC: 
Urban Institute Press.

Burt, Martha R., Carol Pearson, and Ann Elizabeth Montgomery. 2005. 
Strategies for Preventing Homelessness. Washington, DC: Department of 
Housing and Urban Development.

Hammer, H. David Finkelhor, and Andrea Sedlak. 2002. Runaway/Thrownaway 
Children: National Estimates and Characteristics. National Incidence 
Studies of Missing, Abducted, Runaway, and Thrownaway Children 
(NISMART), October 2002. Washington, DC: Office of Juvenile Justice and 
Delinquency Prevention, Department of Justice.

Orlebeke, Britany. 2007. ``Making the Child Welfare System Work for 
Older Youth.'' Presentation at Thursday's Child, Urban Institute, 
Washington, DC, June 14, 2007.

Park, Jung M., Stephen Metraux, and Dennis P. Culhane. 2005. 
``Childhood Out-of-Home Placement and Dynamics of Public Shelter 
Utilization among Young Homeless Adults.'' Children and Youth Services 
Review 17(5): 533-46.

Park, Jung M., Stephen Metraux, Gabriel Brodbar, and Dennis P. Culhane. 
2004a. ``Public Shelter Admission among Young Adults with Child Welfare 
Histories by Type of Service and Type of Exit.'' Social Services Review 
78: 284-303.

------. 2004b. ``Child Welfare Involvement among Children in Homeless 
Families.'' Child Welfare 83(5): 423-36.

Ringwalt, Chris, James M. Greene, Marjorie Robertson, and M. 
McPheeters. 1998. ``The Prevalence of Homelessness Among Adolescents in 
the United States.'' American Journal of Public Health 88(9): 1325-29.

Toro, Paul, Amy Dworsky, and Peter Fowler. 2007. ``Homeless Youth in 
the United States: Recent Research Findings and Intervention 
Approaches.'' Paper presented at the Second National Homelessness 
Research Symposium, March 1-2, Washington, D.C.

                                Appendix

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman MCDERMOTT. Thank you very much for your testimony.
    Dan Lips is an educational analyst for the Heritage 
Institute--the Heritage Foundation, excuse me.
    Dan?

          STATEMENT OF DANIEL LIPS, EDUCATION ANALYST,
                    THE HERITAGE FOUNDATION

    Mr. LIPS. Mr. Chairman, Congressman Weller, members of the 
Subcommittee, thank you for having me here to testify today. My 
name is Dan Lips and I am an education analyst at The Heritage 
Foundation. The views that I express today are my own and 
should not be construed as representing any official position 
of The Heritage Foundation.
    I am here today to testify about the need to improve 
educational opportunities for children in foster care, and 
specifically why Federal and State policy-makers should give 
foster children and their guardians more control over where 
they go to school. As this Committee knows, the more than 
500,000 American children currently in foster care are among 
the most at-risk in our society. Research shows that adults who 
were formerly in foster care are more likely than the general 
population to be homeless, dependent on State services and to 
be convicted of crimes and incarcerated.
    Early warning signs of these problems are evident in the 
classroom where foster children often struggle. Compared to the 
general population, foster children have lower scores on 
standardized tests and higher dropout rates. This is not 
surprising when one considers the problems that foster children 
often face in the classroom, such as instability and frequent 
school transfers, the kinds of things we have heard about 
today.
    Here in Washington, D.C., 40 percent of the children in 
foster care have experienced four or more placements. Research 
has shown that across the country home transfers often lead to 
school transfers since one's school is often determined by 
one's address. This instability has a damaging effect on a 
child's academic progress and it also has harmful social 
effects since a school transfer can mean the end of 
friendships, social networks and relationships with adults, all 
of which can be very important for kids in foster care who have 
unstable family lives.
    One way to address this and other problems and to provide 
better educational opportunities would be to give foster 
children more control and more options over where they attend 
school. Offering tuition scholarships, or school vouchers, to 
children in foster care could yield important benefits. First, 
a scholarship could provide foster children with stability. A 
scholarship or choice option could often allow a child to 
remain in the same school even when he or she changes homes. 
Second, for other children, a scholarship could provide an 
option to transfer into a school that offers a better 
educational experience. Third, a tuition scholarship program 
could allow students to attend schools that offer specialized 
services that cater to a foster child's specific needs.
    So, what can Congress do to advance this important policy 
goal? Providing social services and education is primarily the 
responsibility of State and local governments, not the Federal 
Government. However, the Congress can take a number of steps to 
advance this reform initiative and improve educational 
opportunities for children in foster care. First, Congress 
should request that GAO compile research on the frequency of 
foster children's school transfers and the need to improve 
educational opportunities for children in foster care. Second, 
Congress should reform the Chafee Foster Care Independence 
Program to allow states to improve educational opportunities 
for younger children.
    Through the Chafee program, states currently can provide 
education and job training vouchers to foster children who are 
sixteen years old or older. For many foster children, this 
assistance can come too late. Congress should give states the 
flexibility to use funds allocated through the Chafee program 
to provide K-12 scholarships if State leaders believe this is 
the best use of funds.
    Finally, since the Federal Government has oversight over 
the District of Columbia, Congress should provide opportunity 
scholarships to foster children in Washington, D.C. In 2004, 
Congress created a school voucher program for low-income 
students in the District. This program has proven very popular 
with parents and participating families. Congress should expand 
this program or create a new program to give scholarships to 
foster children living in the District.
    I have expanded on these ideas in my written testimony, but 
I will honor my time and close by saying: Giving foster 
children the ability to attend the school of their choice will 
not address all the problems they face in life or in the 
classroom but it can give some of our most at-risk kids a 
chance for a better life. Since they are charges of the State, 
foster children are, in a sense, ``all of our children.'' We 
should not be satisfied until every child in foster care has a 
stable and high-quality education, the foundation for a 
successful life. Giving foster children school choice would be 
a promising step toward accomplishing this important goal.
    Thank you again, Mr. Chairman, for the opportunity to be 
here today, and I look forward to your questions.
    [The prepared statement of Mr. Lips follows:]
           Prepared Statement of Dan Lips, Education Analyst,
                        The Heritage Foundation
    Mr. Chairman and Members of the Committee, thank you for this 
opportunity to testify today. My name is Dan Lips. I am an Education 
Analyst at The Heritage Foundation. The views I express in this 
testimony are my own, and should not be construed as representing any 
official position of The Heritage Foundation.
    I am here today to testify about the need to improve educational 
opportunities for children in foster care. Specifically, I will discuss 
why Federal and State policymakers should reform education policies to 
provide greater school choice options for foster children.

Introduction

    The more than 500,000 children currently in foster care are among 
the most at-risk children in American society. Research shows that 
adults who were formerly in foster care are more likely than the 
general population to succumb to poor life outcomes.
    They are more likely to be homeless, unprepared for employment and 
limited to low-job skills, and dependent on welfare or Medicaid. They 
are also more likely than the general population to be convicted of 
crimes and incarcerated, to abuse drugs and alcohol, or to have poor 
physical or mental health. Research has shown that women who have been 
in foster care experience higher rates of early pregnancy and are more 
likely to see their own children placed in foster care.
    Many of these problems are at least in part a product of problems 
in the classroom where foster children tend to have lower educational 
attainment than their peers. Foster children on average have lower 
scores on standardized tests and higher absenteeism, tardiness, truancy 
and dropout rates. Overall, a synthesis of available research evidence 
published by the Child Welfare League of America found that, ``Almost 
all of the reviewed studies of those who were in out-of-home care 
revealed that the subject's level of educational attainment is below 
that of other citizens of comparable age.''
    This is not surprising when one considers the many problems and 
challenges that foster children commonly experience at school. These 
common problems include instability, persistent low-expectations, poor 
adult advocacy on their behalf, inadequate life-skills training, and a 
failure to receive needed special education services.

Instability and Low Expectations: Root Causes of Poor Educational 
Outcomes

    One of the biggest problems foster children face is instability. 
Children in long-term foster care often experience multiple out-of-home 
placements. For example, here in Washington, D.C., 40 percent of the 
children in the District's foster care system have experienced four or 
more placements.
    Out-of-home placements often lead to school transfers since where 
one attends school is often tied to where one lives. For example, the 
Vera Institute of Justice reports that in New York City between 1995 
and 1999, 42 percent of children changed schools within 30 days of 
entering foster care.
    Research evidence suggests that frequent school transfers and 
disruptions in the learning process can take a toll on a student's 
development. For example, a study by the General Accounting Office 
reported that third-grade students who had experienced frequent school 
changes were more likely to perform below grade level in reading and 
math or to repeat a grade than were students who had never changed 
schools.
    It is not surprising, therefore, that frequent school transfers 
would negatively affect foster children. A research synthesis reported 
that former foster children who experienced fewer out-of-home 
placements performed better in school and completed more years of 
education than did others in foster care. A survey of former foster 
children found that they ``strongly believed that they had been shifted 
around too much while in foster care, and as a result, they suffered, 
especially in terms of education.''
    It is clear how instability causes problems. School transfers 
create gaps in the learning cycle. They force children to adjust to new 
classroom settings, teachers, and classmates and cause children to lose 
social networks, peer groups, and relationships with adults--
relationships that can be particularly important to foster care 
children with tumultuous family lives. These changes can exacerbate the 
emotional instability and unrest caused by the home transfers 
themselves. Reducing instability for foster children is identified by 
researchers and advocates as a way to improve the foster care system.
    In addition to disruptions in their educational environment, adults 
formerly in foster care report that the foster system did not encourage 
high aspirations for their education. One survey found that older youth 
in foster care have high aspirations and resent others' low 
expectations. They also reported that they would have benefited from 
stronger adult encouragement.

Addressing the Need for Greater Stability, High Expectations and Better 
Educational Opportunities

    There is no single solution to all of the challenges and problems 
that foster children face in school and at home. Ideally, every child 
in the foster care system would become a part of a stable, loving, 
permanent home with adults committed to nurturing their talents and 
skills. However, policymakers can embrace measures to alleviate some of 
the stresses associated with foster care that contribute to lower 
educational attainment and poor life outcomes.
    One promising reform solution would be to provide foster children 
with more control and more options for where they attend school. For 
example, offering tuition scholarships--or school vouchers--to children 
in foster care would be an important step in encouraging greater 
stability in their education--indeed in their lives--and open the door 
to better educational opportunities for many students.
    In 2006, Arizona Governor Janet Napolitano, a Democrat, signed 
legislation to create the nation's first K-12 tuition scholarship 
program for foster children. Under this program, approximately 500 
foster children will be awarded $5,000 tuition scholarships to attend 
private school starting in the fall of 2007.

The Benefits of Providing Scholarships to Foster Children

    A scholarship program for children in foster care, like the new 
program created in Arizona, could provide a number of important 
benefits:

        <bullet>  First, a tuition scholarship could provide foster 
        children with stability. A scholarship or choice option could 
        allow a child to remain in the same school (whenever 
        geographically possible) even when placed in a new home 
        setting. This could have educational and social benefits. 
        Allowing a child to remain in the same school could prevent 
        disruptions in the learning process. Importantly, it would also 
        allow a child to maintain peer groups, friendships, and 
        important relationships with adults.
        <bullet>  Second, for other children, a tuition scholarship 
        could allow some children to transfer into schools that offer a 
        better educational experience. Academic studies have reported 
        that students participating in school voucher programs have 
        improved academically compared to their peers who remain in 
        public school. For example, the school voucher program in 
        Milwaukee has been subject to two randomized-experiment studies 
        that found that students who received vouchers through a 
        lottery made academic gains when compared to their peers who 
        remained in public school. Similar studies of private school 
        choice programs in Charlotte, North Carolina, New York City, 
        and Washington, D.C. reached similar conclusions.
        <bullet>  Third, a tuition scholarship program could allow 
        students to attend schools that offer specialized services that 
        cater to a foster child's unique needs. Many schools are 
        unequipped to offer the specialized services that foster 
        children may need. Allowing for greater choice could give 
        families the opportunity to select the most appropriate school 
        for their child. It could also give schools an incentive to 
        specialize, innovate, and deliver the specialized education 
        services that foster children may need, such as counseling, 
        tutoring, remedial instruction, and life skills training.
        <bullet>  Fourth, a tuition scholarship program could improve 
        family satisfaction and involvement in children's education. 
        Most foster parents are dedicated individuals who want the best 
        for the children in their care. However, many lack the 
        resources needed to give that child the education that he or 
        she deserves. They need and deserve assistance in creating an 
        environment that will help their child thrive. A school choice 
        program would give foster parents the ability to provide their 
        children a quality education, which would likely improve the 
        foster care experience for both children and parents.

How Congress Can Help Encourage School Choice for Foster Children

    Providing social services and education, of course, is primarily 
the responsibility of state and local governments, not the federal 
government. Indeed states and localities are beginning to embrace the 
idea of school choice for children in foster care. This idea of 
providing tuition scholarships is gaining momentum across the country. 
In addition to the new program that was created in Arizona in 2006, 
other states are considering legislation to provide school choice 
scholarships to children in foster care. In 2007, state legislators in 
at least four states--Florida, Maryland, Tennessee, and Texas--have 
considered similar initiatives. The American Legislative Exchange 
Council has created model legislation to provide opportunity 
scholarships to children in foster care.
    However, Congress can take a number of steps to advance this reform 
initiative and improve educational opportunities for children in foster 
care:
    First, Congress should request that the GAO compile research on the 
frequency of foster children's school transfers and the need to improve 
educational opportunities for children in foster care. The federal 
government has the opportunity to work through the Administration for 
Children and Families in the Department of Health and Human Services to 
study this problem and highlight the need for reform.
    Second, Congress should reform the Chafee Foster Care Independence 
Act to allow states to implement programs to improve educational 
opportunities for younger children. The Chafee program provides funding 
grants to states to assist older foster youth and former foster 
children in the process of attaining independence in adulthood. For 
example, through the program, states can award ``education and training 
vouchers'' to older youths (age 16 and older) who are aging out of the 
foster care system.
    However, the education aid offered by the Chafee Foster Care 
Independence Act may come too late in many cases because it targets 
foster children 16 years old and older. Foster children throughout the 
K-12 education system have a number of unique needs. Providing 
education choice and flexibility to younger students could provide them 
with a more solid educational foundation, helping them to achieve 
academic success, social stability, and adult self-sufficiency. 
Congress should give states the flexibility to use funds allocated 
through the Chafee Foster Care Independence Program to promote K-12 
education options for younger children in foster care if state 
policymakers believe that this would be the best use of funds to 
prepare foster children for independence in adulthood.
    Third, since the federal government has oversight over the District 
of Columbia, Congress should provide opportunity scholarships to foster 
children in Washington, D.C. In 2004, Congress created a school voucher 
program for low-income students in Washington, D.C. This program has 
proven very popular with parents. All of the program's 1,800 
scholarships are currently subscribed. And, in all, 6,500 children have 
applied for scholarships. A recent evaluation of the program conducted 
by Georgetown University researchers found that the parents of 
participating students were very satisfied with their children's 
experience in the program and have become more involved in their 
education.
    There is good reason to believe that many more children would 
benefit from opportunity scholarships, including the approximately 
1,800 school-aged children in foster care living in Washington, D.C. 
Congress should expand the existing Opportunity Scholarship program to 
allow more children to participate, and it should expand the 
eligibility requirements to ensure that all foster children can 
participate. As an alternative, Congress could create a new program 
that specifically focuses on providing opportunity scholarships for 
children in foster care in Washington, D.C.

Conclusion

    It is clear that giving foster children the ability to attend a 
safe and high quality school of choice will not address all of the 
problems they face, but it can give some of our most at-risk children 
in our society a chance for a better life.
    Consider the words of Lisa Dickson, a former foster child, who 
graduated from high school and went on to succeed in college and 
graduate school. Ms. Dickson, now an advocate for foster children, 
wrote an essay ``What the Arizona Foster Voucher Program Would Have 
Meant to Me'':
    ``As I look back on my experience in foster care, educational 
vouchers would have benefited me if they had made it possible for me to 
attend one high school, rather than five. I don't know that I would 
have chosen a private school, rather than a public one. I do know that 
I never received college preparatory counseling at any of the high 
schools I attended. I also know that having one teacher and one 
textbook, and perhaps also some individualized tutoring, would have 
helped me to master algebra. There was no individualized educational 
attention given, at home or at school, to any of the teenagers from the 
group homes where I resided. No special tutoring was made available to 
foster youth who were failing their classes.''
    Since foster children are charges of the state, they are, in a 
sense, all of our children. We should not be satisfied until every 
child in foster care has the opportunity to have a stable and high 
quality education that prepares him or her to succeed in life. I 
believe creating a voluntary, school choice scholarship program for 
children in foster care is a promising step toward accomplishing this 
important goal.
    Mr. Chairman, I'd again like to thank you for the opportunity to 
testify about this important issue today. I look forward to your 
questions.
                               __________
    The Heritage Foundation is a public policy, research, and 
educational organization operating under Section 501(C)(3). It is 
privately supported, and receives no funds from any government at any 
level, nor does it perform any government or other contract work.
    The Heritage Foundation is the most broadly supported think tank in 
the United States. During 2006, it had more than 283,000 individual, 
foundation, and corporate supporters representing every state in the 
U.S. Its 2006 income came from the following sources:


Individuals                                                         64%
Foundations                                                         19%
Corporations                                                         3%
Investment Income                                                   14%
Publication Sales and Other                                          0%

    The top five corporate givers provided The Heritage Foundation with 
1.3% of its 2006 income. The Heritage Foundation's books are audited 
annually by the national accounting firm of Deloitte & Touche. A list 
of major donors is available from The Heritage Foundation upon request.
    Members of The Heritage Foundation staff testify as individuals 
discussing their own independent research. The views expressed are 
their own, and do not reflect an institutional position for The 
Heritage Foundation or its board of trustees.

                                 <F-dash>

    Chairman MCDERMOTT. Thank you very much. I'd like to thank 
all the witnesses for your testimonies and they will be entered 
into the record. I would like to ask a couple of questions 
beginning with Jewel and Mr. Whitfield. You talked about living 
in your home, we are talking about disconnectedness, and if you 
are living in your car over several different periods, and you 
are living in a house where you did not have anybody who seemed 
to be running your life or trying to organize your life, who 
reached out to you? Or, did you reach out and were rejected by 
the system? Did you try to leave and go to a more stable 
situation? You said you were sick, how did you deal with the 
system out there? I would like to hear what goes through a 
kid's head when they are out there and looking at the system 
and knowing they need something, but what happened to you?
    Ms. KILCHER. Go ahead.
    Mr. WHITFIELD. Actually, I used to be a foster kid when I 
was younger, and I was in the system for about two years. I 
came home with my family because they had rehabilitated over 
the course of the time, the environment that I was in, like the 
neighborhood, so I began to hang outside with the neighborhood 
crew so at that particular time my family, they just started 
like pushing away or whatever. I went to jail for a juvenile 
case. When I was released, the foster care people dropped the 
case that they had or whatever with me, so I just felt like my 
friends are all I have, which makes you feel bad.
    Chairman MCDERMOTT. Okay.
    Jewel?
    Ms. KILCHER. I was never in foster care. I did not like 
adults, I did not really trust adults and had never seen an 
adult give you something without wanting something. So, I 
stayed away from any institution possible. I just tried to not 
make friends, but just really keep to myself. I was not aware 
that there were programs. Hearing the congresswoman speak 
earlier, I wanted to camp out on her lawn, I liked her so much. 
I did not know people like that existed. There was a doctor 
when I was sick, I was turned away from all the emergency 
rooms, but one doctor would not see me but he gave me the card 
of a doctor. That doctor ended up just being a very nice man 
who actually did not try to have sex with me and treated me. He 
ended up being the one that helped to get medicine that I could 
not afford.
    I think had I known about programs, there is sort of this 
stigma that there are kids out there and they are just tough. 
Well, kids do not want to be tough, kids want to be loved. If 
you give any of us a shot, we will respond. Looking back and 
being able to come through what I have come through, I think I 
am a much stronger and more dependable, more loyal person than 
most people who I know who have been through less, but it was 
because I was sort of given a shot by one or two people that 
actually had kindness. I had a song called ``Hands,'' and the 
line in it is, ``In the end, only kindness matters'' because 
institutions did not change my life, but kindness did.
    Chairman MCDERMOTT. How do we set up the situation for 
adults to go out looking for youngsters in a way that they can 
get them in?
    Dr. MINCY. Thank you for the question. I think the big 
picture is that I deal with college students all the time. They 
are protected in a way, they are there for an academic purpose, 
but they have personal glitches and when they do, there are 
counselors, there are health care providers, there is a system 
to care for them, to keep them not only on their academic track 
but also to help them when they get off track.
    I think the big thing we need to hear about disconnected 
youth is that there is no system because they are out of school 
and out of the workplace, they are not on any basic track but 
when they encounter problems, there is no track for them. The 
whole field of youth development, the field that is working to 
reconnect them, has to rely upon funding streams that come from 
very different agencies with very different rules. It also has 
to rely upon funding from sometimes public donors, sometimes 
private donors and all of that funding is fickle. So, what you 
are hearing is a non-system. Whether we happen to encounter 
disconnected youth in homelessness or incarceration, that is 
not the real answer.
    The point is that when young people are out of school and 
out of work, there is a non-system for them, and we need to 
figure out how to reconnect and how to create something that 
feels comprehensive and seamless when young people are off 
track, and there are a lot of them. It is not only a social 
justice, antipoverty purpose, it is that we need these young 
people as workers and how can we work together to make sure 
that there is a more coherent system for them?
    Chairman MCDERMOTT. With the goal to return them to their 
families?
    Dr. MINCY. Not necessarily. We are talking about young 
people who are between 18 and 24 years old with a goal to help 
them transition to adulthood like your children and mine.
    Chairman MCDERMOTT. When do you stop trying to send them 
home, how old?
    Ms. KILCHER. I did not want to be sent home, I think most 
children, would be home otherwise. If their homes were great, 
they would be there. I would not suggest sending them home in 
general but that is just me.
    Ms. SHORE. I would like to say though that the programs 
that do exist are very effective, although small. We see 1,500 
young people a year and when you say, ``How do we make that 
connection,'' we do it in all kinds of ways. There is an 
outreach van, there is the Safe Place Program that we 
participate in also, so that every single firehouse in the city 
has a sign and urges young people to go in. We go to high 
schools, but this is a constant process because you are talking 
about every year there are 10 and 11 year olds that have not 
heard about the programs. So, you continually need to be 
reaching out and making those connections.
    There certainly are not enough services and there certainly 
is a lot of disconnection. I do want to say that I think that 
the nascent services that exist in the Runaway and Homeless 
Youth Act programs are very good, they are solid. There is a 
lot of effort, at least I know in our program, to identify the 
kids that can go home and do the necessary work with the 
families so that they can in fact return or to identify when 
that really is not a likely possibility because families have 
come apart in many cases. We have to recognize that there is 
another whole set of young people here that are older, that the 
foster care system is not interested in taking in and whose 
families are dying or so sick that they really cannot take care 
of them or in jail. There is a whole group of young people that 
I think have not really been touched on yet but need to get 
added as well.
    Chairman MCDERMOTT. We may not get it all done today. That 
is what you are telling me, right?
    Ms. SHORE. No, but I think that we should recognize that 
there is some hope in that there are things that are working, 
that we already know about, we have the technology for, we just 
need to really have the will to expand them, to say this is 
essential.
    Chairman MCDERMOTT. I move to Mr. Weller. Mr. Weller?
    Mr. WELLER. Thank you, Mr. Chairman. This is an important 
hearing, and I appreciate your organizing this. I think we have 
heard some very helpful testimony from a variety of people 
before the Subcommittee this morning. I have a number of 
questions. To begin, I am very uncomfortable calling someone by 
their first name.
    Ms. KILCHER. Kilcher is my last name.
    Mr. WELLER. Ms. Kilcher, just to be polite, one of our 
witnesses in a previous hearing when we were looking at child 
poverty, Isabelle Sawhill with the Brookings Institution, which 
is a research institution here--a respected one here in 
Washington, testified that those who finish high school, work 
full time, and only have children after getting married are 
more likely to live out of poverty and in the middle class. 
That is a common message we see as we study lifting families, 
and particularly kids, out of poverty. You have achieved 
success, clearly in listening to your story, the hard way. I 
admire you and your ability and the challenges you have had to 
achieve the success that you have had.
    Mr. WELLER. Do you have a high school diploma?
    Ms. KILCHER. Yes, sir.
    Mr. WELLER. After you moved out of your family household, 
did you continue your education even though you were living 
outside of the house?
    Ms. KILCHER. I did not continue my education. It was really 
difficult going to high school. I was still paying for tuition 
to go to the school I was going to.
    Mr. WELLER. You were going to a special academy?
    Ms. KILCHER. Yes, I had a partial scholarship.
    Mr. WELLER. Okay, so while you were living out?
    Ms. KILCHER. While I was homeless, yes, I went to a private 
art school.
    Mr. WELLER. While you were homeless, you went to a private 
school. Your peers, your friends, you talked about some of the 
other girls, were they still in school?
    Ms. KILCHER. As I mentioned, I probably went to nine or 10 
different schools in my life so I did not really have normal 
friends. I moved on every three to six months. While I was 
homeless and working, I did not really make friendships but I 
tried to stick up for people if I could. I remember getting 
fired from one job, my boss asked me to pose for a nude 
calendar, and he did not mind that I would not, but then he 
tried to get a girlfriend of mine to pose for it and she was 
just scared. He could see that weakness in her eyes, and he 
kept pushing her, and I just stuck up for her and he ended up 
firing both of us.
    Mr. WELLER. Were they still in high school?
    Ms. KILCHER. She was trying to go to school. Yes, most kids 
I have seen really are trying. They really want to. They are 
trying to hold jobs or trying to----
    Mr. WELLER. Who influences, obviously there is a culture at 
this age, the values?
    Ms. KILCHER. It is random.
    Mr. WELLER. Do they receive them from entertainment, do 
they receive them from reading the paper or where do they 
receive their general values, whether it is pro-education or 
attending school or working or trying to better themselves?
    Ms. KILCHER. It is a really random thing to see whatever is 
able to come into your life that gives you hope. Some days it 
would just be something like the kindness of a stranger giving 
me $5. I did not know anybody that was telling me about these 
programs. If I had, I would have been very interested but I 
just did not happen to come across any kind of grassroots, word 
of mouth thing that spread the worth.
    Mr. WELLER. Now, you are an entertainer, right?
    Ms. KILCHER. Of the singing variety.
    Mr. WELLER. You are a songwriter, you sing, and you do a 
lot of things but do you feel that for young people that the 
message that is coming from entertainment, whether it is music 
or going to the movies or watching movies or video, is pro-
education, is encouraging them to further their education?
    Ms. KILCHER. Oh, there are all kinds. The reason I think I 
was able to be successful was people identified with certain 
kind of longing I had and a certain kind of passion and it 
helped other people feel better, but that was just my music.
    Mr. WELLER. Are they listening--when they are listening to 
music, are they receiving a message that is pro-education and 
encourage them to go back to school?
    Ms. KILCHER. It depends on the artist. For some it is an 
aphrodisiac, some it is an escape. There are different purposes 
for different styles of music.
    Mr. WELLER. For young people, entertainers do have a 
significant influence. We can all admit to that.
    Ms. KILCHER. Yes, I would say----
    Mr. WELLER. Do you think they have a responsibility to 
encourage education?
    Ms. KILCHER. Every person has the responsibility to try and 
be the best person they can be. You cannot put that to bear on 
any one person better than they can bear it.
    Mr. WELLER. Thank you. Mr. Lips, you were here for 
Congresswoman Bachmann's testimony and she was talking about 
the challenge with the 23 foster children that she had and the 
experiences of trying to ensure they had a good education and 
the experience of children changing schools and the rules of 
existing programs. Even though her children were attending, I 
believe, a parochial school or a private school, the rules 
prohibited them, if they could afford it, from enrolling the 
foster kids in the same school as their biological kids. Can 
you outline some of your thoughts about what some solutions are 
to maybe help give those young people more of an opportunity?
    Mr. LIPS. Thank you, Congressman Weller. I was really 
impressed by Congresswoman Bachmann's remarks. The idea of 
providing every child with the opportunity to attend a school 
of choice is a really simple way I think to improve their 
lives. Last year, Arizona created a program to offer school 
vouchers to children who have been placed in foster care. It 
was signed into law by Governor Janet Napolitano, a Democrat, 
and it is going to begin serving children this fall, about 500 
kids will receive scholarships. If Ms. Bachmann had lived in 
Arizona, she would have been able to apply this program and 
choose the right school for her child. It could be a public 
school, it could be a charter school or it could be a private 
school. I think that this is a very simple and small way to 
make a difference in these children's lives, either by keeping 
them in the same school, a focus of stability, or by offering a 
new opportunity that would improve their lives.
    Mr. WELLER. I have read where it takes children months to 
readjust if they go from one school to another, to make new 
friends, develop peers, and hopefully end up in the right 
crowd. Would this type of program, say if someone is in a 
foster program in the same city and there is a family providing 
them a home but they are on the other side of town, would this 
type of program allow them to continue to go to the school 
elsewhere in the city they were previously attending so they 
could continue to be around their friends and the relationships 
they currently have?
    Mr. LIPS. Absolutely, that is the purpose. We see that 
school transfers can lead to learning setbacks and emotional 
setbacks. A scholarship program like this would allow a child 
to remain in the same school, whether it is a public or charter 
or private school as one focus of stability in an otherwise 
often unstable life.
    Mr. WELLER. Last, Congresswoman Bachmann referred to the 
situation when she and her husband were interested in enrolling 
their foster children in the same private school where their 
children attend and their foster kids were asking for that 
opportunity but the rules of their program prohibited them. Can 
you explain what those rules are, are you familiar with those?
    Mr. LIPS. I am not familiar with the exact laws in 
Minnesota. I would suspect, I believe that that State had an 
open enrollment law, which would require the child to attend 
any public school in the area but it would certainly limit the 
option of choosing between a public and private school, which 
it sounds like Congresswoman Bachmann was looking to do. I 
think that this is why we should offer a full range of choices. 
These kids are so at risk. Anything we can do to give them a 
leg up would be really important and beneficial, I believe.
    Mr. WELLER. Thank you. You have been generous with time, 
Mr. Chairman, thank you.
    Chairman MCDERMOTT. Thank you. Mr. Meek?
    Mr. MEEK. Thank you, Mr. Chairman. I had to step out for a 
moment, but I did get an opportunity to hear from most of our 
witnesses that are here. It is interesting because in my 
district back in Miami, I represent Miami and South Broward 
County and South Beach on the weekends, I would admit to that.
    [Laughter.]
    Mr. MEEK. Anything to help the economy, but, in all 
seriousness, I had an opportunity to hear from all of you. I am 
glad that you recognized the increase in funding, that we are 
trying to move in that direction here in this new Congress.
    I wanted to ask, and this is a general question for the 
panel, as it relates to at-risk youth and the funding that we 
are talking about and the programs that are on shoe-string 
budgets, working with what they have, in this time of pay-as-
you-go, as we are looking to bring the budget into balance, 
what are some of the arguments we can use as Members of 
Congress? We do not have a day like this everyday in Congress 
where we have real people that come and share real experience 
with us and for us to make real decisions and follow through on 
it several months down the road.
    What are some of the reasons why Congress should invest 
even further in making sure that not only young people have 
options where their lives have not been what you may read in a 
storybook or you may see a usual kind of situation, you go 
through a K through 12 experience and then you move on to 
higher education and then you get a post-graduate degree and 
then you move on to this great, wonderful job, it is not like 
that for everyone, and we do understand that. How do we tell 
that story beyond this Subcommittee on the reason we should not 
only increase funding but also target the very young adults, 
when we talk about young adults, those that are over 18, how do 
we target them, how do we carry this story forward?
    Ms. KILCHER. I would say three things spring to my mind, if 
I may. One is it saves money in the long run. There have been a 
lot of studies done on if you can help kids get an education 
now, that they are going to stay out of the system later. If 
you can give them help now, we would like to stay out of being 
arrested and those things if you can give us a legitimate way 
to make money and many of us were willing. I forget what the 
numbers are, but I do know it saves money in the long run to 
try and help kids at a younger age stay out of the system.
    Also, throughout history, some of the greatest achievers of 
any society have come from unlikely places. I think that 
homeless kids have a lot to give if you can see what treasures 
their minds are. They are not disposable and often can 
contribute more than a lot of what I would call somewhat--kids 
that were well off that sometimes became lazy in the system 
because of the luxury of being lazy. Then, thirdly, I would say 
that it is--I forgot my third point, I am sure someone else 
will have a good one.
    [Laughter.]
    Mr. MEEK. As we start to go down answering my question, Mr. 
Whitfield, I know that you were sharing with us, and, Dr. Burt, 
I want to make sure that we get to you next, but, Mr. 
Whitfield, I want you thinking about some of your experiences 
and how you deal with these issues because I will tell you that 
I have family members that have had similar events in their 
lives, maybe not just the same, but similar events where they 
were challenged and fell into this whole unemployable, folks do 
not want to take the risk or take the chance and giving someone 
an opportunity, what are some things that we need to what we 
call in Washington ``stay the course'' on these issues? All of 
you on the panel and, Mr. Chairman, ``you had me at `hello' '' 
on this issue, but I think it is important that we are able to 
give life to it beyond this Committee. Obviously, we sit on 
this Subcommittee, we have some interest in this subject area. 
So, I am going to get to you, Mr. Whitfield, because I thought 
you had a very revealing testimony, and I am glad that you are 
here today.
    Dr. Burt?
    Dr. BURT. Oh, thank you. Well, I just wanted to say that 
the basic argument is that you cannot afford not to in two 
senses, one is that, as Dr. Mincy had said, and I am sure he 
has a lot more statistics on it than I do, basically right now 
we are throwing away about a quarter of every youth cohort that 
comes along. Twenty-five percent at least do not graduate from 
high school and many of those that do, do not have any real 
functional capacity to be operating at the level of jobs that 
will allow them to actually be self-sufficient. A little bit 
fewer than those but still a very significant number who drop 
out and so on, we cannot afford to throw those people away as 
workers. Number two, we cannot afford what happens to them and 
what we need to pay for when they end up in the criminal 
justice system, when they end up in the mental health system, 
when they end up in such so-called substance abuse systems. We 
just cannot afford it. We are paying one way or we are paying 
the other, and it makes much more sense to be investing in them 
to be productive citizens than not.
    That gets me back to a point that I wanted to make an 
earlier question, which is really in addition to investing in 
those who we have already failed in a lot of ways, it is 
really, really important to recognize that you can often tell 
who is going to be in trouble when you look at first graders 
and you realize that they are not being taught to read.
    So, we just had a story in The Washington Post a couple of 
days ago about Philadelphia turning its schools around and 
really focusing on making sure that nobody gets out of first 
grade without knowing how to read. We have evaluation reports 
on very, very large mechanisms, such as Success for All, Comer 
Schools. We know how to make sure that kids get off on the 
right track when they are in school, and especially focusing on 
the ones who are least likely to succeed because of their home 
environments. So, both that very early investment is really 
important as well as the argument that you cannot afford not 
to.
    Mr. MEEK. Mr. Whitfield?
    Chairman MCDERMOTT. Mr. Whitfield, do you have anything to 
add to this?
    Mr. WHITFIELD. I think that there should be more summer 
jobs out there like something to keep the youth occupied and 
things to do during the school year too, after school or 
whatever, so it would give people less time to just loiter 
around, to keep them occupied 24/7.
    My second one is the youth out there with a lack of 
education, I think that it should be GED programs, more ways 
for them to get some type of education, and for them to be able 
to have some type of financing for themselves or whatever so 
they can really support themselves and do not have to look 
toward the street corner to make money. I think that stops a 
lot of people from going to school right there because when you 
are in high school, you want to dress properly. If you do not 
have the type of money to dress properly, people ``clown'' you 
or whatever, do things like that, so I think there should be 
more ways for them to be able to finance themselves, have 
financing.
    Chairman MCDERMOTT. Thank you. Mr. Lewis?
    Mr. LEWIS. Thank you very much, Mr. Chairman. Mr. Chairman, 
let me thank you so much for holding this hearing. I think a 
hearing of this nature is needed now more than ever before. I 
want to thank all of the witnesses for being here. Jewel, as 
someone who knows what it is to be young, homeless, you never 
gave up, you never gave in, what pushed you? I missed the 
earlier part of your testimony, but I read it and do you have a 
message that you can send to other young people through your 
music or through your words?
    Ms. KILCHER. Yes, I have tried to always let my lyrics 
represent what I have tried to struggle for in my own life in 
hopes that it helps people. I think that every child feels 
innately that there is a special spark in them, and you should 
not be thinking about that, you should just be thinking about 
having fun.
    At the most fundamental levels, when you are so concerned 
with surviving to the point where you are trying to figure out 
where your food and where your sleep and your shelter is going 
to come from, the thing I tried to foster most was just to try 
not to let that little spark die, whatever that is in every 
child. Every child really feels they have. The only time I saw 
kids lose the battle on the streets is when they stopped 
feeling that spark. Sometimes the smallest act would help me 
feel good about humanity and other times it was genuine large 
acts of kindness, like a doctor helping you for no reason when 
you have no money.
    I cannot say what inspires some kids to find help and 
others not. I cannot tell you the difference in what that is, I 
just know that I met more kids that were willing to do anything 
for the words ``I love you'' than not. I have never really 
honestly met a ``bad seed,'' maybe one, that you would 
genuinely call somebody that was genuinely hard to even get 
through to. So, it is hard for me to answer your question, I am 
not sure why I continued, but I know that the resilience of 
youth has shocked me perpetually.
    Mr. LEWIS. So, you are suggesting to the Committee and to 
all of us that there is something within all human beings, 
young, whatever, that ``spark'' you call it, the ``spirit'' or 
whatever that is there, I am not going to let it fade away or 
go away and will continue to push?
    Ms. KILCHER. I think ultimately that is what we are all 
trying to nurture through education, through trying to give you 
a support system for money, all of that, you are trying to--
that is why we are all here, it is humanity.
    Mr. LEWIS. So, since we have you here, there is a little 
gospel song that says something like, ``We fall down but we get 
up,'' but we do not get up alone, we need help. We need Youth 
Build, we need Job Corps, we need the intervention of the 
Federal Government.
    Mr. Whitfield, coming in contact with jail, jail is not a 
pleasant place to go. Some of my colleagues know that when I 
was much younger, I went to jail a few times but it was 
fighting for civil rights. I got arrested and went to jail 40 
times. This weekend, I went to visit a young man that was in 
jail in Georgia, 21 years old, probably one of the smartest 
human beings I ever met.
    Did you learn something, do you have a message for your 
peers and for others that you can say jail is not a good place, 
prison is not a good place and that you can do better, you can 
come out whole?
    Mr. WHITFIELD. My personal experience with jail, it kind of 
like--I do not prefer, I do not suggest no one to go to jail.
    Mr. LEWIS. I would not, either, it is not a pleasant place, 
it is not a good place.
    [Laughter.]
    Mr. WHITFIELD. I prefer telling them, ``Stay away from it'' 
because it just builds up inside of you like you are not able 
to do your everyday routine. It is like you are under a time 
schedule. A lot of stuff going in between the time schedule, 
your peers, the staff that run the facility, it just builds up 
in the inside of you and just makes you mad. So, I do not know 
how to break it down to the smallest terms.
    Mr. LEWIS. I think you are breaking it down just fine. Do 
you have a relationship with your grandmother today, do you 
talk with her?
    Mr. WHITFIELD. Oh, most definitely.
    Mr. LEWIS. She is encouraging and telling you to go----
    Mr. WHITFIELD. Most definitely. Now that my family pretty 
much sees me in this path of straight success, they are pulling 
into me, they are coming into me. First, I think they did not 
have too much faith in me when I was coming up because of the 
places that I chose to go and people I chose to hang around, so 
they kind of like pushed me away. So, now that they see I am 
doing something positive with myself, it is like they are 
coming into me now. The family stopped using drugs, things are 
pretty much getting better now that they see me doing something 
positive on myself.
    Mr. LEWIS. Thank you very much. Thank you, Mr. Chairman.
    Chairman MCDERMOTT. Thank you. Mr. Herger will inquire?
    Mr. HERGER. Thank you. Mr. Whitfield, we are proud of you.
    Mr. WHITFIELD. Thank you.
    Mr. HERGER. Needless to say, you can see how proud we are 
of you, Jewel. You are really in a position, really both of you 
are in positions to be role models for others. It is great to 
see what you have done, the fact that you have rolled up your 
sleeves and gone after it and made good decisions. We all make 
some not-so-good decisions periodically during our lives, what 
is important is that we can correct them.
    Mr. Lips, I am interested particularly in some of what we 
heard. We also heard from Congresswoman Bachmann on the 
importance of education and how people get stereotyped in these 
classes where they go. I forget the term she used, the ``dumb 
math class,'' for the ``dumb kids'' or whatever, how easy that 
is to have that happen. Could you tell me how foster children 
are impacted--a little bit different, but I would like to get 
around to that also--by the special education system and are 
students receiving the services they deserve or are they being 
under-served?
    Mr. LIPS. Thank you, Congressman Herger. On that first 
issue, this is a problem, low expectations is a problem that we 
hear a lot about. There have been many focus groups of youth--
of adults who were formerly in foster care, and that is one of 
the problems that they commonly identify, that people did not 
expect much of them, and they were shuffled into the back of 
the class and were not given the right opportunities. This is a 
really important question--important problem that we should 
consider as we are designing policies and try to address.
    On that second issue that you mentioned of special 
education, this is really important for foster children. 
Research shows that between 30 to 40 percent of the children in 
foster care also are eligible for special education services. I 
believe Congresswoman Bachmann mentioned that all of the kids 
that she took in had IEPs. If you are being shuffled around 
from school to school, transferred, your paperwork gets lost, 
you get shuffled through the system, and there are many stories 
of kids either being under-served, not receiving the special 
education services that they deserve or being over-served, kids 
who could otherwise be benefited by being in the mainstream, 
being shuffled into special education classes.
    This is a reason, again, why we could benefit by providing 
foster children with school choice options. There is a great 
program in Florida called the McKay Scholarship Program that is 
specifically tailored for special needs students. It is helping 
16,000 kids, the approval rating or I should say satisfaction 
rates among parents is above 90 percent. It is a great thing 
and it is getting these kids the services that they need. It is 
a model that we should look to, and thank you.
    Mr. HERGER. Thank you, Mr. Lips. Mr. Whitfield, I am sorry 
I had to step out for a while, but I did hear your testimony 
and I am sure it is so very characteristic of so many. I 
believe you mentioned how you were in school, you had fallen 
behind, you were going to classes, you really did not feel good 
at classes because you did not know how to answer the 
questions.
    I remember an experience I had myself when I was a junior 
in high school. I was in a math class, a higher math class, and 
I had the flu for a couple of weeks, and I was out and I was 
never able to catch up again. I had a very bright teacher who 
probably should have been teaching at Berkeley rather than at 
our high school, but I was not able to catch up and, boy, that 
feeling of being lost and hating to come to class when you just 
do not seem to be able to get it.
    Yet, it is amazing with assistance, with help, somebody 
working with you, that you can catch up, you can do what you 
need to do and you can do well. So, again, I want to commend 
you.
    Mr. Chairman, I want to thank you and the ranking member 
for putting this hearing together. This is so incredibly 
important. We have so many young people that are being lost 
between the cracks, great lives that are just so lost out there 
and if there is anything we can do, we should be doing. There 
are many role models, we are seeing here today, with the two of 
you who have been involved, and also, again, I am so touched 
with our new Member of Congress, Michele Bachmann, on the story 
with 28 or 29 that she has raised. We raised nine that were 
ours, and we thought that was a lot, I cannot even imagine 28 
or 29, but yet there are people who are doing that. I know 
another family out where I live in Chico, California that has 
done the same type of thing. These are very gifted people to be 
able to do that, but yet we need to do it in every way we can. 
So, again, I thank you very much.
    Chairman MCDERMOTT. I cut Mr. Meek off from his time, I 
give you one minute.
    Mr. MEEK. Mr. Chairman, I just wanted to make a last 
closing comment, and I want to thank not only you, Mr. 
Chairman, but also the full Committee Chairman, Mr. Rangel, 
because I know this is something that we have talked about in 
closed quarters, about what we should do now that we have the 
opportunity to do it. I just want to give words of 
encouragement to not only Jewel but Mr. Whitfield, who came and 
opened their lives up in a way that I know they have done 
before but probably never before Congress. Being one, I have 
dyslexia, and being able to talk with people, Charles Schwab 
and Danny Glover and I did some of the similar things that you 
are doing now, talking about our learning disability and how it 
affected us as we grew up and how we deal with it as 
professionals.
    I want to let you know that your purpose here today, both 
of your purposes, your story of talking about your 
indiscretions, what you have done, your story of being homeless 
and washing your hair and how people judge you, but I say to 
both of you how do they like you now that you're here, that you 
are sharing not only before the greatest democracy on the face 
of the earth, your personal story to help others. So, I want to 
commend both of you for holding the ladder in place to allow 
others to climb up.
    Mr. Chairman, I think this is a good day to be in Congress 
and to be in this room to see these two very great Americans 
share their stories and open their lives and to the 
professionals that are working in the field helping people, I 
want to let you know if it was not for you, there would be no 
us, those of us who need the assistance, and we appreciate you 
for being in the field. That is all I wanted to stay, Mr. 
Chairman. I look forward to working and for progress on this 
issue as we continue to tackle issues that come before this 
Committee.
    Thank you.
    Chairman MCDERMOTT. Mr. Weller has a unanimous consent.
    Mr. WELLER. Thank you, Mr. Chairman. This has been an 
interesting hearing, and I just want to ask unanimous consent 
to include in the record some additional information from 
several respected groups. The first is a summary of how many 
youth drop out of high school titled, ``Every Nine Seconds in 
America a Student Becomes a Dropout.'' This was prepared by the 
non-partisan American Youth Policy Forum based on a number of 
studies. The second is a fact sheet put together by the Casey 
Family Programs based in Seattle, Washington about educational 
outcomes specifically for children in foster care. Third and 
last is a statement about the need to promote educational 
success for young people in foster care, which was put together 
by the National Foster Youth Advisory Council. I ask unanimous 
consent to include these as part of the record.
    Chairman MCDERMOTT. Without objection, so ordered.
    [The provided material follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMT]
    
    Mr. WELLER. Thank you.
    Chairman MCDERMOTT. I want to thank you all for coming and 
spending the time as you have sat here for a couple of hours. 
As Mr. Meek said, the most important thing we miss is personal 
testimonials. We hear experts come in and talk to us but it is 
really good to have a couple of people come and tell us what 
really happens to them. That puts a public face on it that 
makes it very powerful, so thank you very much for both of you 
coming and exposing yourself, talking about tough things in 
life. We appreciate it.
    Thank you all. The meeting is adjourned.
    [Whereupon, at 3:00 p.m., the hearing was adjourned.]
    [Submissions for the Record follow:]
             Statement of Center for Law and Social Policy
    Thank you for focusing attention on this most important challenge 
related to our youth and thank you for the opportunity to submit 
testimony to the subcommittee. I am the Director for Youth Policy at 
the Center for Law and Social Policy (CLASP). CLASP is a nonprofit 
organization engaged in research, analysis, technical assistance, and 
advocacy on a range of issues affecting low-income families. Our youth 
policy work at CLASP has focused attention on the dimensions of the 
disconnected youth challenge in our nation and on the need to look more 
strategically at how our youth serving systems--education, workforce, 
juvenile justice, child welfare--can come together and in tandem with 
the business community and community based organizations create the 
infrastructure and support to connect our youth to positive pathways to 
adult success.
    The desperate situation in many of our poor urban, rural, and 
minority communities where fewer than half of the youth that start high 
school complete four years later necessitates bold, strategic thinking 
and comprehensive interventions.
    I am submitting for the record an article ``What's a Youngster to 
Do? The Education and Labor Market Plight of Youth in High Poverty 
Communities'' that I authored and that was published in the July 2005 
issue of the Clearinghouse REVIEW Journal of Poverty Law and Policy. 
The challenges and solutions outlined in this article are very relevant 
to the subject matter of this hearing and the work of the subcommittee. 
This article draws attention to the dimensions of the youth challenge 
in several high poverty communities. It also points out that we know a 
great deal about what works to transform the pathways for these youth. 
It suggests the need for a new paradigm. One that recognizes that if 
this issue is to be solved it will require all systems and sectors to 
participate at the ground level building the system connections, 
supports, programs and pathways that will be needed to upgrade the 
skills of these youth and to secure their economic future. It will 
require the collective will, the resources, and an investment in 
building the capacity and the programming in these communities to 
address this problem at the scale necessary to produce measurable and 
sustainable improvements in the education and labor market outcomes for 
these young people who, absent intervention, will have extreme 
difficulty with adult labor market, family, and civic responsibilities.
                               __________
  What's a Youngster To Do? The Education and Labor Market Plight of 
                   Youth in High Poverty Communities
                  Linda Harris, Director, Youth Policy
                    Center for Law and Social Policy

Published in The Clearinghouse REVIEW Journal of Poverty Law and Policy
July/August 2005

``Our economy, national security, and social cohesion face a precarious 
future if our nation fails to develop now the comprehensive policies 
and programs needed to help all youth. In developing these polices and 
programs, it is crucial to recognize the growing gap between more 
fortunate youth and those with far fewer advantages. . . . Unless we 
are motivated, at least in part, by our belief in young people and our 
sense of obligation to them, we risk losing more than we can ever hope 
to win.'' William T. Grant Foundation Commission on Work, Family and 
Citizenship, The Forgotten Half: Non-College Youth in America, 1988

    For almost two decades researchers and economists warned about an 
impending crisis for the young and the unskilled in the labor market. 
Those tracking the demographic trends, the labor market shifts, the 
immigration patterns, and the global influences predicted that, absent 
substantial intervention, youth, especially youth in the urban core, 
would face perilous times coming into the 21st century. Economist in 
the 1987 publication Workforce 2000 noted that most new jobs created in 
the nineties and beyond would require some level of post-secondary 
education. They cautioned that without substantial adjustment in 
policies and without investments being made in education and training, 
the problems of minority unemployment, crime and dependency would be 
worse in the year 2000.\1\ The National Center on Education and the 
Economy in their 1990 report America's Choice: High Skills or Low Wages 
noted that 1 in 5 young people in this country grow up in third world 
surroundings and start out with severe learning disadvantages from 
which they never recover. They recommended the investment in a dropout 
recovery system that would build the connection between education and 
work for youth without high school certification.\2\ Despite these 
admonitions, federal investment in employment, training and second 
chance programs decreased dramatically over the ensuing 15 years.
---------------------------------------------------------------------------
    \1\ Johnson, W., Packer, A., Workforce 2000: Work and Workers for 
the 21st Century, Hudson Institute, U.S. Department of Labor, 1987.
    \2\ National Center on Education and the Economy, America's Choice: 
High Skills or Low Wages!, 1990, pg. 44.
---------------------------------------------------------------------------
    The future that these studies predicted is upon us, with the 
attending consequences. While the national graduation rate for youth in 
public school is an appalling 68%, the rate for youth in high poverty 
urban districts is below 50%. The lack of attention and public will 
around this issue is attributable in part to the fact that the 
aggregate statistics on graduation rates and employment rates for the 
nation's youth masks the stark reality of the problem for youth in poor 
urban, rural, or minority communities. This situation goes largely 
unattended because this is an invisible constituency. When young people 
drop out, or disconnect, or stop looking for work they are no longer 
counted in any system or any statistic unless they find their way to 
the public welfare system or the criminal justice system as many of 
them do. No public institution or system is called upon to account for 
the preparation and transition of youth to the labor market.
    Prevailing sentiment would rest that responsibility with the parent 
and student and that would be quite appropriate if we were talking 
about a small minority of students falling by the wayside. However, 
when more than half of the young people attending public school in a 
community leave school before graduating, the problem is beyond that of 
parental and personal responsibility. It is evidence of the breakdown 
of the education, community, and economic infrastructure that in 
healthy communities prepares and supports youth as they transition to 
adulthood. In economically distressed communities these institutions 
are overburdened, under-resourced, broken, or simply incapable of 
providing the level of support needed to prepare these youth for 
successful transition to adulthood and the labor market.
    This article focuses a lens on the situation for youth in selected 
large cities with poverty rates above 30% and with school districts 
that have more than 60% of their students eligible for free or reduced 
lunches. Twelve cities were selected to amplify the challenges faced by 
young people growing up in these urban areas: Atlanta, Baltimore, 
Buffalo, Cleveland, Detroit, Fresno, Los Angeles, Miami, Milwaukee, New 
York, Philadelphia, and Washington, DC. Totally, just over 3 million 
students were enrolled in these districts, 86.1% of them minority. 
Table 1 displays the general profile of distress in these communities.
    Consider the prospects for these youth. One in three resides in a 
household that is below the poverty level, twice the national average. 
They live in communities where the rate of violent crime is 3 times the 
national average. Youth are twice as likely to be arrested and almost 
twice as likely to be a teen parent. Only one in two youth entering 
high school will graduate and only 14% of minority youth will complete 
4 years of college (compared to 49.7% of White youth). This environment 
of low achievement, low expectations, early exposure to violent and 
illicit activity, and lack of exposure to positive pathways out, 
constrains the life options for young people. It is a daunting 
landscape for an adolescent to navigate. There are youth who will 
graduate and go on to post-secondary success. They will do so against 
considerable odds.
    Equally bleak are the labor market prospects for youth who don't 
complete high school in these communities. The chart below presents a 
few labor market statistics from the 2000 Decennial Census. While this 
profile is as of the last census, recent analysis by the Center for 
Labor Market Studies at Northeastern University shows a worsening 
situation for teens in the labor market with teen employment being at 
its lowest level in 57 years. \3\
---------------------------------------------------------------------------
    \3\ Sum, A., Khatiwada, I., McLaughlin, J., Palma, S. The Paradox 
of Rising Teen Joblessness in an Expanding Labor Market: The Absence of 
Teen Employment Growth in the National Jobs Recovery of 2003-2004, 
Center For Labor Market Studies, Northeastern University, January 2005.


                                                                             Table 1: Profile of High Poverty Cities
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                    % below poverty line \2\         Violent      Juvenile                              % teens
                              City                                   School       % Minority  ------------------------------------ crime rate   arrest rate      Teen     Graduation      \6\
                                                                 Enrollment \1\       \1\         Total       Black     Hispanic       \3\     (100,000) \4\  births \5\   rate \1\    employed
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Atlanta                                                                58,320          93.2         39.3        47.0        29.0       2,289           607          100        39.6        30.9
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Baltimore                                                              99,859          89.2         31.0        35.8        22.9       2,054         1,281           86        47.9        28.4
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Buffalo                                                                45,721          71.5         38.7        45.0        56.7       1,271           327           72        47.3        34.2
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Cleveland                                                              75,684          80.7         38.0        45.6        40.6       1,322            NA           99        30.0        32.4
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Detroit                                                               162,194          96.3         34.8        35.2        31.9       2,072           200           78        57.0        28.8
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Fresno                                                                 79,007          79.8         36.8        44.6        40.5         853           423           86        55.8        28.3
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Los Angeles                                                           721,346          90.1         30.7        38.5        36.6       1,349           304           61        46.4        27.2
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Miami \7\                                                             368,265          88.7         38.5        52.4        34.6       1,906            NA          174        52.1        26.0
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Milwaukee                                                              97,985          81.3         32.0        43.7        33.2         956           892           88        45.8        39.2
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
New York                                                            1,066,515          84.7         30.3        33.9        39.9         955           332           41        38.2        19.7
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Philadelphia                                                          201,190          83.3         31.6        37.2        50.4       1,524         1,008           64        41.9        25.8
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Washington                                                             68,925          95.5         31.7        37.6        25.6       1,596            NA           53        65.2         239
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Average for High poverty cities                                         Total          86.2         34.4       41.38        36.8       1,512         537.4         83.5        47.3        28.7
                                                                    3,045,011
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
For US                                                                                              16.6        33.1        27.8         495           276           48          68        41.2
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Ratio of High Pov Cities to US                                                                      2.08        1.25        1.32        3.06          1.95         1.74        .695        59.9
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Orfield, G., Losen, D., Wald, J., & Swanson, C., (2004). Losing Our Future: How Minority Youth are Being Left Behind by the Graduation Rate Crisis, Cambridge, MA: The Civil Rights Project
  at Harvard University. Statistics are for the public school district.
\2\ Kids Count--Census Data Online--2000 Census-Income and Poverty, http://aecf.org/cgi-bin.
\3\ Crime in the United States: 2003, Uniform Crime Reports, table 8, United States Department of Justice.
\4\ Snyder, H., Puzzanchera, C., Kang, W. (2005) ``Easy Access to FBI Arrest Statistics 1994-2002'' Online, Available: http://ojjdp.ncjrs.org/ojstatbb/ezaucr/. Arrest Statistics are for the
  county in which the city is located.
\5\ Births per thousand females aged 15-19 from Kids Count, ``Teen Births in America's Largest Cities 1990 and 2000'' Annie E. Casey Foundation, 2000.
\6\ Extracted from the 2000 Census PUMS--5% file.
\7\ Enrollment and Graduation rates are for the Miami-Dade County district.

                                Chart 1:

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Source: Extracted from the 2000 Census PUMS 5% file. Working 
includes those in the military.

    According to the decennial census just over a quarter of youth 16 
to 19 in these communities were working. That compares to 41% 
nationally for the same age group. Young people in high poverty cities 
do not have the same early access to the labor market. Transportation 
poses a barrier to access to employment in the suburban hubs and in the 
central city labor market youth are competing with immigrants and a 
growing number of older workers who are taking the jobs traditionally 
held by teenaged workers. Studies show that there is a direct benefit 
to early work experience for teens. Work experience in the junior/
senior year adds to wages in the later teen years and to increased 
annual earnings through age 26 especially for those not attending four-
year colleges.\4\ Youngsters in high poverty communities are 
disadvantaged by their lack of early work exposure during the critical 
years when they should be building their labor market attachment, their 
workplace skills, and a portfolio of experiences that would allow them 
to progress.
---------------------------------------------------------------------------
    \4\ ``The Summer Job Market for U.S. Teens 2000-2003 and the 
Projected Job Outlook for the Summer of 2004,'' power point 
presentation by Andrew Sum, Ph.D. & Iswar Khatiwada, Center for Labor 
Market Studies, Northeastern University, to the U.S. Conference of 
Mayors, June 2004.
---------------------------------------------------------------------------
    Among these high poverty cities, there are districts that fail to 
graduate 60 to 70 percent of their students. These students without 
access to quality ``second chance'' options are destined to remain 
without academic credentials. Census statistics for various age 
categories showed that those without a high school diploma were 
intermittently employed throughout their early and late twenties. The 
employment rate for dropouts in their early twenties was only 44% 
compared to 60.9% for those with a high school diploma. The attachment 
to the labor market for dropouts in their early twenties was tenuous 
with only 50 percent having worked more than 3 months during the entire 
year of 1999.\5\ For those in their late twenties without a high school 
diploma, the percent working remained below 50%.
---------------------------------------------------------------------------
    \5\ All references in this document to census statistics not 
otherwise cited are from extracts from the 2000 PUMS 5% file from the 
Decennial Census, U.S. Bureau of the Census.
---------------------------------------------------------------------------
    The chart also highlights the disparity in employment between White 
and minority youth. In the chart above minority refers to Black and 
Hispanic youth. In general the percentage of minority youth working at 
the time of census in these communities was approximately 78% of that 
for White youth. The disparity gap narrows for youth with bachelor's 
degrees. However, only 14% of minority youth in these cities had 
graduated from a 4 year college compared to 49% of White youth. It is 
fairly clear that if the employment gap among the races is to be closed 
significant effort and resources must be directed at greatly improving 
the participation in post-secondary education and career training for 
minority youth of color.
    The question, ``what's a youngster to do?'' is more than a 
rhetorical question. In communities with large minority populations, 
where fewer than 50% of the youth graduate, where only 42% of minority 
20 to 24 year old dropouts find employment, and where resources for 
safety net and second chance programs have been dramatically reduced, 
how will they survive economically, form families, and participate 
constructively in civic life. The simple answer is that too many will 
be unsuccessful. Unless the education and labor market status of these 
youth dramatically improve, they will spend their adult years on the 
fringes of the labor market marginalized in their ability to adequately 
provide for their economic wellbeing or that of their families. More 
young people will find avenues for economic survival through illicit 
activity, thus reinforcing the pipeline to prison and the accompanying 
stigma that will exacerbate their labor market situation upon re-entry.
    In 2004, CLASP surveyed nearly 200 young people from 15 high 
poverty cities who had dropped out of school and who were eventually 
re-connected to supportive alternative programs. They were asked, among 
other things, what they did with their time after dropping out of 
school and before engaging in the alternative program. Most youth were 
idle, unemployed, simply hanging out. Twenty eight percent (28%) were 
engaged in criminal or gang activity. Only 24% reported working most of 
the time. Fortunately, these young people found their way to 
comprehensive alternative programs. They responded that what they found 
most valuable was the caring adult support and guidance and the ability 
to reconnect to education. Once reconnected, 47% responded that they 
had post-secondary ambitions most with very specific majors in mind. 
Many of the youth who fall by the wayside have hopes and aspirations 
and their paths can be positively redirected with the appropriate 
guidance and support.\6\ However, sustaining the funding streams to 
support the transformations of youth delivery systems in economically 
distressed communities has proven challenging for those communities 
engaging in such transformation efforts. Department of Labor investment 
in youth programming declined from $15 billion (in current dollars) in 
1979 to just over $2.6 billion today.\7\ The most recent federal Youth 
Opportunity Grant funding to high poverty urban and rural communities 
is being discontinued.
---------------------------------------------------------------------------
    \6\ CLASP conducted a survey of 196 dropouts enrolled in the Youth 
Opportunity Program in 13 cities. The report is forthcoming in the 
summer 2000.
    \7\ Estimate provided by David Brown, National Youth Employment 
Coalition.
---------------------------------------------------------------------------
    So, what's a Nation to do? For almost 2 decades, the first chance 
education systems in these communities have been neglected and the 
second chance programs have been greatly impacted by the continual 
retrenchment in funding. Relying solely on the slow pace of systemic 
education reform will almost certainly guarantee that a decade hence we 
will be facing greater challenges of social isolation, disparate labor 
market outcomes and we will be posing the same questions. To make a 
difference for youth in these communities several things must happen:

    1.  Systemic education reform and aggressive youth recovery efforts 
must occur in tandem. These efforts must draw from the strength and 
resources of the broader community to provide rich alternative learning 
environments, advocacy and mentoring support, and horizon extending 
exposure to careers and experiences that will heighten aspirations. 
Many communities have discovered that the State and local education 
dollar can be deployed to re-engage dropouts and struggling students in 
smaller, more supportive community-based learning environments. 
Communities must engage with their local districts to spark innovation 
in developing multiple high quality options that will keep struggling 
students engaged and provide ``on ramps'' for those who have dropped 
out.
    2.  All youth serving systems should be mandated to collaborate on 
the solution set and put in place accountability systems and supports 
such that no youth falls through the cracks. The public must demand 
better accountability for outcomes from youth serving systems. In 
communities with high levels of youth distress the education, 
workforce, child welfare, juvenile justice, and mental health systems 
should be required to collaborate on a transition support system that 
tracks and supports the movement of youth through the various systems 
and prepares them for post-secondary success. Youth aging out of foster 
care and youth re-entering from incarceration should have transition 
plans that connect them with the services from all relevant systems. 
Youth councils, such as those currently mandated in the Workforce 
Investment Act, should serve to keep the focus on the problem and 
solutions and to engage stakeholders in the process.
    3.  Federal and State resources must flow in support of such scaled 
efforts creating a policy, legislative, and regulatory environment that 
affirms a commitment to not leave these youth behind and provides the 
incentives and resources, at scale, to stand behind the commitment. 
Efforts like the Youth Opportunity Grant which provided substantial 
funding to high poverty communities to build capacity and engage 
thousands of in-school and out-of-school youth in sustained activity, 
should be extended not ended.
    4.  The realities of the job market, the workplace and the 21st 
century skill set needed to be competitive must factor heavily in the 
redesign of high schools and alternative programming. Business must 
play a prominent role in this redesign and in opening up the workplace 
to provide rich career exposure. Jobs today and in the near future are 
more knowledge and technology based. Success in the workplace will 
require the ability to analyze, quickly adapt, continually upgrade, and 
develop transferable skills. A dramatic shift in the secondary/post-
secondary education paradigm will be required to shift from 50% 
dropping out to 100% graduating with these skills. Actively engaging 
business, secondary, post-secondary, and alternative education leaders 
in the school reform process can provide the impetus and support for 
such change.
    5.  Work experience, internships, and community service/service 
learning opportunities must be greatly expanded in these communities to 
provide for these youth the same level of exposure to work environments 
and civic opportunities as experienced by youth in more advantaged 
jurisdictions. Up until the passage of the Workforce Investment Act in 
1998, which eliminated the summer youth program, thousands of 14 and 15 
year old youth received their first exposure to work and community 
service through this federal funding. Over the years the summer jobs 
program provided communities with a vehicle for imparting work skills, 
college and career exposure, leadership skills, and work ethic in the 
early teen years. With the elimination of the summer jobs program and 
the constricting opportunities in the job market, young people are not 
developing the skills and work ethic that will be essential for labor 
market success in later years.
    6.  A national youth policy must be advanced that has among its 
principles the reconnection of the approximately 5 million youth \8\ 
who are out of school and out of work and out of the labor market and 
societal mainstream. There is no overarching national youth policy that 
embraces all youth including those who have been ``disconnected''. Nor 
is there policy that frames our values, beliefs, promises and actions 
to be taken on behalf of all youth. National attention on this issue 
tends to focus on specific pieces of legislation or special target 
groups--gang prevention, foster care, young offenders. While this 
attention is much needed, these problems are vestiges of continued 
neglect of the larger disconnected youth problem. A more comprehensive 
national youth policy is needed to move the country from silo-ed 
fragmented interventions to more systemic, integrated solutions.
---------------------------------------------------------------------------
    \8\ Sum, A., Khatiwada, I., Pond, N., & Trub'skyy, M., with Fogg, 
N., Palma, S. (2003, January). Left Behind in the Labor Market: Labor 
Market Problems of the Nation's Out-of-School, Young Adult Populations. 
Boston, MA: Center for Labor Market Studies, Northeastern University, 
p. 7.

    What's a community to do? What is happening to young people in high 
poverty communities, many of which are also predominantly minority 
communities, should be unacceptable to all segments of the community. 
When viewed simply as a failure of public schools, it is easy for one 
to point the finger and disengage from the solution. However, when 
viewed as a failure of the collective community to provide for the 
future for its youth it should serve as a call to action. Those working 
in the youth field are well aware of the amazing transformations that 
take place when young people are reconnected to supportive alternative 
environments. There is a growing body of evidence about effective 
practice and what works to restore the education and labor market 
pathways. Caring adult support, integrated learning environments, high 
quality work experience and civic engagement, in combination, have been 
demonstrated effective in restoring the pathways to success for 
youth.\9\ The technology, and experience exist, but the delivery 
infrastructure is fragmented and fragile after years of funding 
decline.
---------------------------------------------------------------------------
    \9\ James, Donna Walker (ed) (1997). Some Things DO Make a 
Difference for Youth: A Compendium of Evaluations of Youth Programs and 
Practices. Washington, DC: American Youth Policy Forum.
---------------------------------------------------------------------------
    High school reform and the growing pressure for accountability 
should serve as the impetus to community activism around these 
unacceptable educational and labor market outcomes in high poverty 
communities. The growing exposure of the educational and labor market 
disparities for youth of color should also sound the alarm. The 
community has an important role to play in creating the public will to 
elevate the much neglected plight of youth in poverty communities for 
priority attention. Community leaders and parents will need to be 
informed and vigilant as the high school reform efforts unfold. Reform 
efforts that cater to the letter of the law, instead of the intent and 
spirit of leaving no youth behind, may in fact exacerbate the dropout 
problem. Attempts to comply with high standards, high stakes testing, 
and making average yearly progress could easily lead to the less abled 
and more difficult youth being pushed out or tracked to less desirable 
alternatives. The challenge is to deliver all youth to graduation with 
a skill set that allows them to compete on equal footing for the 
opportunities in the labor market. Communities, if they are to thrive, 
can not continue to allow the loss of young talent, potential, and 
energy.
    What is needed is a vision for youth that is anchored in the belief 
that all youth should have equitable access to the promise and 
prosperity that America has to offer. This belief should guide our 
priorities, our policies and our actions as individuals in a caring 
community and as a Nation. It should resonate across all levels of 
government and at the grass roots of community service delivery. There 
must be a commitment to actualize that vision by making the investments 
at the scale needed until the education and labor market disparities 
for poor and minority youth dissipate. It is not just about funding. It 
is about rethinking systems, policies, relationships, and collective 
responsibility. Leadership on this issue begins with the 
acknowledgement that the situation that exists for youth in high 
poverty communities is unacceptable and that solutions must be bold, 
systemic, and collaborative. Every sector of the community and every 
youth serving system should be coalesced to be part of the solution. A 
solution that is two decades overdue!

                                 <F-dash>
                Statement of Greater Miami Service Corps
    As the Executive Director of the Greater Miami Service Corps 
(GMSC), I am pleased to submit testimony and success stories for 
consideration by the House Ways and Means Subcommittee on Income 
Security and Family Support as you consider best practices for engaging 
disconnected and disadvantaged youth and young people.
Program Background

    Established in 1989, Greater Miami Service Corps is a non-profit 
youth service organization, based in Miami-Dade County that provides 
out-of-school young people with the resources and services necessary to 
transition to independence and self-sufficiency. Program emphasis is 
placed on preparing young people to enter the workforce through 
education, paid work experience, internships, job placement and post-
program follow-up and support services to ensure placement retention. A 
profile of our population includes youth who are either unemployed or 
underemployed; high school dropouts; basic skills deficient; single 
parents; non-custodial parents; youth with prior criminal histories and 
youth aged out of foster care.
    GMSC, is one of 115 Service and Conservation Corps currently 
operating in 41 states and the District of Columbia. Corps annually 
enroll more than 23,000 young men and women who contribute 13 million 
hours of service every year. The Corps Network and its member Corps 
have a long and successful history in addressing the needs of 
disconnected and disadvantaged youth between the ages of 16 and 25.
    GMSC was one of eleven programs created through a national 
demonstration project called the Urban Corps Expansion Project (UCEP), 
a joint project between The Corps Network (formerly National 
Association of Service and Conservation Corps) and Public/Private 
Ventures. The UCEP project was sought to address several unmet 
community needs, specifically: the need for increased community service 
and volunteerism; the need for involvement of young adults in 
addressing the physical and social conditions of their community; the 
need for structured, meaningful work experiences for young adults; and 
the need for ``comprehensive educational'' opportunities for 
disadvantaged youth.
Service Strategy

    The Greater Miami Service Corps and The Corps Network member 
programs use the ``Corps Works'' model which incorporates service as a 
strategy to engaging youth. This service model was research validated 
by Abt, Associates and Brandeis University in 1997. The model 
incorporates subsidized community based work experience, which 
simulates a real-world work environment. Specifically, in order to 
prepare for future work and success in family and community life, youth 
enter a 6-12 month, comprehensive work-based learning program. Youth 
spend the bulk of each week, Monday through Thursday working in crews 
on service projects under the guidance of trained adult supervisors. 
Service projects provide numerous work-based learning opportunities 
rooted in reading and language comprehension, mathematics and critical 
thinking. These activities not only provide valuable work experience 
but also enhance literacy levels among youth. Projects also provide 
opportunities for teamwork, communication as well as good safety 
practices. Projects may be production based and as such carry deadline-
driven services creating an environment similar to what youth will 
experience in other employment settings. The skills attained by youth 
are varied by region but may include building and lawn maintenance, 
child development, construction, clerical/office support and experience 
in the health care industry. These projects save taxpayers money and 
provide meaningful work for young people who will graduate our program 
with marketable skills.
    To address employment barriers directly (in addition to the crew-
based work experience), youth devote time (at least six hours per week 
or more) to individualized education in pursuit of a high school 
diploma, GED or remediation for those who have diplomas. Whenever 
possible, youth are enrolled in community college classes to build the 
habits and expectations of post-secondary education.
    In addition to providing help with academics and work experience, 
youth have numerous opportunities to demonstrate leadership. Leadership 
opportunities offered include attendance at Board meetings, community 
presentations, team captain, Corps Senate, leadership development and 
business training.
    In return for their efforts, Corpsmembers receive a living 
allowance, classroom training to improve basic competencies, a chance 
to earn a GED or high school diploma, experiential and environmental 
service-learning-based education, generic and technical skills 
training, a wide range of support services, and, in many cases, an 
AmeriCorps post-service educational award of up to $4,725.
    This best practice model informs the community that the Greater 
Miami Service Corps develops young people to succeed. More than 70% of 
Corpsmembers who complete the rigorous program are placed in jobs. An 
additional group of Corpsmembers, return to school or go on to college 
and an additional group join the military.
Funding Picture

    The services provided by GMSC remain as critical today as they did 
in 1989. Continuing articles published by the Miami-Herald and the Sun-
Sentinel on youth violence, low graduation rates, increased poverty and 
the continuing dilemma of babies having babies demonstrate the need for 
increased funding of youth programs that target disadvantaged youth. 
However, funding for services locally remains unstable. Continued 
decreases in state Workforce Investment Act funding as well as the 
impact to revenue generated through property taxes to the County and 
local municipalities creates a tremendous impact to the number of youth 
that can receive services.
    Since 2002, we have seen a decline in the number of youth our 
program serves annually, from 425 to approximately 200. At the same 
time, the number of youth eligible for services continues to increase. 
A June 13th article in the Miami Herald indicates that ``fewer than 50% 
of students in Miami-Dade earned a high school diploma.'' Overall, 
Florida's 60.5% graduation rate is 45th in the country, out of 50 
states and the District of Columbia. Without the resources for programs 
like the Greater Miami Service Corps, many of these young people will 
face a dismal future of low wages due to low education and skill 
levels.
    In order to ensure that our youth and young people receive basic 
services, many programs have formed collaborations to address youth 
barriers to employment such as transportation, childcare, housing, 
tutoring, etc. But so much more is needed. Attached are success stories 
of local youth who were formerly considered ``disadvantaged and 
disconnected.'' In order to engage the increased number of youth that 
are unable to access services due to limited funding, federal and state 
funds must be increased to make it possible for youth to participate in 
drop-out reconnection programs. Funding sources to consider include 
Youth Opportunity Grants, Public Land Corps and Department of Labor 
Offender Re-entry and Youthbuild funding. It is important that 
foundations are part of the conversation for funding support in to 
developing a pathway to youth for industry specific jobs.

Received via email January 11, 2007

Ms Dorsett:

    First of all I wanted to let you know how nice was to see you last 
Tuesday; it's been a while since I graduate from the GMSC and all the 
memories I have from you guys are nothing but good ones.
    Thanks to all your staff and your attention to detail has changed 
many lives in the community; I'm the living example that if you believe 
in yourself and take the opportunities that you offer you will be able 
to success in life.
    While I was in the program I had the opportunity to work with Miami 
Dade housing agency and six months later I was a full time employee for 
the county, I've could stop right there but then I thought that if I 
got that far I could've go even further and I did.
    I decided to join the Navy so I can have a back up to complete my 
education. It worked.
    It's not easy to be away from family and friends but at the same 
time I've become a better person, a stronger leader, a warrior. I've 
been in more than 15 countries in less than two years!!!
    Thank you for all the opportunities that you gave me; I have no 
words to explain how much I appreciate all your help, I couldn't get 
this far If I wouldn't go to GMSC.
    God bless you for giving people a new hope and a new way to see the 
real world, it is never to late to study some of us wasted time but 
thanks to programs like the one you offer helps communities to put 
young people in the right track for their future.
    Once again thank you for show me that there's a future if you 
really fight for your goals, now I'm able not just to support myself 
but my family as well; I'm even in the process to buy a house.
    GOD BLESS YOU AND ALL THE STAFF!!!

            Very respectfully
                                  Petty Officer Hernandez, U.S NAVY
                                              PS3 HERNANDEZ, EMILIO
                                               EXECUTIVE DEPARTMENT
                                             USS LEYTE GULF (CG-55)
                                                  FPO AE 09570-1175
                               __________

Received via email 3/20/2007

    I use to be in the Greater Miami Service Corp, a long time ago. I 
am glad to see that it is still around. The corps helped me get my High 
School Diploma from Lindsay Technical school. I am 32 years old now, so 
a lot has happen since, but if it was not for the corps setting my 
sails right, I would have not been on my way.
    After I left the corps I moved into my own apt and got a permanent 
job with the Dade County providing subsidized housing for low income 
families. I had great aspirations, I wanted greater things in life so I 
left that job and joined the U.S.A.F. in September of 1996. Since then 
I have traveled to Spain, Ireland, Oman, Iraq, Afghanistan, Guam, 
Hawaii, 23 of the 48 contiguous states, and just recently Japan. I have 
driven a 800 horsepower car down a drag strip, eaten culturally unique 
cuisine from every country I visited, met more celebrities then I can 
remember and own a driveway full of cars that makes my dad jealous. Now 
I am a Staff Sergeant in the Air Force and my job is to monitor my 
Squadron of 100 people ensuring persons, equipment and aircraft move on 
time off the airfield. I am writing this letter to you so maybe you can 
read it to those young people maybe it can inspire them to stick with 
the program just a little bit longer.

            Thank you
                                             SSgt Juan D. Hernandez
                                    Kadena Air Base Japan, U.S.A.F.
                               __________

GREATER MIAMI SERVICE CORPS
    Elmer Garcia is the third member of his family to attend and 
graduate from GMSC. After relocating from Guatemala, he was uncertain 
of what he should do. When he first arrived, his Mom told him about the 
Greater Miami Service Corps. However, he decided to work for an 
oriental trading company. After three years without opportunities for 
advancement, he decided to try the Corps. While enrolled, he earned his 
general education diploma, increased his English literacy and obtained 
full-time employment through an internship placement with Energy 
Programs Division of Miami-Dade County Community Action Agency. He 
states, ``As a result of the program, I am now enrolled in Miami-Dade 
College to pursue an Associates Degree in Business Administration. The 
Corps helped put me on the path to achieve my goals.''
SUCCESS STORIES
    Linda Eugene came to the Greater Miami Service Corps six months 
after relocating from Haiti. She states, ``My primary reason for 
joining was to benefit from the scholarships.'' After completing her 
twelve month tenure, she continued in school full-time and worked on a 
part-time basis. In 1999, she earned her Associate in Arts; in 2002 she 
attained her Bachelor of Arts in Public Administration. She did not 
stop there . . . in 2004 she earned a Masters in Business 
Administration with a concentration in Accounting. She now works full-
time with the Tax Collectors Office and teaches English as a Second 
Language (ESOL) on a part-time basis.
    When Gladis Chacon's grandfather died, her world changed. She and 
her siblings found themselves on the verge of homelessness. Due to the 
age of her siblings, they were placed in foster care. Since she was 
twenty and too old for foster care, Gladis moved into a shelter. That's 
when a counselor referred her to the Greater Miami Service Corps. She 
states, ``It was my first real job situation and I could not believe 
that I was accepted, it was like oh my God they want me?'' After twelve 
months Gladis graduated. She is now gainfully employed with the Miami-
Dade County Community Action Agency; she has an apartment and is now 
working toward obtaining her general education diploma. She states, 
``The most important thing I learned is that it's important to be 
strong and never give up.''
    Willie Scott, a young father of three, wanted to make a difference 
in his life and that of his children. A family friend referred him to 
the Greater Miami Service Corps. After joining the Corps, Willie 
quickly demonstrated his leadership ability through his designation as 
Team Captain. In his role as Team Captain, he was able to learn 
managerial and administrative skills. Upon program completion, Willie 
obtained full-time employment with South Miami Hospital, a Baptist 
Health South Florida affiliate. Willie states, ``Greater Miami Service 
Corps. . . .''
    Born in Port au Prince Haiti, Sophonie Slaughter came to the United 
States with her mother at a young age. Her Mom worked hard to make a 
life for the two of them; however, shortly after arriving in the United 
States; ``Sophie'' as she is affectionately known, found out her Mom 
was gravely ill. When she was in the fourth grade, her Mom passed away 
and she was placed in foster care.
    Over the years, she would move from foster home to foster home; 
until she was finally adopted while in the seventh grade. Even at a 
young age, Sophie never allowed her personal situation to stop her from 
pursuing her dreams. She enjoyed helping people and always dreamed of 
one day becoming a nurse.
    When she turned 18, she decided to move into her own apartment. 
During that period she continued working on her education and received 
her High School Diploma from Miami Jackson Senior High School. She also 
became the mother of two children.
    One day, Sophie observed some young people in the community in 
orange and khaki uniforms. She walked up to one of them and queried 
about the program they were working with. They shared with her the 
opportunities at the Community Action Agency/Greater Miami Service 
Corps. She was excited about what she heard and spoke with her case 
manager at the Children's Home Society. Her case manager provided her a 
referral and she enrolled in the Community Action Agency/Greater Miami 
Service Corps (CAA/GMSC).
    While enrolled in the program, she completed her education at 
Nursing Unlimited; receiving certificates as a Home Health Aide and 
Nursing Assistant. She also received numerous certificates for 
leadership, attendance and ethics from CAA/GMSC. As a result of her 
desire to become a nurse, she was placed on internship at Baptist 
Health South Florida-South Miami Hospital where she received CPR and 
Basic Life Support training and work experience in patient care 
transportation. Sophie recently commenced the employment process with 
the Hospital. Sophie states, ``Without the help from the Corps and the 
Hospital, I would not be able to attain my dreams.''
    Sophie's story is a testament to many young people who are just 
looking for an opportunity to improve their lives.

                                 <F-dash>
               Statement of the Honorable Ruben Hinojosa,
          a Representative in Congress from the State of Texas
    Chairman McDermott, Ranking Member Weller, and Colleagues:
    I appreciate the opportunity to submit a statement into the record 
of your hearing on disconnected and disadvantaged youth. I congratulate 
the Subcommittee for shining a light on the challenges facing our 
nation's disconnected and disadvantaged youth. In my position as 
Chairman of the Higher Education, Lifelong Learning, and 
Competitiveness Subcommittee of the Education and Labor Committee, the 
segment of our nation's youth and young adult population that is 
disconnected from school and work is also of great concern to me.
    I am pleased to focus my statement today on youth experiencing 
homelessness. I congratulate the Chairman for including this population 
of young people within the scope of your hearing, as they are often 
overlooked in the national conversation taking place about 
``disconnected youth.'' In my opinion, there is no more obvious 
indicator of disconnection than the lack of a safe place to live.
    Our nation's homeless youth are exposed to some of the harshest 
elements imaginable. They are exposed to the harsh elements of hot and 
cold weather. They are exposed to the harsh elements of crime, abuse, 
and exploitation on the street. They are vulnerable to illness and 
physical trauma. They are deprived of the protective and nurturing 
elements that come with a home and a strong, supportive family. They 
are robbed of the supports necessary for productive adulthood.
    The National Network for Youth has launched a nation campaign 
called ``A Place to Call Home Campaign.'' This bold initiative is of 
critical importance to our nation. It asserts that no young person 
should have to suffer the fate of being ``thrown away'' by society--
cast out and cast aside without a place to call home. It calls upon all 
sectors of society to assure permanency--lasting connections to people, 
places to live and opportunities and supports--for our nation's 
homeless youth.
    Congress must do its part. That is why I have am planning to 
introduce the Place to Call Home Act, which will ensure that federal 
policy creates solutions rather than barriers for homeless youth.
    I am working with the National Network for Youth to convert the 
goals of the Campaign into policies that we can enact through federal 
legislation. We need a comprehensive approach--one that identifies all 
of our agencies and congressional committees that can help mend the 
social safety net that is torn for homeless youth. Our bill will 
improve programs and remove barriers to services for homeless and other 
disconnected youth in permanent housing, in healthcare, in secondary 
education, higher education, job training, juvenile justice, and child 
welfare. It will be called the Place to Call Home Act. I plan to 
introduce it in July, in time for the commemoration of the 20th 
Anniversary of the enactment of the Stewart B. McKinney Homeless 
Assistance Act, Congress's first comprehensive responsive to mass 
homelessness in our nation.
    Among the bill's provisions of interest to the Ways and Means 
Committee, the Place to Call Home Act will:

        <bullet>  Expand eligibility for federal foster care and 
        adoption assistance to youth through age 20.
        <bullet>  Expand eligibility for the Chafee Foster Care 
        Independence Program, including room and board and education 
        and training vouchers, to youth under the age of 25.
        <bullet>  Increase the mandatory spending levels of the 
        Promoting Safe and Stable Families program to $505 million, and 
        the Chafee program to $200 million.
        <bullet>  Eliminate the income eligibility requirement for 
        federal foster care and adoption assistance.
        <bullet>  Authorize maintenance payments for kinship 
        guardianship assistance to foster care children and youth.
        <bullet>  Prohibit states from enacting policies or practices 
        to place a family within the child welfare system on the sole 
        or primary basis that the family is experiencing homelessness.
        <bullet>  Require states, as a condition of receiving foster 
        care maintenance payments, to have policies and procedures 
        designed to reduce children and youth in their custody from 
        running from their placement.
        <bullet>  Require states, as a condition of receiving foster 
        care maintenance payments, to have policies and procedures 
        designed to ensure that children and youth in their custody are 
        discharged in such a manner that ensures the child or youth is 
        placed in stable and appropriate housing.
        <bullet>  Add homeless youth as a target group for eligibility 
        for the Work Opportunity Tax Credit.
        <bullet>  Permit states to establish a ``transitional 
        compliance period'' in the Temporary Assistance for Needy 
        Families (TANF) program, whereby income-eligible minor parents 
        who at the time of application are having trouble meeting the 
        complex rules and eligibility conditions related to education 
        and living arrangements (such as school dropouts and homeless 
        youth) of the TANF program are nevertheless allowed to receive 
        assistance on the condition that they comply with the minor 
        parent rules within an established period after enrollment.
        <bullet>  Ensure that states provide alternative living 
        arrangements for minor parents seeking TANF assistance and 
        unable to live at home, and to consult with minor parents about 
        their preferred living arrangement.
        <bullet>  End restrictions on states' ability to count 
        participation in vocational and post-secondary training as a 
        strategy for helping parents, including teen parents, attain 
        access to better jobs. Allow 24 months for such participation.
        <bullet>  Commence the lifetime limit on TANF assistance for 
        teen parents completing their education and training programs 
        when they turn age 20, rather than when they turn age 19, in 
        order to allow these older youth to complete their education/
        training without the lifetime limit clock ticking.
        <bullet>  Establish sanctions protections procedures that help 
        teen parents understand, avoid, and/or end sanctions.
        <bullet>  Require the identification of the extent and 
        strategies to address the unmet service and living arrangement 
        needs of teen parents in state TANF plans.
        <bullet>  Require the Secretary of Health and Human Services to 
        conduct studies of: teen parents receiving TANF assistance and 
        to identify state and community best practices related to teen 
        parent enrollment and tracking; teen parents not receiving TANF 
        assistance to identify reasons for non-participation and to 
        measure indicators of family well-being; the effects of 
        paternity establishment policies; and, the nature, extent, and 
        impact of sanctions imposed on parents who have not attained 
        age 20.

    The very estimate that as many as three million of our nation's 
youth and young adults do not have a home at some point in time each 
year is an obvious indication that our social safety net has begun to 
unravel. We need to mend that net and make it strong again. It will 
take all of our efforts, including that of the Ways and Means 
Committee, the Education and Labor Committee, and others.
    I urge this Subcommittee to help me move the Place to Call Home Act 
forward. I hope that members of the Subcommittee will join as co-
sponsors of the legislation and advance its income security and family 
support provisions as part of other legislation you may move through 
Congress this session.
    This hearing is a signal of the 110th Congress's commitment to 
preventing and ending youth homelessness. I trust it will serve as an 
opportunity to mobilize the nation to make sure that every young person 
has a place to call home.

                                 <F-dash>
               Statement of National Council For Adoption
    The National Council For Adoption thanks you for the opportunity to 
submit this written statement for your June 19, 2007 hearing's record, 
on the subject of disconnected, disadvantaged and homeless youth. The 
National Council For Adoption (NCFA) applauds the subcommittee's focus 
on this vulnerable segment of American society. The chairman's and 
subcommittee's leadership in addressing this sad issue creates an 
excellent opportunity for both political parties to enact changes that 
will positively impact millions of Americans.
    We at NCFA are aware of the myriad of ways in which early childhood 
difficulties and a poor environment work to undermine the personal 
development of hundreds of thousands of children, thus placing them at 
risk of growing into disconnected and disadvantaged youth. We also know 
of the role that funding restrictions under Title IV-E of the Social 
Security Act play in keeping thousands of children in foster care 
environments, cut off from those caretakers and role models who could 
provide them with the emotional and personal connections all children 
and youths need to become well-adjusted, contributing members of 
society.
    In 2005, the most recent year for which statistics are available, a 
record 24,407 youths aged out of this nation's foster care system, 
never having experienced the loving, permanent family that is every 
child's birthright.\1\ In 1998, that number was 17,310.\2\ This 
increase is troubling. Not only is emancipation the least desirable 
outcome for a child entering the child welfare system, as it 
presupposes that the child will never be matched to a loving, permanent 
family. It also correlates with increased risk of poverty, 
homelessness, and incarceration among those exiting the system. Given 
these correlations, a reversal of the current trend in the numbers 
emancipated from foster care should be among the goals of any national 
strategy to reduce the number of disconnected and disadvantaged youths.
---------------------------------------------------------------------------
    \1\ The AFCARS Report (#13): Preliminary Estimates for FY 2005, 
Administration of Children and Families, Department of Health and Human 
Services. December, 2006. Available online at http://www.acf.hhs.gov/
programs/cb/stats_research/afcars/tar/report13.htm
    \2\ The AFCARS Report (#12): Final Estimates for FY 1998 through FY 
2005, Administration of Children and Families, Department of Health and 
Human Services. October, 2006. Available online at http://
www.acf.hhs.gov/programs/cb/stats_research/afcars/tar/report12.htm
---------------------------------------------------------------------------
Effects of the Child Welfare System on Foster Children
    Nearly all studies of children in foster care show that they 
experience higher than average rates of behavioral, emotional, 
academic, mental and physical difficulties. This pattern is observed 
even when children in the child welfare system are compared to 
demographically similar children who have remained outside the system. 
For example, the first national overview of the well-being of children 
in the child welfare system, which drew on data from the 1997 and 1999 
National Surveys of America's Families, found that 27 percent of 
children involved with the child welfare system ages 6 through 17 had 
``high levels of behavioral and emotional problems.'' This compares to 
7 percent of all children ages 6 through 17, and 13 percent of children 
in ``high-risk parent care.'' This same overview found that 28 percent 
of all children involved with the child welfare system had ``limiting 
physical, learning, or mental health conditions,'' relative to 7 
percent of all children and 14 percent of children in ``high-risk 
parent care.'' \3\
---------------------------------------------------------------------------
    \3\ Kortenkamp, J. & Ehrle, J. The Well-Being of Children Involved 
with the Child Welfare System, January 2002, The Urban Institute. 
Available online at http://www.urban.org/UploadedPDF/310413_anf_b43.pdf
---------------------------------------------------------------------------
    There are two obvious, and by no means mutually exclusive, 
explanations for this. One is that whatever incident of abuse or 
neglect precipitates the child's entry into the foster care system 
negatively affects the development of that child for years afterward. 
The other is that the individual's stay in the child welfare system, 
oftentimes moving from one foster home or foster care facility to 
another with little opportunity to form lasting personal bonds, is 
detrimental to his or her development. Both these factors are most 
likely at work in the majority of cases.
    A foster child who is ultimately reunited with his or her original 
and rehabilitated family, or placed in a permanent, loving adoptive 
family, can be said to have received a second chance at life--complete 
with the opportunity to heal, which only a loving, stable family can 
provide. This is not the case for those who age out, however. The 
difficulties reported above, disproportionately common among all 
children involved with child welfare services, persist among those who 
are neither reunited with their original families nor adopted.
Socioeconomic Outcomes for Children Who Age Out of Foster Care
    A three-state study of former foster youths, aged 19, who had been 
emancipated from the system found significant deficits in education, 
poorer economic situations, and rates of delinquent or violent behavior 
compared to a nationally representative sample of youths, aged 19, 
studied as a part of the most recent National Longitudinal Study of 
Adolescent Health (NLSAH).\4\
---------------------------------------------------------------------------
    \4\ Courtney, Mark E. et al, Midwest Evaluation of the Adult 
Functioning of Former Foster Youth: Outcomes at Age 19, May 2005, 
Chapin Hall. Available online at http://www.chapinhall.org/
article_abstract.aspx?ar=1355
---------------------------------------------------------------------------
    Thirty-seven percent of former foster youth had neither a high 
school diploma nor a GED at the time of the study, compared to 9 
percent of the NLSAH sample. Also, 24 percent of former foster youth 
were enrolled at the time of their study in a two or four year college 
program, compared to 56 percent of those surveyed in the NLSAH sample.
    Ten percent of former foster youths who reported any income from 
employment in the past year earned $10,000 or more, versus 21 percent 
of those in the NLSAH sample who reported earning any income from 
employment in the previous year. Furthermore, former foster youths were 
significantly more likely than those in the NLSAH sample to report 
having been unable to pay their rent or mortgage (12 percent vs. 6 
percent) and utilities (12 percent vs. 7 percent), as well as to having 
been evicted (4 percent versus .8 percent) in the previous year. 
Perhaps most telling is the fact that 31 percent of former foster 
youths reported not being in school and not having a job at the time of 
the study, compared to 12 percent of those in the NLSAH sample.
    In regard to delinquent and violent behavior, both males and 
females in the former foster youth sample were significantly more 
likely to report having pulled a knife or gun on someone (8 percent of 
males, 4 percent of females) than those in the NLSAH sample (3 percent 
of males, less than 1 percent of females). In addition, 28 percent of 
former foster youths reported having been arrested, and 19 percent 
reported having been incarcerated during the past year. This compares 
dismally to the 0.6 percent of all Americans aged 18-19 who have ever 
been incarcerated, as estimated by the U.S. Department of Justice.\5\ 
Finally, nearly 50 percent of young women formerly in foster care 
reported having been pregnant at least once by age 19, compared to 20 
percent of young women in the NLSAH sample.
---------------------------------------------------------------------------
    \5\ Bonczar, Thomas P., Prevalence of Imprisonment in the U.S. 
Population: 1974-2001, August, 2003, Bureau of Justice Statistics, U.S. 
Department of Justice. Available online at http://www.ojp.usdoj.gov/
bjs/pub/pdf/piusp01.pdf
---------------------------------------------------------------------------
    In short, young men and women who age out of the foster care system 
work less, earn less, are undereducated, and are more likely to engage 
in criminal and delinquent behavior, relative to their peers. These 
facts speak to a continuing disconnection from society among youths who 
age out of the foster care system.

Flexible Funding under Title IV-E of the Social Security Act: Necessary 
to Successful Reform

    Current federal funding legislation prevents the type of reform 
needed to reduce the number of emancipated youths. Title IV-E federal 
dollars are, by far, the largest source of child welfare services 
funding. Sixty-one percent of this funding, however, is earmarked for 
foster care maintenance services at the expense of other crucial child 
welfare services that would allow these youths to find the permanency 
the deserve. States therefore have a clear financial incentive to move 
children into foster care, and no such incentive to move them out. As a 
result, the system falls asleep on the foster care button, and children 
in need of loving, permanent families are left in a government-financed 
limbo instead.
    With this in mind, National Council For Adoption would like to make 
the following recommendations to Congress aimed at increasing the 
flexibility of federal child welfare funds to better provide for 
America's neglected and abused children.

        <bullet>  Reassess the child welfare priorities and reallocate 
        resources so as to give more emphasis and funding to the 
        crucial, but neglected strategy of adoptive and foster parent 
        recruitment;
        <bullet>  Extend the flexibility of the Promoting Safe & Stable 
        Families (Title IV-B, Subpart 2) funding to Title IV-E funding. 
        This would allow states to decide how best to use federal 
        dollars on community-based family support services, family 
        preservation services, time-limited family reunification 
        services, adoptive and foster parent recruitment and training, 
        post-placement services for adoptive and foster families, and 
        adoption promotion and support services, to meet the needs of 
        children in their care;
        <bullet>  Allow states to project their annual expenditures for 
        foster care maintenance (Title IV-E) over a specified period of 
        time. The difference between the state's projected expenditures 
        and the state's actual expenditures are the savings that states 
        may consolidate with their Title IV-B funding to use for other 
        child welfare purposes such as those stated above. States would 
        continue to be required to match their federal savings at their 
        foster care matching rates to ensure that states continue their 
        share of spending for child welfare purposes; and
        <bullet>  Reauthorize the federal child welfare waivers 
        allowing HHS to grant new waivers to 10 states to allow them to 
        use their Title IV-E dollars for other child welfare services 
        not covered by Title IV-E such as post-permanency services to 
        support and strengthen adoptive families. Successful Title IV-E 
        waiver demonstrations in North Carolina, Indiana, Oregon and 
        other states have proven that programs allowing states to use 
        previously restricted, foster care maintenance dollars to 
        underwrite other child welfare services can and do work.

    There are currently 114,000 children in foster care whose parental 
rights have been terminated. Under the current federal financing 
system, a substantial portion of these children will simply age out of 
foster care. However, a shift in child welfare funding away from foster 
care maintenance and toward the placement of these children with 
loving, permanent families would work to decrease the numbers aging out 
of foster care and, by extension, the number of disconnected and 
disadvantaged youths.
    In conclusion, Chairman McDermott and other members of the 
subcommittee, National Council For Adoption would like to thank you for 
the opportunity to present this proposal to reduce the numbers of 
disconnected and disadvantaged youths in the United States. We offer 
our continued assistance in advancing this crucial mission.

                                 <F-dash>
             Statement of National Human Services Assembly
    We, members of the National Human Services Assembly and the 
National Collaboration for Youth, commend this Subcommittee for the 
work it does on behalf of our nation's most vulnerable, and for seeking 
solutions by holding this hearing on disconnected youth.
    The National Human Services Assembly, founded in 1923, is an 
association of the nation's leading national non-profits in the fields 
of community and youth development, and human services. Many of the 
member organizations are national offices of direct human service 
providers. Others conduct research or provide technical assistance.
    The National Collaboration for Youth (NCY), a 33-year old affinity 
group, is a coalition of the National Assembly member organizations 
that have a significant interest in youth development. Members of NCY 
include 50 national, non-profit, youth development organizations that 
collectively serve more than 40 million young people; employ over 
100,000 paid staff; utilize more than six million volunteers; and have 
a physical presence in virtually every community in America. Its 
mission is to provide a united voice as advocates for youth to improve 
the conditions of young people in America, and to help young people 
reach their full potential.
    While many NCY members look to serve all young people, many of our 
organizations have a focus on reaching the most at-risk youth. As 
research demonstrates, and the graphic \1\ included in this testimony 
indicates, children, youth, their families and caregivers often have 
multiple needs and are eligible for a variety of services funded 
through existing federal programs. It is often difficult, however, for 
service providers, young people and their families to access 
opportunities provided by different agencies.
---------------------------------------------------------------------------
    \1\ Dunkle, M. (2002). Understanding LA Systems That Affect 
Families: A Look at How 40+ Programs Might Touch One Los Angeles 
Family. The George Washington University and The LA County Children's 
Planning Council.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    For more than 3 years, NCY members have been working on a piece of 
legislation specifically designed to untangle this mass of services and 
create a seamless web of support for at-risk young people. The Tom 
Osborne Federal Youth Coordination Act (PL 109-365, Title VIII), passed 
at the end of the 109th Congress, but has yet to receive the modest $1 
million in funding necessary to begin the work of the Federal Youth 
Development Council.
    The original legislation, H.R. 856, passed the House in November 
2005 by an overwhelming bipartisan vote of 353 to 62, with 163 
Republicans supporting it, and no Democrats opposing. In fact, we 
remain grateful for the support of both the Chair and Ranking Member of 
this subcommittee for their votes that day.
    If implemented, the Federal Youth Development Council would play a 
vital role in increasing the coordination, cooperation, and efficiency 
among the twelve federal departments and myriad agencies that provide 
services to disadvantaged youth. This new interagency Council, and its 
focus on youth development, will result in considerable benefits for 
young people by providing youth with a more accessible and 
comprehensive array of services.
    In addition to ensuring improved communication and coordination 
among federal departments and agencies, the Council will

        <bullet>  Assess the needs of youth and those who work with 
        youth; and the quantity and quality of federal programs 
        offering services, supports and opportunities to help meet 
        these needs.
        <bullet>  Recommend objectives and quantifiable goals for 
        federal youth programs and recommend allocation of resources to 
        support the goals.
        <bullet>  Identify overlap or duplication and recommend ways to 
        better facilitate coordination, improve efficiency and 
        effectiveness of such programs.
        <bullet>  Identify target populations of youth and focus 
        additional resources or develop demonstration projects and 
        model programs to target those groups.
        <bullet>  Conduct research and evaluation, identify and 
        replicate model programs and promising practices, provide 
        technical assistance relating to the needs of youth, and 
        coordinate the collection and dissemination of youth-services 
        related data and research.
        <bullet>  Provide technical assistance to states to support 
        state-funded youth coordinating councils.

    Additionally, the Council will report to Congress with an 
assessment of the needs of youth and those who serve them, including 
recommendations for better integration and coordination of federal, 
state, and local policies affecting youth.
    The composition of the Council is unique--it acknowledges that 
government alone cannot provide all the solutions needed. Membership on 
the Council includes non-governmental youth development organizations 
and disadvantaged youth. The importance of this design, inclusive of 
all representative stakeholders and expressly authorized in the Act, 
cannot be overstated.
    Organizations, such as ours, are essential partners in providing 
programming to at-risk youth, and can provide valuable insight as to 
how increased communication and coordination at the federal level will 
have a direct impact toward improved services at the local and state 
level. Furthermore, our nation's young people are more than capable of 
articulating the efficacy of policies and programs. As recipients of 
services provided by the federal government they are in the ideal 
position to assist the Council as it moves forward, and by serving on 
the council, youth members might also gain the propensity toward a 
future career in public service.
    While certainly the Federal Youth Development Council cannot 
provide all the solutions that this Subcommittee is seeking, we do 
believe that it is an integral and important part of a system to better 
serve and engage our nation's future leaders.
    Thank you for your time and attention. Any of the undersigned would 
be happy to answer questions you might have, and assist your 
Subcommittee as it works towards finding solutions.
                               __________
Afterschool Alliance, Jodi Grant, Executive Director
Alliance for Children and Families, Peter Goldberg, President and CEO
America's Promise Alliance, Marguerite Kondracke, President and CEO
Big Brothers Big Sisters of America, Judy Vredenburgh, President and 
CEO
Camp Fire USA, Jill Pasewalk, President and CEO
Child Welfare League of America, Christine James-Brown, President and 
CEO
Communities In Schools, Inc., Daniel J. Cardinali, President
First Focus, Bruce Lesley, President
Forum for Youth Investment, Karen J. Pittman, Executive Director
MENTOR/National Mentoring Partnership, Gail Manza, Executive Director
National Collaboration for Youth, Irv Katz, President and CEO
National Network for Youth, Victoria Wagner, President and CEO
National Recreation and Park Association, John A. Thorner, Executive 
Director
The Salvation Army, USA, Commissioner Israel L. Gaither
Search Institute, Peter Benson, President
United Neighborhood Centers of America, Ian Bautista, President
YMCA of the USA, Neil Nicoll, President and CEO
Youth Service America, Steven A. Culbertson, President and CEO

                                 <F-dash>
              Statement of the National Network for Youth
Introduction
    The National Network for Youth (NN4Y), founded in 1974, is a 
national nonprofit membership organization that champions the needs of 
runaway, homeless, and other disconnected youth through advocacy, 
innovation and member services. NN4Y is committed to ensuring that 
opportunities for development and permanency be made available to youth 
who face greater odds due to abuse, neglect, exploitation, 
homelessness, lack of resources, community prejudice, differing 
abilities, barriers to learning, and other life challenges. NN4Y 
provides its members and the general public education, networking, 
training, materials and policy advocacy with federal, state, and local 
lawmakers. NN4Y maintains offices in Seattle, Washington, and in 
Washington, DC.
    Today our membership includes more than 500 community-based, faith-
based, and public organizations that provide an array of services to 
youth and families in the United States and territories as well as some 
international locations. Many of our members receive funding through 
the Federal Runaway and Homeless Youth Act. NN4Y's organization members 
provide the full gamut of preventive, interventive, and developmental 
supports to youth and families in high-risk situations, including 
street-based crisis intervention, emergency shelter, transitional and 
independent housing, permanent housing, individual and family 
counseling, lifeskills, parenting, and health and wellness education, 
physical and mental health treatment and care, supplemental 
educational, workforce development, arts, and recreation services. 
Collectively, NN4Y member organizations serve over 2.5 million youth 
annually. In addition, youth, youth workers, and regional and state 
networks of youth-serving organizations belong to NN4Y.
    By any measure of disconnection, runaway and homeless youth 
certainly fall within its scope. It is this group of young people about 
which this statement is focused.

Runaway and Homeless Youth Basics

    Runaway and homeless youth are the most vulnerable of our nation's 
``disconnected'' youth. The National Network for Youth refers to these 
two populations collectively as ``unaccompanied youth.'' Like other 
disconnected youth, unaccompanied youth experience separation from one 
or more of the key societal institutions of family, school, community, 
and the workplace. Their disconnection is accentuated by their lack of 
a permanent place to live, which is not only disruptive in and of 
itself, but also indicative of the larger socioeconomic instability 
they are experiencing.
    Between one million and three million of our nation's youth 
experience an unaccompanied situation annually, according to various 
estimates derived from government studies and data sets. Some of these 
estimates do not include young adults ages 18 and older within their 
scope.
    Unaccompanied youth become detached from parents, guardians and 
other caring adults--legally, economically, and emotionally--due to a 
combination of family and community stressors.
    Family Stressors--Many of our nation's unaccompanied youth are 
compelled to leave their home environments prematurely due to severe 
family conflict, physical, sexual, or emotional abuse by an adult in 
the home, parental neglect, parental substance abuse, or parental 
mental illness. For other youth, the values and traditions with which 
their families operate prescribe that the young person separate 
economically from the family unit upon reaching the legal age of 
majority or after graduation, in some cases regardless of whether the 
youth is actually prepared for independent adulthood. Others are 
expelled from the home due to parental inability to accept the sexual 
orientation, parenting status, mental or addictive disability, or 
normal adolescent behavior of their child. For still other young 
people, their families are simply too poor to continue to bear the 
financial burden of providing for the youth's basic needs. Youth in 
families that are experiencing homelessness may be separated from the 
family unit--and become homeless on their own--so that emergency 
shelter or domestic violence services can be secured for the remaining 
family members, or to squeeze most of the family into means of 
habitation that are too small for all of its members.
    Community Stressors--State custodial systems--including child 
welfare, juvenile justice, mental health, addiction treatment, and 
developmental disabilities--which have responsibility for ensuring the 
safety and protection of children and youth who are not properly cared 
for by parents and guardians--are failing in general to accept older 
youth into their custody due to financial limitations and policy 
disincentives. Many of the young people who do come in contact with 
public custodial systems are not adequately prepared for independence 
and residential stability during their period of custody nor provided 
an aftercare arrangement to support them after the custodial 
relationship has ended. Many of these young people have no home 
environment to which to return. Youth with mental illness, addiction, 
and other disabilities face discrimination when searching for an 
independent living arrangement.
    Many unaccompanied youth who are psychosocially prepared for 
independent adulthood are not economically ready for self-sufficiency. 
Inadequate educational preparation, lack of employment skills, short or 
non-existent work histories, language barriers, and undocumented 
immigration status all contribute to the relegation of many youth to 
unemployment or to low-wage jobs--neither of which generate income 
sufficient for acquiring affordable housing.
    Policy barriers also stand in the way of permanency for 
unaccompanied youth. In some jurisdictions, youth below the age of 
majority are prohibited from entering into leases or other contracts on 
their own behalf. ``One strike'' laws prohibit individuals with 
criminal histories from residency in public and assisted housing and 
prohibit juvenile ex-offenders from returning to their families. And, 
federal, state, and local public and assisted housing programs rank 
young people low, if at all, among their priority populations for 
assistance.
    Regardless of the causal factor, unaccompanied youth, when left to 
fend for themselves without support, experience poor health, 
educational, and workforce outcomes which imperil their prospects for 
positive adulthood. This results in their long-term dependency on or 
involvement in public health, social service, emergency assistance, and 
corrections systems.

National Network for Youth Public Policy

    The National Network for Youth was founded as the National Network 
of Runaway and Youth Services to be the membership association of 
community-based organizations that had emerged in the 1970s to focus on 
the needs of youth in runaway and homeless situations. NN4Y was the 
architect of the Federal Runaway and Homeless Youth Act (RHYA) and 
still considers that law today as our primary public policy 
accomplishment. We remain vigilant over the RHYA and are the leading 
national organization dedicated to ensuring the Act's continuation 
(through the reauthorization process) and its annual federal 
appropriation, $103 million in federal FY 2007. We urge Congress to 
increase appropriations for RHYA programs to $140 million annual. We 
also call on Congress to reauthorize the Runaway and Homeless Youth 
Act, which is set to expire in 2008.
    Our public policy work reaches far beyond the RHYA, however. We 
also devote attention to ensuring that runaway, homeless, and other 
disconnected youth receive full and fair access to child welfare, 
juvenile justice, physical health, mental health, education, workforce 
investment, positive youth development, and housing opportunities and 
supports.

Place to Call Home and Place to Call Home Act

    In February 2007, the National Network for Youth announced a long-
term campaign to end youth homelessness at the NN4Y annual Symposium in 
Washington, DC in February 2007. A Place to Call Home: The National 
Network for Youth's Permanency Plan for Unaccompanied Youth seeks to 
build the conditions, structures, and supports to ensure permanency for 
unaccompanied youth, where permanency is understood to include a 
lasting connection to loving families, caring adults, and supportive 
peers; a safe place to live; and the youth's possession of skills and 
resources necessary for a life of physical and mental wellness, 
continuous asset-building, dignity, and joy.
    The Place to Call Home Campaign will guide NN4Y's strategy and 
actions for the future. The Campaign involves activities in four work 
areas: public policy advancement and system change; practice 
improvement and professional development; public awareness and 
stakeholder education; and research and knowledge development.
    The signature public policy component of the Place to Call Home 
Campaign is the Place to Call Home Act, comprehensive legislation to 
prevent, respond to, and end runaway and homeless situations among 
youth. We are currently working with Representative Ruben Hinojosa (D-
TX) to develop the Place to Call Home Act. We expect the bill to be 
introduced in July.
    The Place to Call Home Act addresses the causal factors of and 
offers ultimate solutions to unaccompanied situations among youth. The 
bill includes provisions in the homeless assistance, housing, child 
welfare, juvenile justice, public health, education, workforce 
investment, teen parenting, and immigration areas.

Income Security and Family Support Provisions within Place to Call Home 
Act

    The Place to Call Home Act includes many provisions that address 
income security and family support issues within the jurisdiction of 
the Ways and Means Committee. We urge the Subcommittee to act on the 
recommendations below either by bringing up the Place to Call Home Act 
for consideration once it is introduced, by bringing up the provisions 
independently, or by attaching them to other income security and family 
support legislative vehicles.

Child Welfare

    State child welfare systems have the purpose of ensuring the safety 
and protection of children and youth who are not properly cared for by 
parents and guardians. We must strengthen these systems so that they 
provide better access by, and supports for longer periods, to homeless 
and other disconnected youth.
    We urge Congress to expand eligibility for federal foster care and 
adoption assistance to youth through age 20. Terminating such 
assistance at age 18 is not in keeping with what we now know about 
adolescent brain development, which is that the brain does not mature 
to its adult capacity until the mid-20s. So essentially, by terminating 
assistance at age 18, we are abandoning youth at a time when they are 
still in great need of supervision and support.
    Concurrent to an extension of eligibility for foster care to youth 
through age 20, we recommend Congress to extend eligibility for the 
Chafee Foster Care Independence Program to youth under age 25. Included 
in this age extension should be eligibility for room and board and for 
education and training vouchers. We recommend at least a $200 million 
annual spending level ($60 million above current law) for the Chafee 
program. We also recommend the addition of a requirement to evaluate 
use of Chafee room and board services and how they improve housing 
outcomes for youth.
    We recommend that Congress authorize maintenance payments for 
kinship guardianship assistance to foster care children. Guardianship 
is a particularly attractive permanency option for older youth in care. 
Uniform federal policy and funding to states is needed in this 
important area.
    We recommend that Congress require states, as a condition of 
receiving foster care maintenance payments, to have established and 
functioning policies and procedures designed to reduce the numbers of 
children and youth in their custody from running from their placement. 
Analysis of state data uncovers that 21 percent of foster youth run 
from placement. This places a burden on both the child welfare and 
youth homeless assistance systems and may lead to disciplinary action 
against the youth.
    We urge Congress to require states, as a condition of receiving 
foster care maintenance payments, to have established and functioning 
policies and procedures designed to ensure that children and youth in 
their custody are discharged in such a manner that ensures the child or 
youth is placed in stable and appropriate housing. We must block the 
path from child welfare to homelessness for far too many of our 
nation's youth exiting care.
    We recommend that Congress increase from $305 million to $505 
million the mandatory funding level for the Promoting Safe and Stable 
Families Program. This is a vital account that states use to establish 
prevention and early intervention supports for families at risk of 
child removal from the home, and support to homeless families. Our 
nation's children and youth deserve better than to have to scrape 
annually for discretionary dollars for the Promoting Safe and Stable 
Families Program, especially when Congress has already designated a 
portion of PSSF funds as mandatory spending.
    We recommend that Congress eliminate the income eligibility 
requirement for access to foster care and adoption assistance. Income 
should not be a determining factor in a young person and their family's 
ability to access federal child welfare assistance. Child abuse and 
neglect are by no means limited to low-income families.
    We urge Congress to prohibit states from enacting policies or 
practices to place a family within the child welfare system on the sole 
or primary basis that the family is experiencing homelessness. 
Lingering state practices in this regard continue to lead children and 
youth being separated from their family when the core issue is the 
family's inability to obtain a safe living arrangement for all its 
members. There are more pro-social responses to the housing crisis 
among families than to separate children from their caregivers.
    Finally, we request Congress to authorize the Government 
Accountability Office to conduct a study on state policies and 
practices with regard to access of unaccompanied youth to child 
protective services and to foster care and adoption assistance. We need 
to understand better why when homeless youth service providers turn to 
the child welfare system for assistance in caring for a homeless youth, 
the door is too often closed.

Temporary Assistance for Needy Families_Teen Parent Protections

    The Temporary Assistance for Needy Families (TANF) program is an 
essential source of income and supportive services for families in 
poverty, including young families. Teen parents face special barriers 
to accessing and utilizing the TANF program--barriers that must be 
dismantled.
    We urge Congress to permit states to establish a ``transitional 
compliance period,'' whereby income-eligible minor parents who at the 
time of application are having trouble meeting the complex rules and 
eligibility conditions related to education and living arrangements 
(such as school dropouts and homeless youth) of the TANF program are 
nevertheless allowed to receive assistance on the condition that they 
comply with the minor parent rules within an established period after 
enrollment.
    We recommend Congress to ensure that states consult with minor 
parents about their preferred living arrangement. We urge Congress to 
ensure the appropriate provision of alternative living arrangements for 
minor parents unable to live at home. This should include identifying 
transitional living youth projects for older homeless youth funded 
through the Runaway and Homeless Youth Act (RHYA) as a type of 
alternative living arrangement.
    We recommend that Congress end restrictions on states' ability to 
count participation in vocational and post-secondary training as a 
strategy for helping parents, including teen parents, attain access to 
better jobs. Twenty-four months should be allowed for such 
participation.
    While we oppose the lifetime ban on TANF assistance, given that it 
is part of current law, we at least ask Congress to commence the 
lifetime limit on TANF assistance for teen parents completing their 
education and training programs when they turn age 20, rather than when 
they turn age 19, in order to allow these older youth to complete their 
education/training without the lifetime limit clock ticking.
    We recommend that Congress establish procedures that help teen 
parents understand, avoid, and/or end sanctions.
    States should be required to identify the extent of and strategies 
to address the unmet service and living arrangement needs of teen 
parents in state TANF plans.
    And the Secretary of Health and Human Services should be required 
to conduct studies of: teen parents receiving TANF assistance and to 
identify state and community best practices related to teen parent 
enrollment and tracking; teen parents not receiving TANF assistance to 
identify reasons for non-participation and to measure indicators of 
family well-being; the effects of paternity establishment policies; 
and, the nature, extent, and impact of sanctions imposed on parents who 
have not attained age 20.

Work Opportunity Tax Credit

    Congress should add homeless youth as a target group for 
eligibility for the Work Opportunity Tax Credit. Currently, youth 
living in Enterprise Communities and Empowerment Zones are eligible for 
the WOTC. This category needs to be expanded. ``Homeless youth'' for 
purposes of WOTC should be defined as an individual not less than age 
16 and not more than age 24 and otherwise having the same meaning as 
``homeless child and youth'' under federal education law.

Conclusion

    Thank you for considering our views and recommendations. We hope 
the Committee on Ways and Means and the Subcommittee on Income Security 
and Family Support will join us in our campaign to ensure a Place to 
Call Home for all our nation's youth.

                                 <F-dash>
               Statement of National YouthBuild Coalition
Introduction

    Thank you, Mr. Chairman and members of the Committee for allowing 
me to submit this statement for the record. Thank you for holding this 
important hearing.
    I belong to various organizations and task forces that have 
developed and will submit broad sets of policy and funding 
recommendations to address the range of issues affecting disconnected 
youth. Therefore, knowing that you will receive such recommendations 
from elsewhere, in this testimony submitted as chairperson of the 
National YouthBuild Coalition, I will focus simply on the powerful 
potential role of the federal YouthBuild program as part of the 
solution to the crisis of disconnected youth.
    We recommend that Congress seize the leadership role in taking 
YouthBuild to full scale: Bring it to every community that is calling 
for it, open the doors to all the young people who are knocking, 
eliminate waiting lists of both youth and of community-based 
organizations eager to implement YouthBuild in America's poorest 
communities. Within five years YouthBuild could grow from 8,000 youth 
per year in 226 communities to 50,000 youth in 850 communities, 
producing beautiful housing and proud young leaders, eager to make a 
difference, rebuilding their own lives and their own communities.

YouthBuild Description and History

    YouthBuild is a national youth and community development program 
that simultaneously addresses the key issues facing low-income 
communities: housing, education, employment, crime prevention, 
community service, and leadership development.
    In YouthBuild programs, sponsored primarily by community-based non-
profit organizations, low-income disconnected young people ages 16-24 
enroll full-time for 6 to 24 months. They work toward their GEDs or 
high school diplomas while learning construction job skills by building 
affordable housing for homeless and low-income people. A strong 
emphasis is placed on leadership development, personal counseling, 
positive values, community service, and personal responsibility. The 
members belong to a positive mini-community in which students and 
teachers are committed to each other's success. They take pride in the 
housing they produce.
    YouthBuild students go through a process of personal transformation 
that has been documented by independent researchers to result in a 
radical change in the students' attitudes and future aspirations, 
coupled with acquisition of skills that enable them to move on to 
careers and post-secondary education. We also see graduates getting 
married, buying homes, and caring well for their children.
    YouthBuild began in Chairman Rangel's East Harlem district in 1978. 
It was replicated in New York City and across the country before being 
authorized as a federal program in 1992 under the jurisdiction of the 
US Department of Housing and Urban Development. Since 1994, when HUD 
YouthBuild funds first reached communities, more than 68,000 YouthBuild 
students have produced 16,000 units of low-income housing. Today, there 
are 226 YouthBuild programs in 42 states, engaging approximately 8,000 
young adults each year in America's poorest urban, rural and tribal 
communities.
    In September, 2006, at the recommendation of the Bush 
Administration, YouthBuild was transferred by unanimous consent in 
Congress to the jurisdiction of the US Department of Labor. The 
National YouthBuild Coalition of nearly 1,000 organizations cooperated 
with this move in the hope that it was the precursor to a major 
expansion that would use YouthBuild's proven approach to reconnect more 
of America's lost youth.

Need:

    I don't need to belabor just how dire is the need to reconnect 
America's under-educated and unemployed youth. A few statistics 
released recently at a national summit on dropouts tell the grim story:

        <bullet>  More than one million American high school students 
        leave high school every year without a diploma.
        <bullet>  Nearly half of all African Americans, Hispanics and 
        Native Americans fail to graduate with their high school 
        classes.
        <bullet>  1.7 million low income youth are both out of school 
        and out of work, likely to be the parents of the next 
        generation raised in poverty and despair.
        <bullet>  Another 225,000 are in prison.

    A major federal intervention is desperately needed. Every effective 
program should be immediately taken to full scale; and every community 
should be mobilized to address this problem in a cohesive fashion. The 
problem is finite and can be solved. YouthBuild is ready with a track 
record and the infrastructure to grow quickly as part of a national 
mobilization.

YouthBuild Demographics and Outcomes

    YouthBuild students are the very disconnected and disadvantaged 
youth who are the focus of this hearing. They are detached from school 
and work. 91 percent are high school dropouts; 72 percent are young 
men; 48% are African American, 22% Latino, 22% White, 3% Native 
American; 33% have been adjudicated, 10% in foster care; 30% have been 
homeless. They are both urban and rural. Twenty-six percent are already 
young parents themselves.
    YouthBuild programs have demonstrated the principles and practices 
that work to reconnect most youth and to create pathways to higher 
education, careers, and citizenship. What we have learned is that every 
disconnected youth is yearning to become somebody that other people 
will welcome and respect, and if given the right conditions they will 
transform their own lives and play a constructive role in society.
    The 226 existing YouthBuild programs, all based on the same 
philosophy and model, have been highly successful. Although 91 percent 
of the students were previously high school dropouts and all of them 
are poor, nearly 70 percent complete the program, and 71 percent of 
graduates go on to college or jobs earning an average of nearly $9 an 
hour. The recidivism rate for graduates previously convicted of a 
felony is less than 24 percent, compared to 67 percent nationwide.
    Imagine the social and economic impact across the country of 
simultaneously helping 70 percent of high school dropouts complete 
their GED or diploma while drastically reducing the recidivism rate of 
youthful offenders to just 24 percent!

Demand:

    The challenge for the YouthBuild network is quite simply this: We 
have only enough resources to serve a fraction of the young people who 
seek a second chance, in this nation that believes in second chances. 
Each year YouthBuild programs turn away 14,000 youth for lack of funds: 
800 in North Philadelphia, 500 in Harlem, 400 in Newark, 800 in 
Madison, and so on. Furthermore, over 1,000 community-based 
organizations have applied to HUD since 1994 to bring this proven and 
inspiring program to their neighborhoods. Over 600 traveled to DC for 
DOL's first YouthBuild bidders' conference this month. DOL only has 
funds for 100.

Recommendation:

    Congress should establish a five-year plan in partnership with DOL 
and YouthBuild USA, to expand the federal YouthBuild program to full 
scale. This successful network could grow through a planned five year 
growth process from 8,000 low-income, disadvantaged youth in 226 
communities to 50,000 youth in 850 communities.
    The federal YouthBuild program has developed a public/private 
partnership that has coupled the long-term commitment, knowledge, and 
leveraged resources of YouthBuild USA with the know-how and capacity of 
several federal agencies. The federal government has built the 
infrastructure with an investment of $650M; YouthBuild USA has brought 
$114M into the mix; and local YouthBuild programs have raised over $1B 
of matching funds. Together we have the knowledge, infrastructure, 
commitment, capacity, and demand to do this within five years. It would 
take a steady annual increase to an appropriation of $1B in the fifth 
year, at an annual cost per full-time youth participant of $20,000. 
This includes a $5,000 stipend for each youth to compensate for their 
hard work and service producing affordable housing.
    Part of this growth plan should include a federal incentive for 
states to join in, by offering a 50% federal match for every 
adjudicated young person funded by any state government to participate 
in YouthBuild programs as a diversion or re-entry program. In 
Wisconsin, California, and Newark state governments have already 
noticed YouthBuild and begun to invest in it as a re-entry program. 
States could save millions by lowering the recidivism rates through 
YouthBuild.

How YouthBuild Works: The Formula to ``Flip the Script''

    YouthBuild is not the only program that works. It is, however, the 
only national program that reaches a highly disadvantaged population 
with a comprehensive community-based program that puts equal emphasis 
and commits equal time to education and job training, that offers job 
training in the form of creating a profoundly valuable community 
service, and that is committed to teaching leadership skills and values 
through engaging the young people in helping to develop the policies 
that affect them. There are precious few pipelines for low-income youth 
to become good citizens, to take on active leadership roles in their 
communities.
    The formula to do what the young people call ``flip the script'' of 
their lives, taking them from a negative direction to a positive 
direction, includes all of the following elements:

        <bullet>  a way for young adults to resume their education 
        toward a high school diploma and college
        <bullet>  skills training toward decent-paying jobs
        <bullet>  an immediate visible role contributing to the 
        community that earns respect from family and neighbors
        <bullet>  stipends or wages to support themselves and their 
        children
        <bullet>  personal counseling from admired, deeply-caring role 
        models who are committed to these young adults and who also 
        firmly challenge self-defeating attitudes from a basis of love
        <bullet>  positive peer support with a clear value system 
        strong enough to compete with the streets
        <bullet>  a mini-community that offers a sense of belonging and 
        a foundation young people can believe in--with everyone 
        committed to everyone else's success
        <bullet>  a role in governance and the ability to participate 
        in important decisions about staff and policies in their own 
        programs
        <bullet>  leadership development and civic education offering a 
        vision of the important role young adults can play in their 
        neighborhoods and society to change conditions that have harmed 
        them and the people they love--and the skills to do so
        <bullet>  assistance in managing money and building assets such 
        as individual development accounts, scholarships, financial 
        literacy training, and budgeting
        <bullet>  placements with colleges and employers
        <bullet>  support after graduation with continued counseling 
        and the opportunity to belong to a supportive community.

    This is the YouthBuild model. If caring, competent adults offer 
those elements in an environment of profound respect for the 
intelligence and value of the young people, you will see dramatic 
changes. Young people will define new goals for their lives and will 
gain the skills and confidence to take real steps toward achieving 
their goals.

The Voice and Experience of Disconnected Youth, One Story Representing 
Hundreds of Thousands:

    Listen to what Mike Dean has to say:
    When he was just 11 years old in Columbus, Ohio, Mike cut hair to 
put food on the table for his four younger siblings--often just Ramen 
noodles. Their mom was hooked on drugs and alcohol and was gone 
frequently for a day or two at a time. Mike had to get his sisters and 
brothers ready for school. He often was embarrassed at school because 
roaches would crawl out of his clothes or notebooks. An average 
student, he lettered in basketball, a sport that kept him in high 
school.
    At age 16, he fled his home life and spent the next few years 
crashing at different friends' homes. He often skipped school for weeks 
at a time. He wasn't a gangster or a bad kid--just one without 
direction. At age 17, he got his 15-year-old girlfriend pregnant. When 
the basketball coach found out Mike was a runaway, he was cut from the 
team. Behind academically, Mike dropped out of school completely and 
hung out with the wrong crowd, drinking and getting high. He tried 
working at McDonalds but saw how much his drug dealer friends were 
earning so he joined their ranks. He was arrested and went to the 
workhouse for a few weeks. But when he got out, he returned to his old 
ways again.
    Mike's girlfriend saw an ad for YouthBuild, and they both applied. 
In YouthBuild, Mike suddenly found people who showed him genuine love, 
a new experience for him. ``Eventually, YouthBuild became my family, 
and I let a lot of my old friends go,'' he says. ``These people really 
gave me a chance, despite all that had transpired. There were people 
who actually showed they cared.''
    Today, Mike is 30. He earned his GED through YouthBuild. He earned 
more than $10 an hour at union construction jobs. Today, he is a 
program manager/construction manager at YouthBuild, helping other young 
people who were once like him. He is vice president of the national 
YouthBuild alumni council. He's starting his own construction business.
    He married his girlfriend, and they have three children with a 
fourth on the way. He owns his own home. He is an ordained minister and 
vice president of a nonprofit that mentors young men. He would like to 
start his own nonprofit to help juveniles successfully return to their 
neighborhoods after they have been in juvenile detention facilities. He 
wants to create the nonprofit to honor the memory of his younger 
brother who was shot to death after he left a juvenile detention 
facility.
    In your own states, your own communities, you have young men--and 
women--who were just like Mike Dean. Adrift. Floundering. Heading 
downhill fast. You can play a major role in determining whether they 
turn their lives around.

In Closing:

    Let me just say again: We know what works. We simply need the 
resources to expand so we can engage tens of thousands more young 
people in programs such as YouthBuild. All the programs with waiting 
lists should be supported to open their doors to all the youth who are 
knocking. They are leaving the public schools and lining up outside the 
doors of programs that offer them a sense of belonging to a caring 
community, skills for jobs and college, and clear pathways to a hope-
filled and meaningful future.
    I am convinced that if we do this, we can solve one of America's 
most pressing domestic policy challenges. In fact, if we build up a 
head of steam so that young people all across the country see the doors 
opening for their friends and former street buddies, I believe they 
would all want to follow their friends, creating a great movement in 
the right direction. We have seen this often: for example, after Trevor 
Daniels joined Youth Action YouthBuild in East Harlem, and found a 
pathway to college, the next year sixteen of his friends from his 
housing project followed right behind him, and joined YouthBuild, with 
new hope in their hearts.
    Thank you very much for this opportunity to submit this statement 
to this subcommittee.

                                                   Dorothy Stoneman
                   Chairperson of the National YouthBuild Coalition

                                 <all>

</pre></body></html>
